<html>
<title> - A SYSTEMS APPROACH TO IMPROVING K-12 STEM EDUCATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
                         A SYSTEMS APPROACH TO
                     IMPROVING K-12 STEM EDUCATION
=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON RESEARCH AND
                           SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION
                               __________

                             JULY 30, 2009
                               __________

                           Serial No. 111-47
                               __________

     Printed for the use of the Committee on Science and Technology



     Available via the World Wide Web: http://www.science.house.gov

                                 ______


                        U.S. GOVERNMENT PRINTING OFFICE
51-162 PDF                WASHINGTON: 2010
________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; 
(202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 
20402-0001











                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                   HON. BART GORDON, Tennessee, Chair
JERRY F. COSTELLO, Illinois          RALPH M. HALL, Texas
EDDIE BERNICE JOHNSON, Texas         F. JAMES SENSENBRENNER JR., 
LYNN C. WOOLSEY, California              Wisconsin
DAVID WU, Oregon                     LAMAR S. SMITH, Texas
BRIAN BAIRD, Washington              DANA ROHRABACHER, California
BRAD MILLER, North Carolina          ROSCOE G. BARTLETT, Maryland
DANIEL LIPINSKI, Illinois            VERNON J. EHLERS, Michigan
GABRIELLE GIFFORDS, Arizona          FRANK D. LUCAS, Oklahoma
DONNA F. EDWARDS, Maryland           JUDY BIGGERT, Illinois
MARCIA L. FUDGE, Ohio                W. TODD AKIN, Missouri
BEN R. LUJAN, New Mexico             RANDY NEUGEBAUER, Texas
PAUL D. TONKO, New York              BOB INGLIS, South Carolina
PARKER GRIFFITH, Alabama             MICHAEL T. MCCAUL, Texas
STEVEN R. ROTHMAN, New Jersey        MARIO DIAZ-BALART, Florida
JIM MATHESON, Utah                   BRIAN P. BILBRAY, California
LINCOLN DAVIS, Tennessee             ADRIAN SMITH, Nebraska
BEN CHANDLER, Kentucky               PAUL C. BROUN, Georgia
RUSS CARNAHAN, Missouri              PETE OLSON, Texas
BARON P. HILL, Indiana
HARRY E. MITCHELL, Arizona
CHARLES A. WILSON, Ohio
KATHLEEN DAHLKEMPER, Pennsylvania
ALAN GRAYSON, Florida
SUZANNE M. KOSMAS, Florida
GARY C. PETERS, Michigan
VACANCY
                                 ------                                

             Subcommittee on Research and Science Education

                 HON. DANIEL LIPINSKI, Illinois, Chair
EDDIE BERNICE JOHNSON, Texas         VERNON J. EHLERS, Michigan
BRIAN BAIRD, Washington              RANDY NEUGEBAUER, Texas
MARCIA L. FUDGE, Ohio                BOB INGLIS, South Carolina
PAUL D. TONKO, New York              BRIAN P. BILBRAY, California
PARKER GRIFFITH, Alabama                 
RUSS CARNAHAN, Missouri                  
BART GORDON, Tennessee               RALPH M. HALL, Texas
               DAHLIA SOKOLOV Subcommittee Staff Director
           MELE WILLIAMS Republican Professional Staff Member
            MARCY GALLO Democratic Professional Staff Member
                    BESS CAUGHRAN Research Assistant
                            C O N T E N T S

                             July 30, 2009

                                                                   Page

Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Daniel Lipinski, Chairman, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........     8
    Written Statement............................................     9

Statement by Representative Vernon J. Ehlers, Ranking Minority 
  Member, Subcommittee on Research and Science Education, 
  Committee on Science and Technology, U.S. House of 
  Representatives................................................    10
    Written Statement............................................    10

Prepared Statement by Representative Russ Carnahan, Member, 
  Subcommittee on Research and Science Education, Committee on 
  Science and Technology, U.S. House of Representatives..........    11

                               Witnesses:

Dr. Wanda E. Ward, Acting Assistant Director, Directorate for 
  Education and Resources, National Science Foundation (NSF)
    Oral Statement...............................................    12
    Written Statement............................................    14
    Biography....................................................    20

Ms. Maggie Daley, Chair, After School Matters, Chicago, Illinois
    Oral Statement...............................................    20
    Written Statement............................................    23
    Biography....................................................    33

Mr. Michael C. Lach, Officer of Teaching and Learning, Chicago 
  Public Schools
    Oral Statement...............................................    33
    Written Statement............................................    35
    Biography....................................................    41

Dr. Donald J. Wink, Professor of Chemistry; Director of 
  Undergraduate Studies, Department of Chemistry; Director of 
  Graduate Studies, Learning Sciences Research Institute, 
  University of Illinois at Chicago
    Oral Statement...............................................    42
    Written Statement............................................    43
    Biography....................................................    62

Ms. Katherine F. Pickus, Divisional Vice President, Global 
  Citizenship and Policy, Abbott; Vice President, Abbott Fund
    Oral Statement...............................................    64
    Written Statement............................................    65
    Biography....................................................    69

Discussion.......................................................    69

 
          A SYSTEMS APPROACH TO IMPROVING K-12 STEM EDUCATION

                              ----------                              


                        THURSDAY, JULY 30, 2009

                  House of Representatives,
    Subcommittee on Research and Science Education,
                       Committee on Science and Technology,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Daniel 
Lipinski [Chairman of the Subcommittee] presiding.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                            hearing charter

             SUBCOMMITTEE ON RESEARCH AND SCIENCE EDUCATION

                  COMMITTEE ON SCIENCE AND TECHNOLOGY

                     U.S. HOUSE OF REPRESENTATIVES

                         A Systems Approach to

                     Improving K-12 STEM Education

                        thursday, july 30, 2009
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

I. Purpose

    On July 30, 2009 the Subcommittee on Research and Science Education 
of the House Committee on Science and Technology will hold a hearing to 
examine how the many public and private stakeholders in an urban K-12 
system can work together to improve science, technology, engineering 
and mathematics (STEM) education inside and outside of the classroom.

2. Witnesses

        <bullet>  Dr. Wanda Ward, Acting Assistant Director, 
        Directorate for Education and Human Resources, National Science 
        Foundation (NSF)

        <bullet>  Ms. Maggie Daley, Chair, After School Matters

        <bullet>  Mr. Michael Lach, Officer of Teaching and Learning, 
        Chicago Public Schools

        <bullet>  Dr. Donald Wink, Director of Undergraduate Studies, 
        Department of Chemistry, and Director of Graduate Studies, 
        Learning Sciences Research Institute, University of Illinois at 
        Chicago

        <bullet>  Ms. Katherine Pickus, Divisional Vice President, 
        Global Citizenship and Policy, Abbott

3. Overarching Questions

        <bullet>  Who are the many public and private stakeholders in 
        the K-12 STEM education system? What are, or should be, their 
        respective roles and responsibilities? What kinds of 
        partnerships across the system are most effective at leveraging 
        resources and intellectual capital? How do these partnerships 
        ensure continuity in teaching and learning between the 
        classroom and informal environments such as after-school 
        programs?

        <bullet>  What are the major barriers to improving the interest 
        and performance of K-12 students and teachers in STEM? Are 
        there model programs or approaches to curriculum and 
        instruction that have demonstrated how to increase student 
        achievement and/or teacher performance? What are the most 
        important and effective components of these programs? How are 
        these programs evaluated for effectiveness? How can 
        partnerships between various stakeholders in the STEM education 
        system facilitate the identification and implementation of 
        successful models?

        <bullet>  How do NSF programs support the improvement of the 
        teaching and learning of STEM disciplines in the pre-K through 
        12 years? What instructional tools, resources, materials, and 
        technologies has NSF supported to enable STEM learning? Under 
        what conditions, and for whom, are such resources for learning 
        most effective? How can NSF help to disseminate successful 
        tools and resources and facilitate effective partnerships 
        between other stakeholder groups in the STEM education system?

4. Background

A Systems Approach
    A consensus now exists that improving STEM education throughout the 
Nation is a necessary, if not sufficient, condition for preserving our 
capacity for innovation and discovery and for ensuring U.S. economic 
strength and competitiveness in the international marketplace of the 
21st century. The National Academies Rising Above the Gathering Storm 
report placed a major emphasis on the need to improve STEM education 
and made its top priority increasing the number of highly qualified 
STEM teachers. This recommendation was embraced by the 2007 America 
COMPETES Act.
    Two more recent STEM education reports that have generated a lot of 
attention have emphasized, as part of their priority recommendations, 
the need for greater coordination between the many public and private 
stakeholders in the Nation's K-12 STEM education system. The reports 
are: ``A National Action Plan for Addressing the Critical Needs of the 
U.S. STEM Education System,'' from the National Science Board (NSB),\1\ 
and ``The Opportunity Equation,'' from the Carnegie Corporation's 
Institute for Advanced Study.\2\ The stakeholders cited in these 
reports include the Federal and State governments, colleges and 
universities, businesses, a variety of nonprofit organizations, 
philanthropic organizations, and of course, school districts 
themselves.
---------------------------------------------------------------------------
    \1\ http://www.nsf.gov/nsb/documents/2007/
stem<INF>-</INF>action.pdf
    \2\ http://www.opportunityequation.org/
---------------------------------------------------------------------------
    In a related effort, the Business Higher Education Forum just 
launched a new education system predictive modeling tool to ``provide 
an organized and comprehensive approach to viewing and understanding 
the complex, multi-level nature of the U.S. and STEM education 
system.'' The STEM Research and Modeling Network (SRMN),\3\ which 
provided input to the development of and now oversees the model, is 
composed of representatives from all of the aforementioned stakeholder 
groups.
---------------------------------------------------------------------------
    \3\ http://www.bhef.com/solutions/stem/srmn.asp
---------------------------------------------------------------------------
    The Science and Technology Committee held a hearing on the NSB 
report in October 2007 to review the recommendations in the report, 
which addressed both federal interagency coordination and coordination 
across all of the stakeholder groups. In response to the recommendation 
for greater interagency coordination, the Committee introduced H.R. 
1709, the STEM Education Coordination Bill of 2009, which passed the 
House last month and has a companion bill in the Senate, S. 1210. The 
Committee is continuing to explore possible roles for the Federal 
Government in facilitating greater coordination among the full range of 
stakeholder groups.

K-12 STEM Education at the National Science Foundation
    Science and math education is a cornerstone of the historic mission 
of the National Science Foundation. The National Science Foundation Act 
of 1950, which established NSF, directed NSF to support and strengthen 
science and math education programs at all levels. NSF carries out its 
K-12 mission by supporting a variety of STEM education activities, 
including teacher training (both in-service and pre-service), 
curriculum development, education research, and informal education at 
museums, science centers and other after school settings.
    Examples of NSF programs designed to improve K-12 teacher 
performance include the Math and Science Partnership (MSP) Program and 
the Robert Noyce Scholarship (Noyce) Program, both reauthorized in 2007 
as part of the America COMPETES Act. The MSP Program funds partnerships 
between universities and local school districts to strengthen the 
science and math content knowledge of K-12 school teachers. The grants 
are awarded to support the creation of innovative reform programs that 
could be expanded to the State level if successful. The Robert Noyce 
Scholarship Program is designed to help recruit highly-qualified 
science and math teachers through grants to college and universities to 
give scholarships to science and math majors in return for their 
commitment to teach at the elementary or secondary school level.
    Additional NSF programs targeted to K-12 education include 
Discovery Research K-12, which funds everything from basic research on 
learning and teaching to the development and implementation of tools, 
resources, curricula, models and technologies based on the research 
findings; Informal Science Education, which funds projects that advance 
informal STEM education; and Research and Evaluation on Education in 
Science and Engineering, which seeks to improve the methodology of 
education research and evaluation of education tools and models to 
ensure high-quality research results and effective program development. 
The Graduate STEM Fellows in K-12 Education (GK-12) Program puts 
science and engineering graduate students into K-12 classrooms on a 
part-time basis during their graduate studies. Primarily this is 
considered a professional development program for graduate students--in 
particular to strengthen their communication skills and instill a 
deeper appreciation for the societal context for their research; 
however, when effectively integrated with broader university 
partnerships with local schools and school districts, GK-12 fellows can 
also contribute in a meaningful and lasting way to student and teacher 
performance in the classroom.

Chicago: A Large Urban School District
    Last year the Committee held a hearing to learn about STEM 
education in Texarkana, Texas, a small town of 35,000 in northeast 
Texas.\4\ Similarly, in today's hearing, the Committee is examining a 
systems approach to STEM education using Chicago as a case study for a 
large urban school district. Chicago Public Schools (CPS), the third 
largest school district in the Nation, currently operates 666 schools, 
including 483 elementary and middle schools, 116 high schools and 67 
charter schools. Total student enrollment is nearly 408,000--nearly 20 
percent of all Illinois public school students. The CPS student 
population is 46.2 percent African American, 41.2 percent Latino, 8.9 
percent White and 3.5 percent Asian/Pacific Islander. CPS students have 
made some notable gains in achievement in recent years. The composite 
percentage of students meeting or exceeding State standards on the 
Illinois Student Achievement Test has risen from 47 percent in 2004 to 
69.8 percent in preliminary 2009 data. The number of high school 
students taking at least one Advanced Placement course has doubled from 
less than 6,000 in 2004 to 12,464 a year ago. The district's drop-out 
rate has decreased by about seven percentage points since 2003 and the 
graduation rate has risen by almost the same amount during the same 
period. However, the most recent Prairie State Achievement Examination 
showed that more than 70 percent of high school juniors failed to meet 
State standards in math and science. Average math and science scores on 
the national ACT exam also indicate a lack of college readiness among a 
high percentage of CPS high school students. Improving the achievement 
of CPS students in math and science will require an all hands on deck, 
coordinated effort by local universities, businesses, and nonprofit 
organizations in partnership with CPS. Witnesses today will discuss 
several of those partnerships and the gains already demonstrated.
---------------------------------------------------------------------------
    \4\ http://science.house.gov/publications/
hearings<INF>-</INF>markups<INF>-</INF>details.aspx?NewsID=2181

---------------------------------------------------------------------------
5. Questions for Witnesses

Wanda Ward

1.  What evidence is available from NSF-funded projects to help us 
better understand how students develop interests in STEM fields in the 
pre-K through 12 years, and how can those interests be sustained across 
the high school to post-secondary education transition? Are there model 
programs or approaches to curriculum and instruction that have 
demonstrated how to engage students successfully in STEM areas and that 
lead to choice of STEM degrees and careers? What is the role of out-of-
school learning in encouraging STEM interest and achievement?

2.  How do NSF programs support the improvement of the teaching and 
learning of the STEM disciplines in the pre-K through 12 years? What 
programs are available to improve teachers' knowledge and abilities, 
and what does research tell us about the best ways to enable teachers' 
effectiveness in promoting learning? What types of programs and models 
for STEM teacher preparation, induction, and professional development 
show the most promise for supporting STEM teachers' learning, and what 
can be learned from the implementation of such programs and models?

3.  What instructional tools, resources, materials, and technologies 
has NSF supported to enable STEM learning? Under what conditions, and 
for whom, are such resources for learning most effective? Does research 
provide insight into what kinds of instructional materials and tools 
are most useful in supporting learning at various levels, and for 
various groups of learners? How much do regional differences across the 
United States account for the efficacy of any given set of tools or 
materials?

Maggie Daley

1.  What is After School Matters (ASM)? What kind of science, 
technology, engineering and mathematics (STEM) programming does ASM 
offer? What partnerships have you built in support of your 
programming--in terms of both financial support and intellectual 
resources?

2.  How does ASM's informal learning complement the formal education 
students receive in the classroom? How do you work with the local 
school districts to develop your STEM programming and to ensure a 
seamless transition from the formal education of the classroom, 
including adherence to State or local standards, and the informal 
education provided by ASM? How do you assess the impact of your 
programs on student interest and/or achievement in STEM?

3.  What are the major challenges that inhibit the interest or 
performance of youth in your after school STEM programs? What steps has 
ASM taken to address these challenges? Do you have any recommendations 
to the private sector or to State and federal stakeholders on how they 
can take better advantage of not-for-profit organizations such as ASM 
in their own efforts to improve STEM education?

Michael Lach

1.  What is the overall state of science, technology, engineering and 
mathematics (STEM) education in Chicago Public Schools (CPS)? Why is it 
important for all students to achieve proficiency in these subjects?

2.  How do you work with the local private sector, not-for-profit 
organizations, and colleges and universities to improve STEM education 
in CPS? Please describe these partnerships and activities. How do you 
develop such partnerships and activities, and how do you assess them in 
terms of impact on student achievement?

3.  What are the major problems that limit the performance of students 
and teachers, and what do you feel is the single, most important step 
that the Federal Government should take to improve K-12 STEM education? 
What involvement have you had with math and science education programs 
at the National Science Foundation or other federal agencies as well as 
those in the State of Illinois? What are the most important and 
effective components of these programs?

4.  What role should parents play in improving K-12 STEM education? Do 
you have outreach programs intended to engage parents in their 
children's K-12 STEM education?

Donald Wink

1.  Please describe briefly the University of Illinois at Chicago's 
(UIC) K-12 science, technology, engineering and mathematics (STEM) 
education programs and initiatives, including those that involve 
education and professional development for math and science teachers. 
How have you and your colleagues worked with Chicago Public Schools in 
developing or revising these programs over time? What other partners--
public or private--have provided funding or have otherwise been 
involved in the development or implementation of these programs? How do 
you evaluate the effectiveness of these programs and partnerships?

2.  What are the major problems that limit the performance of students 
and teachers in STEM? What are the most important and effective 
components of the National Science Foundation (NSF) funded programs 
(including the Math and Science Partnership Program, the Robert Noyce 
Teacher Scholarship Program, and the Graduate STEM Fellows in K-12 
Education Program) that UIC has implemented in partnership with Chicago 
Public Schools? Are there common lessons learned or replicable elements 
across UIC's various science and math programs, including those funded 
by NSF? How do you or can you help to disseminate these findings to 
other cities and regions of the country?

3.  What is the most important role a university such as your own can 
play in improving K-12 STEM education in your own community and/or 
nationally? How can universities help facilitate and build partnerships 
with other stakeholders, including the private sector and informal 
education providers? What is the single, most important step that the 
Federal Government should take to improve K-12 STEM education?

Katherine Pickus

1.  Please describe what Abbott does. What percentage of your U.S. 
workforce has a science, technology, engineering and/or mathematics 
(STEM) background? Are you able to recruit locally for these positions 
and if not, why not? How does investing in K-12 STEM education in the 
U.S. communities in which you are located benefit your own future 
workforce needs? Why else is it important for Abbott to be interested 
in K-12 STEM education?

2.  How do you work with the local school districts and with colleges 
and universities to help build a talented STEM talent pool from which 
to recruit? How do you work with other companies and organizations in 
the private and not-for-profit sectors to improve STEM education both 
nationally and within your community? Please describe these activities, 
the kind of partnerships involved, the level of investment in such 
activities, and how you go about developing and assessing such 
activities. How do you prepare your own scientists to work with youth 
in or out of the schools?

3.  What do you see as the biggest challenges to improving STEM 
education in this country? Can you provide specific examples of 
barriers that you have faced in your own efforts to build partnerships 
and invest in STEM education in your own communities? Do you have any 
recommendations to State or federal stakeholders on how they can take 
better advantage of the private sector in their own efforts to improve 
STEM education?
    Chairman Lipinski. This hearing will come to order.
    Good morning and welcome to this Research and Science 
Education Subcommittee hearing on a systems approach to 
improving science, technology, engineering and math education, 
commonly called STEM education. This is the third STEM-related 
hearing that this subcommittee has held this year, a fact that 
reflects both the national importance of the STEM fields and 
the complexity of STEM education reform.
    The Science and Technology Committee, and our subcommittee 
in particular, have made STEM education a top priority. In 
hearings and reports we have repeatedly heard that innovation 
is key to maintaining a high standard of living for all 
Americans, and that we need more teachers and more graduates in 
the STEM fields if we want our country to continue to lead in 
the global economy. Unfortunately, American students have been 
lagging their international peers, while American businesses 
are warning about a wave of retirements without adequately 
trained young people to fill these vacated positions, 
especially in engineering fields. But we know that there is no 
panacea and no one entity that can solve this alone, as recent 
reports from the National Science Board and the Institute for 
Advanced Study have made clear.
    Reform of our STEM education system will require 
coordination on multiple fronts across many diverse 
stakeholders. In addition to several federal agencies, there 
are State and local governments, school districts, 
universities, non-profits, businesses, community organizations, 
teachers, students, and--if a child is fortunate--their 
parents. I don't doubt that some high-level planning and 
coordination will be helpful, including in the movement toward 
common core standards in which almost all states are now 
engaged. The Science and Technology Committee has begun 
addressing coordination issues at the federal level, notably 
through the STEM Education Coordination Bill of 2009. But 
federal issues and even standards are only the tip of the 
iceberg. Implementation of any reform has to happen in the 50 
states and, even more so, the 15,000 school districts across 
the country.
    Today we focus on one school district, Chicago, which is 
the third largest district in the country. The witnesses 
represent a range of key stakeholder groups in the city of 
Chicago, including the school district, a large company 
dependent on a highly trained STEM workforce, a local 
university that has been a leader in K-12 reform efforts, a 
city-wide informal education provider, and a federal agency 
that has funded many of the innovative programs we will learn 
about today. Chicago's diverse population of over 400,000 
public school students, its top-notch universities, and the 
commitment of local industry, the school system, and city 
leaders such as Ms. Daley, make it an ideal case study for 
understanding what works in improving STEM education, how 
various stakeholders in the system can work together, and what 
can be done at the federal level to encourage best practices 
across the country.
    This hearing will consider the entirety of the STEM 
education system, with all of its partners and key leverage 
points. I look forward to hearing our witnesses shed some light 
on how we can approach systemic reform more methodically, 
including through strong partnerships, innovative approaches to 
in-school and out-of-school teaching, and rigorous assessment 
of old and new programs alike.
    America needs to be successful in improving STEM education. 
Without it, we will lose our capacity for innovation and 
diminish our country's economic strength and competitiveness in 
the international marketplace. I am confident that Americans 
can do it, and we can maintain our world leadership. We see 
some pockets of success across the country. It is our job here 
in Washington as national leaders to make sure that we all 
learn from these successes and that the best possible 
information and tools are available to all STEM educators, and 
that is why you are here today. I want to hear from all of our 
witnesses about their insights about what has worked in 
Chicago, and I want to thank you for appearing before the 
Subcommittee today, taking the time and I am very hopeful that 
this will be a great opportunity for people across the country 
to learn about what you have done, what has worked, what has 
not worked, but the best way that we can all move forward for 
the sake of our country and our future.
    With that, I will recognize Ranking Member Dr. Ehlers for 
an opening statement.
    [The prepared statement of Chairman Lipinski follows:]
             Prepared Statement of Chairman Daniel Lipinski
    Good morning and welcome to this Research and Science Education 
Subcommittee hearing on science, technology, engineering, and math 
education, commonly called STEM education. This is the third STEM-
related hearing that this subcommittee has held this year, a fact that 
reflects both the national importance of the STEM fields and the 
complexity of STEM education reform.
    The Science and Technology Committee, and our subcommittee in 
particular, have made STEM education a top priority. In hearings and 
reports we have repeatedly heard that innovation is key to maintaining 
a high standard of living for all Americans, and that we need more 
teachers and more graduates in the STEM fields if we want our country 
to continue to lead in the global economy. Unfortunately, American 
students have been lagging their international peers, while American 
businesses are warning about a wave of retirements without adequately 
trained young people to fill these vacated positions, especially in 
engineering fields. But we know that there is no panacea and no one 
entity that can solve this alone, as recent reports from the National 
Science Board and the Institute for Advanced Study have made clear.
    Reform of our STEM education system will require coordination on 
multiple fronts across many diverse stakeholders. In addition to 
several federal agencies, there are State and local governments, school 
districts, universities, non-profits, businesses, community 
organizations, teachers, students, and--if a child is fortunate--their 
parents. I don't doubt that some high-level planning and coordination 
will be helpful--including in the movement toward common core standards 
in which almost all states are now engaged. The Science and Technology 
Committee has begun addressing coordination issues at the federal 
level, notably through the STEM Education Coordination Bill of 2009. 
But federal issues and even standards are only the tip of the iceberg. 
Implementation of any reform has to happen in the 50 states and, even 
more so, the 15,000 school districts across the country.
    Today we focus on one school district, Chicago, which is the third 
largest district in the country. The witnesses represent a range of key 
stakeholder groups in the City of Chicago, including the school 
district, a large company dependent on a highly trained STEM workforce, 
a local university that has been a leader in K-12 reform efforts, a 
city-wide informal education provider, and a federal agency that has 
funded many of the innovative programs we will learn about today. 
Chicago's diverse population of over four hundred thousand public 
school students, its top-notch universities, and the commitment of 
local industry, the school system, and city leaders such as Ms. Daley, 
make it an ideal case study for understanding what works in improving 
STEM education, how various stakeholders in the system can work 
together, and what can be done at the federal level to encourage best 
practices across the country.
    This hearing will consider the entirety of the STEM education 
system, with all of its partners and key leverage points. I look 
forward to hearing our witnesses shed some light on how we can approach 
systemic reform more methodically, including through strong 
partnerships, innovative approaches to in-school and out-of-school 
teaching, and rigorous assessment of old and new programs alike.
    America needs to be successful in improving STEM education. Without 
it, we will lose our capacity for innovation and diminish our country's 
economic strength and competitiveness in the international marketplace. 
I am confident that Americans can do it, and we can maintain our world 
leadership. We see some pockets of success across the country. It is 
our job as national leaders to make sure that we all learn from these 
successes and that the best possible information and tools are 
available to State officials and local school districts. I want to 
thank all of the witnesses for taking the time to appear before the 
Subcommittee this morning to share your insights and I look forward to 
your testimony.

    Mr. Ehlers. Thank you, Mr. Chairman. It is a pleasure to 
participate in this. As you know, STEM education has a strong 
place in my heart, and I have spent many hours on it both as my 
professional career before coming here and also since I have 
come here. Today's hearing will examine how the various public 
and private stakeholders in an urban K-12 system can work in 
concert to improve science, technology, engineering and 
mathematics education, better known as STEM education. In 
particular, I am pleased that we will hear testimony from key 
players in the Chicago public schools, our nation's third 
largest school system, on the successes and challenges of 
implementing STEM education programs in an urban district.
    As we take a closer look at the Chicago public schools, I 
expect we will gain a greater appreciation for the difficulties 
involved in encouraging our urban youth to pursue STEM-related 
fields. At the same time, I look forward to hearing about the 
role of outside groups in facilitating this type of learning. 
During the 110th Congress, this committee held a field hearing 
in Texarkana, Texas, to witness firsthand a suburban 
community's efforts to engage students in math and science. I 
expect today's case study of the Chicago public school system 
will offer the Committee fresh insights while building upon the 
observations collected in last year's hearing.
    I would like to acknowledge the work of Chairman Gordon and 
Subcommittee Chairman Lipinski and their staff on the series of 
STEM-related hearings in the 111th Congress. These hearings 
have educated Members and the public about the problems and the 
necessity of improving STEM education, a topic which I am 
always willing to discuss. I would also like to thank our panel 
of experts for joining us today, and I look forward to hearing 
their testimony.
    I yield back.
    [The prepared statement of Mr. Ehlers follows:]
         Prepared Statement of Representative Vernon J. Ehlers
    Today's hearing will examine how the various public and private 
stakeholders in an urban K-12 system can work in concert to improve 
science, technology, engineering and mathematics (STEM) education. In 
particular, I am pleased that we will hear testimony from key players 
in the Chicago Public Schools, our nation's third largest school 
district, on the successes and challenges of implementing STEM 
education programs.
    As we take a closer look at the Chicago Public Schools, I expect we 
will gain a greater appreciation for the difficulties involved in 
encouraging our urban youth to pursue STEM-related fields. At the same 
time, I look forward to hearing about the role of outside groups in 
facilitating this type of learning. During the 110th Congress, this 
committee held a field hearing in Texarkana, Texas, to witness 
firsthand a suburban community's efforts to engage students in math and 
science. I expect today's case study of the Chicago Public Schools 
system will offer the Committee fresh insights, while building upon the 
observations collected at last year's hearing.
    I would like to acknowledge the work of Chairman Gordon and 
Subcommittee Chairman Lipinski and their staff on this series of STEM-
related hearings in the 111th Congress. These hearings have educated 
Members and the public about the problems and the necessity of 
improving STEM education, a topic which I am always willing to discuss. 
I would also like to thank our panel of experts for joining us today, 
and I look forward to hearing their testimonies.

    Chairman Lipinski. Thank you, Dr. Ehlers, and having an 
engineer up here and a physicist, certainly we have a little 
bit of experience, though mine pales in comparison to Dr. 
Ehlers in STEM education.
    At this point, if there are Members who wish to submit 
additional opening statements, your statement will be added to 
the record at this point.
    [The prepared statement of Mr. Carnahan follows:]
           Prepared Statement of Representative Russ Carnahan
    Mr. Chairman, thank you for hosting this hearing regarding 
improvements to K-12 STEM Education. I appreciate the attention that is 
being given to advancing education in the fields of Science, 
Technology, Engineering, and Mathematics.
    Approaches to improving STEM education should be multi-faceted and 
include a variety of interests. Not only should we enhance students' 
experiences inside of the classroom, but we should also ensure that 
their extracurricular activities are conducive to the pursuit of 
knowledge. By increasing the number of teachers who are capable and 
skilled in the STEM fields, students will benefit from a more enriching 
classroom environment. I look forward to hearing from our witnesses 
about specific programs that are available to improve the skills of 
STEM teachers and best practices.
    Another element of STEM education improvements involves informal 
learning opportunities. Education should not stop at the classroom 
door. It should be incorporated into different aspects of students' 
lives so that they are not just achieving mediocrity, but rather, they 
are excelling. I am curious about the role that private institutions 
can play in partnering with school systems to develop robust informal 
STEM education opportunities and I would like the witnesses to 
contribute their expertise in these areas.
    In closing, I'd like to thank the members of the panel for their 
participation in today's hearing. I hope that we can continue our 
efforts to improve STEM education and by doing so, promote innovation 
and ensure U.S. economic competitiveness in the future.

    Chairman Lipinski. Right now I want to introduce our 
witnesses. First we have Dr. Wanda Ward, who is Acting 
Assistant Director for Education and Human Resources at the 
National Science Foundation. We have Mrs. Maggie Daley, who is 
the Chair of After School Matters, which is a unique 
partnership between Chicago public schools, civic leaders and 
industries that have created a network of programs including 
STEM education mentorships for teens in Chicago's under-served 
communities. I will now recognize Dr. Ehlers to introduce our 
third witness. Actually now that I look at this, I am a little 
mixed up because I don't have in my--is that the correct one? 
Okay.
    Mr. Ehlers. Thank you, Mr. Chairman. It is a pleasure to 
introduce Mr. Michael Lach. He worked in my office for a year 
as an Einstein fellow, which gives you some idea of his mental 
capacity. As you know, the Einstein fellowships are from the 
Department of Energy and they do an excellent job for us. But 
Michael ended up in my office and I still recall asking him, 
you know, after we had agreed to take him on board and I was 
chatting with him, I said, you know, I have only met one person 
before in my life who was named Lach and he was a physicist at 
Berkeley when I was there, we actually shared an office 
together. It turned out to be Michael's father. But Mike did a 
great job in my office, one of the few interns or assistants I 
have ever had who instinctly understood politics, and I suspect 
that accounts for his success in Chicago because in Chicago it 
is very hard to do anything without understanding the politics 
of Chicago. But Mike did a great job there and did a great job 
in our office too and he has steadily advanced up the ranks in 
Chicago.
    I think it is especially appropriate to look at the Chicago 
public school system not just because of the work that Michael 
has done but also because our current Secretary of Education 
was the leader of the Chicago schools for a few years and he 
has already made his mark on the Department of Education and 
showing great innovation and leadership in that department. So 
we are looking forward to good things from him there and we are 
looking forward to good things from Mike today.
    Thank you, and with that, I yield back.
    Chairman Lipinski. Dr. Ehlers, you are a professor for how 
many years?
    Mr. Ehlers. Twenty-two years.
    Chairman Lipinski. In my short time, my four years as an 
Assistant Professor, I know the politics in higher education 
might be worse than anything--more difficult than anything I 
have seen anywhere. We could probably go on for a long time but 
we will get back to introducing the witnesses here.
    Dr. Donald Wink is the Director of Undergraduate Studies in 
the Department of Chemistry and the Director of Graduate 
Studies in the Learning Sciences Research Institute at the 
University of Illinois at Chicago, and finally Ms. Katherine 
Pickus is the Divisional Vice President for Global Citizenship 
and Policy at Abbott Labs.
    As our witnesses know, you will each have five minutes for 
your spoken testimony. Your written testimony will be included 
in the record for the hearing. When you all have completed your 
spoken testimony, we will begin with questions and each Member 
will have five minutes to ask questions, and we will start with 
Dr. Ward. Dr. Ward, you are recognized for five minutes.

  STATEMENT OF DR. WANDA E. WARD, ACTING ASSISTANT DIRECTOR, 
   DIRECTORATE FOR EDUCATION AND RESOURCES, NATIONAL SCIENCE 
                        FOUNDATION (NSF)

    Dr. Ward. Chairman Lipinski, Ranking Member Ehlers and 
distinguished Members of the Subcommittee on Research and 
Science Education, thank you for inviting me to participate in 
this hearing on systemic change for science, technology, 
engineering and mathematics education.
    The National Science Foundation recognizes that STEM 
education is at a crossroad, in need of increased attention 
from a broad array of stakeholders who have a common goal of 
promoting excellence for all learners.
    Over many decades, we have seen improvements in science 
attainment through our systemic approach to education reform. 
The lessons learned and the research findings on K-12 education 
in formal and informal settings have been synthesized in two 
recent publications by the National Academy of Sciences, Taking 
Science to School and Learning Science in Informal 
Environments. NSF programs are built around many of the 
conclusions reached in these research publications such as, 
children entering school already have substantial knowledge of 
the natural world. What children are capable of at a particular 
age is the result of a complex interplay among maturation, 
experience and instruction. Students learn science by actively 
engaging in the practices of science. A range of instructional 
approaches is necessary as part of a full development of 
science proficiency, ask and answer questions and evaluate 
evidence when doing science and have learners develop a 
positive use of themselves with respect to science.
    Partnering with other external stakeholders, NSF believes 
that the field is ready to advance current understanding of 
STEM education by linking novel approaches and best effective 
practices to STEM-specific challenges for the 21st century. Our 
vision will be aligned with the STEM priorities in the America 
COMPETES Act as well as the American Recovery and Reinvestment 
Act. With multi-purpose strategic thinking, we will sharpen our 
support on four foci: innovation in learning ecosystems of 
emerging areas like clean alternative energy and climate change 
education with an emphasis on blending formal and informal 
education; broadening participation to improve workforce 
development; enrichment of teacher education for the 21st 
century; and fostering cyber learning to enhance STEM 
education.
    Recognizing that innovation plays a key role in the U.S. 
economic competitiveness, the role of diverse intellectual 
capital in spurring innovation is a great topic of interest to 
us at the NSF. Key issues within this ecosystem include 
research and understanding of the culture of innovation and the 
interplay between innovation and education.
    Technology has the potential to transform education 
throughout a lifetime, enabling customized interaction with 
diverse learning materials on any topic and supporting 
continuous education at any age. In the last decade, the design 
of technologies and our understanding of how people learn had 
evolved together. NSF has played a key role in these advances. 
NSF can continue to lead this revolution by leveraging its 
investments in the productive intersections between technology 
and the learning sciences. Creative thinking and an integrated 
approach about STEM education and learning for the future will 
offer new challenges and new opportunities for transformative 
research on educational practices and learning tools.
    In summary, our STEM education and workforce development 
vision will attend to a rich tapestry of excellence and 
diversity in STEM attainment, access, availability and reach 
across STEM lines of inquiry and geographical borders, 
innovation and transformation for stimulating STEM creativity 
for discovery and learning, depth and breadth of domains to 
promote STEM interdisciplinarity and seamlessness and coherence 
to ensure a high level of continuity across the learning 
continuum. STEM education and workforce for the 21st century is 
key to promoting and sustaining an innovative society.
    Thank you very much, and I would be pleased to answer any 
questions that you may have.
    [The prepared statement of Dr. Ward follows:]
                  Prepared Statement of Wanda E. Ward
    Chairman Lipinski, Ranking Member Ehlers, and distinguished Members 
of the Subcommittee on Research and Science Education, thank you for 
inviting me to participate in this hearing on ``Systemic Change for 
Science, Technology, Engineering and Mathematics (STEM) Education.''
    Today, I will address your concerns that focus on: (1) student 
interest in and pursuit of careers in science and engineering; (2) 
enrichment of teacher education for the improvement of teaching and 
learning in STEM; (3) instructional resources linked to effective STEM 
teaching and learning; and (4) role of out-of-school learning in STEM 
education. I would also like to take this opportunity to share our 
vision for continuing our commitment to promoting excellence in STEM 
education for the 21st Century.
    The National Science Foundation recognizes that STEM education is 
at a crossroad, in need of increased attention from a broad array of 
stakeholders who have the common goal of promoting STEM excellence for 
all learners. Over many decades, we have seen improvements in science 
attainment through our systemic approach to education reform. The 
lessons learned and the research findings on K-12 education in formal 
and informal settings have been synthesized in two recent publications 
by the National Academy of Science: Taking Science to School\1\ and 
Learning Science in Informal Environments.\2\ For example, the six 
conclusions reached in Taking Science to School (page 2) \3\ about what 
students know and how they learn are:
---------------------------------------------------------------------------
    \1\ National Research Council. (2007). Taking Science to School: 
Learning and Teaching Science in Grades K-8. Committee on Science 
Learning, Kindergarten Through Eighth Grade. Richard A. Duschl, Heidi 
A. Schweingruber, and Andrew W. Shouse, Editors. Board on Science 
Education, Center for Education. Division of Behavioral and Social 
Sciences and Education. Washington, DC: The National Academies Press.
    \2\ National Research Council. (2009). Learning Science in Informal 
Environments: People, Places, and Pursuits. Committee on Learning 
Science in Informal Environments. Philip Bell, Bruce Lewenstein, Andrew 
W. Shouse, and Michael A. Feder, Editors. Board on Science Education, 
Center for Education. Division of Behavioral and Social Sciences and 
Education. Washington, DC: The National Academies Press.
    \3\ National Research Council. (2007). Taking Science to School: 
Learning and Teaching Science in Grades K-8. Page 2. Committee on 
Science Learning, Kindergarten Through Eighth Grade. Richard A. Duschl, 
Heidi A. Schweingruber, and Andrew W. Shouse, Editors. Board on Science 
Education, Center for Education. Division of Behavioral and Social 
Sciences and Education. Washington, DC: The National Academies Press.

        <bullet>  Children entering school already have substantial 
---------------------------------------------------------------------------
        knowledge of the natural world, much of which is implicit.

                  Children's intuitive concepts of the natural world 
                can be both resources and barriers to emerging 
                understanding. These concepts can be enriched and 
                transformed by appropriate classroom experiences.

        <bullet>  What children are capable of at a particular age is 
        the result of a complex interplay among maturation, experience, 
        and instruction. What is developmentally appropriate is not a 
        simple function of age or grade, but rather is largely 
        contingent on their prior opportunities to learn.

        <bullet>  Students' knowledge and experience play a critical 
        role in their science learning, influencing all four strands of 
        science understanding.

                  know, use, and interpret scientific explanations of 
                the natural world;

                  generate and evaluate scientific evidence and 
                explanations;

                  understand the nature and development of scientific 
                knowledge; and

                  participate productively in scientific practices and 
                discourse.

        <bullet>  Race and ethnicity, language, culture, gender, and 
        socioeconomic status are among the factors that influence the 
        knowledge and experience children bring to the classroom.

                  Children's experiences vary with their cultural, 
                linguistic, and economic background. Such differences 
                mean that students arrive in the classroom with varying 
                levels of experience with science and varying degrees 
                of comfort with the norms of scientific practice.

        <bullet>  Students learn science by actively engaging in the 
        practices of science.

                  Motivation and attitudes toward science play a 
                critical role in science learning, fostering students' 
                use of effective learning strategies that result in 
                deeper understanding of science. Classroom instruction 
                and the classroom context can be designed in ways that 
                enhance motivation and support productive participation 
                in science.

        <bullet>  A range of instructional approaches is necessary as 
        part of a full development of science proficiency.

                  Children's understanding of science appears to be 
                amenable to instruction. However, more research is 
                needed that provides insight into the experiences and 
                conditions that facilitate their understanding of 
                science as a way of knowing.

    Experts also documented the many and valued roles of the teacher in 
the pre-college years. Taking Science to School, (page 180) provides an 
example of the influence of teachers in helping elementary and middle 
school students to gain an understanding of how scientific knowledge 
develops, including more sophisticated understanding of nature and 
scientific models. A teacher can create such learning environments in 
the following progression of promoting metaconceptual skills in grade 
1-6.\4\
---------------------------------------------------------------------------
    \4\ National Research Council. (2007). Taking Science to School: 
Learning and Teaching Science in Grades K-8. Page 180. Smith, C.L., 
Maclin, D., Houghton, C., and Hennessey, M.G. (2000). Sixth-grade 
students' epistemologies of science: The impact of school science 
experiences on epistemological development. Cognition and Instruction, 
18(3), 285-316.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Learning Science in Informal Environments points out that ``a great 
deal of science learning, often unacknowledged, takes place outside 
school in informal environments--including everyday activity, designed 
spaces, and programs--as individuals navigate across a range of social 
settings; rich with educationally framed real-world phenomena, 
[informal science settings] are places where people can pursue and 
develop science interests, engage in science inquiry, and reflect on 
their experiences through conversations'' (page 293).\5\ Furthermore, 
the following principles are offered to promote interest in Science:
---------------------------------------------------------------------------
    \5\ National Research Council. (2009). Learning Science in Informal 
Environments: People, Places, and Pursuits. Page 293.

        <bullet>  address motivation to learn science, emotional 
        engagement with it, and willingness to persevere over time 
        despite encountering challenging scientific ideas and 
---------------------------------------------------------------------------
        procedures

                  An expressed interest in science during early 
                adolescence is a strong predictor of science degree 
                attainment (page 44) \6\
---------------------------------------------------------------------------
    \6\ National Research Council. (2009). Learning Science in Informal 
Environments: People, Places, and Pursuits. Page 44. Tai, R.H., Liu, 
C.Q., Maltese, A.V., and Fan, X. (2006). Planning early for careers in 
science. Science, 312, 1143-1144.

        <bullet>  learn about main scientific theories and models 
---------------------------------------------------------------------------
        framing the understanding of the natural world

        <bullet>  ask and answer questions and evaluate evidence when 
        doing science

        <bullet>  allow for dynamic refinement of scientific 
        understanding of the natural world

        <bullet>  have learners develop [positive] views of themselves 
        with respect to science.

    Relatedly, findings from research materials on motivation from 
Taking Science to School (page 200) indicate that interest is tied to 
the quality of learning. Research on the development of interest 
indicates that children tend to have general or universal interests at 
first, which become more specific relatively quickly. The development 
of career interests is thus a process of continuous elimination of 
interests that do not fit the individual's emerging sense of self, 
which includes gender, social group affiliation, ability, and then 
personal identity.\7\
---------------------------------------------------------------------------
    \7\ National Research Council. (2007). Taking Science to School: 
Learning and Teaching Science in Grades K-8. Page 200. Hidi, S. (2001). 
Interest, reading, and learning: Theoretical and practical 
considerations. Educational Psychology Review, 13(3), 191-209.
---------------------------------------------------------------------------
    Additionally, members of cultural groups develop systematic 
knowledge of the natural world through participation in informal 
learning experiences and forms of exploration that are shaped by their 
cultural-historical backgrounds and the demands of particular 
environments and settings (page 199).\8\ Such knowledge and ways of 
approaching nature reflect a diversity of perspectives that should be 
recognized in designing science learning experiences and instructional 
materials.
---------------------------------------------------------------------------
    \8\ National Research Council. (2007). Taking Science to School: 
Learning and Teaching Science in Grades K-8. Page 199. Ryan, R.M., 
Connell, J.P., and Plant, R.W. (1990). Emotions in non-directed text 
learning. Learning and Individual Differences, 2, 1-17.
---------------------------------------------------------------------------
    Across the areas of informal education, teacher education, 
instructional materials, and career development since the late 80's, 
EHR has supported over 50 completed projects involving higher education 
institutions, Chicago Public Schools and/or informal institutions, 
addressing all education levels. In addition, 20 of 50 active EHR 
research and development efforts focus on learning how to enhance K-12 
education. Let me draw your attention to several past and current 
projects.

Chicago EHR Story/Project Examples

        <bullet>  In 1996, the Columbia College of Chicago was funded 
        to teach teachers in grades seven, eight, and nine in 50 of 
        Chicago's public schools the basics of physical science using 
        up-to-date pedagogical techniques with exemplary materials. 
        Each year, 40 teachers, selected from 10 of the 50 
        participating schools, took an intensive three-week summer 
        program, followed by 16 after school sessions and two Saturday 
        sessions during the school year. In-class and in-school 
        assistance were provided in subsequent years to aid in the 
        classroom implementation of the materials.

           For teachers

                  There has been a consistent trend in the increase of 
                participants' content knowledge following the summer 
                intensive workshops. Analysis of the differences 
                between the pre-test and the post-test among the eight 
                years of the project shows a 22 percent gain in 
                knowledge after participation in the summer workshops.

                  There was a significant increase in the number of 
                teachers who encouraged their students to independently 
                design and conduct science projects (from five percent 
                of the teachers before participating in the project to 
                23 percent after their participation).

                  The percentage of teachers placing a heavy emphasis 
                on developing problem solving strategies and inquiry 
                skills increased from 26 percent prior to the workshops 
                to 47 percent after the workshops.

    Students of the participating teachers also demonstrated gains in 
knowledge that, in many cases, exceeded the national urban average of 
3.5 on the same tests. Overall, the fifth grade students moved from a 
pre-test score of 28.7 to a post test score of 33, for an average gain 
of 4.3. Seventh grade students also had an average gain of 4.3, moving 
from a fall score of 36.2 to a spring score of 40.5. English grade 
students had a slightly lower average gain of 3.9, moving from a fall 
score of 39.2 to spring score of 43.1.

        <bullet>  In 2000, the North Central Regional Educational 
        Laboratory Partnership for Mathematics Improvement project 
        implemented the reform curricula in all the schools in the 
        Harvey School District. Grades K-5 used MathTrailblazers and 
        Grades six through eight used Connected Mathematics, and the 
        curricula were use as tools for developing professional 
        communities of teachers, administrators and parents committed 
        to improving mathematics instruction in the district. All 
        teachers in the district who taught mathematics in Grades K-8 
        participated fully in the project.

           It was found that after the implementation of the project, 
        the percentage of third, fifth and eighth grade students who 
        did not meet State standards in mathematics decreased markedly 
        from 56 percent, 71 percent and 96 percent in 1999 to 36 
        percent, 38 percent and 78 percent respectively in 2005. And 
        the number of students exceeding the State standards increased 
        during the same period, from five percent to 17 percent for 
        third grade students, and from none to 4.5 percent and two 
        percent for fifth and eighth grade students, respectively.

        <bullet>  In 2001, the study team of Elementary, Secondary, and 
        Informal Education: Forging Partnerships with Libraries used 
        the library setting as a strong niche for informal space 
        science learning. Eight topics were investigated through video 
        presentations, hands-on activities, and other supporting 
        resources. The Lunar and Planetary Institute Education and 
        Public Outreach staff trained public and school librarians so 
        that they could include space science in their out-of-school-
        time children's programs and family/community based programs.

           More than 700 librarians have been trained in the use of 
        Explore! Materials. A follow-up discussion with the principal 
        investigator revealed that 30 Children's Librarians developed 
        programs that used Explore! Materials, and each of them have 
        continued three after-school programs that are serving 20 
        students per program (with the support from NASA). The results 
        of a summative evaluation will be forthcoming.

        <bullet>  The Nature Museum's Teens Exploring and Explaining 
        Nature and Science (TEENS), funded in 2001, is an example of an 
        out-of-school program for building skills and educational 
        aspirations among under-served urban students. TEENS was 
        developed to provide students the opportunity to fulfill their 
        service learning requirement while developing real-world job 
        skills and learning about careers in science and technology, as 
        well as providing the students with the necessary preparation 
        for post-secondary study in the sciences. TEENS offered more 
        than just science education; it provided participants with 
        encouragement, academic assistance, and confidence-building 
        activities. Over the duration of the project, more than 100 
        teenagers were reached and indicated that they would strongly 
        encourage other youth to participate in the program for both 
        its educational and career advantages.

           All of the students participating in the program graduated 
        high school and 80 percent are in college. Plans are under 
        discussion for a follow-up study regarding field of study and 
        degree attainment. The TEENS program has now become one of the 
        core education programs at the museum.

        <bullet>  In 2003, the Induction and Mentoring in Middle Grade 
        Science and Mathematics Accelerated Teacher Preparation Program 
        developed a three-year induction model for urban education, 
        integrating university course work with full-time classroom 
        teaching. The first year included certification course work and 
        student teaching in their classrooms. Classroom support was 
        twofold: mentors visited each teacher interns once a week and 
        student-teaching supervisors visited each intern every other 
        week.

           The second year course work focused on remaining 
        requirements for the graduate degree. The highlight was a year-
        long action research project focused on improving classroom 
        teaching. The action research projects shared a focus on 
        integrating content-rich curriculum with inquiry-guided 
        instruction, while increasing attention to the importance of 
        literacy-based practices aimed at engaging a diverse student 
        population. Regarding classroom support, mentors visited each 
        teacher every other week to assist with their action research 
        projects and other instruction, as needed.

           The third year curriculum focused on school leadership, and 
        the need to foster a school culture that highlights the 
        importance of science and mathematics education. A leadership 
        project required that each teacher work within his or her 
        school in collaboration with colleagues to improve school 
        curriculum and professional development activities focused on 
        science and mathematics education. Leadership projects included 
        developing community-based science and mathematics units (e.g., 
        Chicago River, bird migration, urban gardening), and leading 
        school-wide professional development workshops. Classroom 
        support included mentor visits to each teacher once a month to 
        assist with leadership projects and other instruction, as 
        needed.

           This project surpassed its targeted recruitment goal by 
        seven percent and at the end, recruited a total of 107 
        teachers. Its success provided the basis for the subsequent 
        NOYCE Stipend Program started in 2004, which further addressed 
        critical shortage of qualified science and mathematics teachers 
        in the Chicago Public Schools, particularly in urban arrears of 
        high need.

        <bullet>  With the support from Robert Noyce Teacher 
        Scholarship program, NOYCE Stipend Program was built on the 
        successful partnership between Chicago Public Schools and the 
        University of Illinois at Chicago (UIC). It recruited 91 
        qualified career-changers with a strong background in math or 
        science to become teachers in high-need schools.

                  All of the 91 Noyce scholars received Noyce 
                stipends, completed their graduate degree programs and 
                earned teaching credentials in their fields through 
                UIC's teacher certification programs. Ninety scholars 
                completed their teaching commitment, and 73 Noyce 
                scholars have continued to teach beyond their two-year 
                commitment. Of those, 17 have completed their third 
                year of teaching and 56 have completed their fourth 
                year.

                  Moreover, eight of the Noyce scholars have gone on 
                to become regional or district-wide curriculum and 
                professional development leaders in math and science in 
                CPS. Of the 13 regional science and math instructional 
                specialists in CPS, seven specialists were supported 
                through NOYCE program at UIC. In addition, the CPS 
                district-wide curriculum supervisor of middle grades 
                science is a former NOYCE Scholar.

        <bullet>  In 2009, UIC started NOYCE Phase II project, which 
        continues the work begun in the previous NOYCE grant and 
        expands its potential impact with the addition of an enhanced 
        mentor program for new Noyce recipients. This new mentor 
        program involves previous Noyce awardees and inducts new ones 
        into a Noyce mentoring network. Second, the project extends the 
        Noyce applicant pool by adding three new science certifications 
        and introducing a one-year M.Ed. program option for secondary 
        science education, with is available for secondary science 
        teacher candidates in biology, earth and space science, 
        environmental science, chemistry and physics. Over a three-year 
        period, NOYCE Phase II project will offer 40 recruitment 
        stipends to students in UIC secondary STEM teacher preparation 
        programs.

        <bullet>  In 2004 and 2005, researchers at the University of 
        Chicago and the University of Illinois at Chicago were funded 
        to study how teachers and students construct shared knowledge 
        about science topics in integrated units in primary and middle 
        grades. This research is focusing on how students at various 
        ages perceive concepts and how teachers communicate them. NSF 
        is awaiting the final report of these research projects that 
        may offer new insights for how we develop curricula and move 
        students through the learning process.

        <bullet>  With a longstanding history in urban systemic reform, 
        the University of Illinois at Chicago received an award in 2007 
        to conduct a multi-dimensional study of the reform efforts 
        within the Chicago Public Schools for effective planning, 
        implementation, scale-up, adaptation, documentation and 
        evaluation of ongoing systemic reform in mathematics and 
        science education in one of the Nation's largest urban public 
        school system.

    These examples demonstrate NSF's support of meritorious STEM 
education activities that build on our current knowledge about 
learning. The Foundation supports projects that create high quality 
learning environments (as well as developing innovative models for 
utilizing cyber-learning activities) that provide the opportunity for 
students to think in sophisticated ways and for teachers to stimulate 
students' basic reasoning skills, personal knowledge of the natural 
world, and curiosity--all in order to increase proficiency and interest 
in science. Moreover, the value of these early investments in science 
interest and proficiency can be seen in the readiness of diverse 
precollege populations to pursue STEM careers in higher education with 
the support of programs like the Advanced Technological Education; STEM 
Talent Expansion Program; Scholarships in Science, Technology, 
Engineering and Mathematics; Louis Stokes Alliances for Minority 
Participation; Integrative Graduate Education and Research 
Traineeships; Graduate Teaching Fellows in K-12 Education; and Graduate 
Research Fellowships--all of which are active NSF higher education STEM 
programs in the State of Illinois.
    It is with much commitment from the Foundation, with the focal 
point for STEM learning housed in the Directorate of Education and 
Human Resources, that we find ourselves uniquely positioned to 
transition from strengthening or building on our knowledge base 
regarding education reform to being responsive to a call of 
transforming STEM education and workforce development for the 21st 
century. EHR will collaborate increasingly NSF-wide to help meet 
national goals in STEM education. This future cross-directorate 
partnering on the learning portfolio will ensure that NSF:

        <bullet>  Develops a responsive and potentially transformative 
        research and development continuum for education and workforce 
        development, with rigorous evaluation

        <bullet>  Promotes openness and adaptability for new fields 
        through support for public engagement and lifelong learning

        <bullet>  Leverages support for innovation in STEM education 
        through strategic partnerships and coordination

        <bullet>  Links funding for a foundation for scale-up and 
        sustainability

        <bullet>  Stays on the cutting edge in promoting excellence in 
        STEM education to ensure the health, competitiveness and 
        prosperity of the Nation.

    Partnering with other external stakeholders, NSF believes that the 
field is ready to pursue innovative ideas to advance current 
understanding of STEM education by linking novel approaches and best/
effective practices to STEM-specific challenges for the 21st century. 
Our vision will be aligned with the STEM priorities in America COMPETES 
Act (ACA) and/or American Recovery and Reinvestment Act (ARRA). With 
multi-purpose strategic thinking we will sharpen our support on four 
foci:

        <bullet>  innovation in learning ecosystems of emerging areas 
        like clean/alternative energy and climate change education with 
        an emphasis on blending formal and informal education

        <bullet>  broadening participation to improve workforce 
        development

        <bullet>  enrichment of teacher education for the 21st century, 
        and

        <bullet>  fostering cyber-learning to enhance STEM education.

    One of the areas in which the U.S. is a recognized leader, but 
increasingly is challenged globally, is that of innovation. Recognizing 
that innovation plays a key role in U.S. economic competitiveness, the 
role of diverse intellectual capital in spurring innovation is a topic 
of great interest to us at the National Science Foundation. Key issues 
within this ecosystem, include research and understanding of the 
culture of innovation and the interplay between innovation and 
education.
    STEM teacher education is an EHR-wide activity, building on NSF's 
50-plus years of experience in this domain. Through collaborations we 
must discover research-based advances that enable the U.S. to produce 
21st century, ``cyber-prepared'' STEM teachers for the 21st century, 
``cyber-savvy'' students. Hence, four areas of teacher education 
emphasis must inform future directions:

        <bullet>  Teacher education to support equity and excellence

        <bullet>  The undergraduate teacher preparation experience for 
        professors

        <bullet>  Teacher education and mid-career entry at the 
        graduate level

        <bullet>  The K-12 and policy interfaces with teacher 
        education.

    Technology has the potential to transform education throughout a 
lifetime, enabling customized interaction with diverse learning 
materials on any topic, and supporting continuous education at any age. 
In the last decade, the design of technologies and our understanding of 
how people learn have evolved together. NSF has played a key role in 
these advances, funding interdisciplinary programs specifically to 
support research and activities in the area of cyber-learning. NSF can 
continue to lead this revolution by leveraging its investments in the 
productive intersections between technology and the learning sciences.
    Creative thinking about STEM education and learning for the future 
will offer new challenges and new opportunities for transformative 
research on educational practices and learning tools. In summary, our 
STEM education and workforce development vision for the future will 
attend to a rich tapestry of:

        <bullet>  excellence and diversity in STEM attainment;

        <bullet>  access, availability, and ``reach'' across STEM lines 
        of inquiry and geographical borders;

        <bullet>  innovation and transformation for stimulating STEM 
        creativity for discovery and learning;

        <bullet>  depth and breadth of domains to promote STEM 
        interdisciplinarity; and

        <bullet>  seamlessness and coherence to ensure a high level of 
        continuity across the learning continuum.

    STEM education and workforce for the 21 century is key to promoting 
and sustaining an innovative society.
    Mr. Chairman, I appreciate the opportunity to appear before the 
Subcommittee to speak to you on this important topic. I would be 
pleased to answer any questions that you may have.

                     Biolography for Wanda E. Ward
    Dr. Wanda E. Ward is the Acting Assistant Director for Education 
and Human Resources, National Science Foundation (NSF). Throughout her 
tenure at NSF, Ward has served in a number of science and engineering 
policy, planning, and program capacities in the Directorate for 
Education and Human Resources (1992-1997; 2006-present), Office of the 
NSF Director (1997-1999); and Directorate for Social, Behavioral and 
Economic Sciences (1999-2006). From 2001-2002 she was on assignment at 
the Council on Competitiveness as Chief Advisor to the initiative, BEST 
(Building Engineering and Science Talent), where she provided 
leadership in the launch and development of this public-private 
partnership, established to carry out the implementation of a national 
diversity initiative called for by the Congressional Commission on the 
Advancement of Women and Minorities in Science, Engineering and 
Technology Development.
    Since joining the Foundation, Dr. Ward has also led or served on 
several NSF and interagency task forces, working groups, commissions 
and committees. These include: Co-Chair, Subcommittee on Social, 
Behavioral and Economic Sciences (SBES), the President's National 
Science and Technology Council (NSTC) Committee on Science (COS , 2004-
2005); NSF representative to the Interagency Working Group on the U.S. 
Science and Technology Workforce of the Future, NSTC COS (1997-1999); 
Executive Liaison to the Co-Vice-Chair of the NSTC former Committee on 
Education and Training (CET) and Executive Secretary of the NSTC CET 
Subcommittee on Excellence in Science, Mathematics, and Engineering 
Education (1994-1996). She has forged international research and 
workforce development collaborations in both developed and developing 
nations, including in China, Europe and Africa. Since 2007, she has 
served as a member of the International Social Science Council (ISSC) 
Committee for Developing and Transition Economies (CoDATE).
    Prior to joining NSF, Dr. Ward served as tenured Associate 
Professor of Psychology and Founding Director of the Center for 
Research on Multi-Ethnic Education at the University of Oklahoma, 
Norman. She took the B.A. in Psychology and the Afro-American Studies 
Certificate from Princeton University and the Ph.D. in Psychology from 
Stanford University. She was awarded the Ford Foundation Fellowship, 
the 2005 American Psychological Association Presidential Citation, the 
2006 Presidential Rank Award for Distinguished Executive and the 2006 
Richard T. Louttit Award.

    Chairman Lipinski. Thank you, Dr. Ward.
    The Chair now recognizes Ms. Maggie Daley.

  STATEMENT OF MS. MAGGIE DALEY, CHAIR, AFTER SCHOOL MATTERS, 
                       CHICAGO, ILLINOIS

    Ms. Daley. Thank you, Mr. Chairman and Dr. Ehlers for this 
opportunity to before you this morning. I am Maggie Daley, 
Chair of After School Matters, a non-profit organization that 
is dedicated to providing informal educational opportunities 
including STEM learning to Chicago teens. I would also like to 
introduce David Sisky, our Executive Director of After School 
Matters, and I may consult with him from time to time during my 
testimony.
    As you may already know, Education Week has reported that 
75 percent of the Nobel Prize winners in the sciences report 
that their passion for science was first sparked in informal 
environments. The National Research Council stated in a recent 
report there is mounting evidence that structured, non-school 
science programs can feed or stimulate the science-specific 
interests of adults and children. They positively influence 
academic achievement for students and may expand participants' 
sense of future science career options.
    After School Matters is one of the largest organizations 
serving teens during the out-of-school hours in the United 
States and last year we provided 30,000 program slots to 
Chicago teens. Today, I would like to speak about our 
organization's efforts and how, with the appropriate support 
and resources, we can realize our ambitious vision for STEM 
programming in the future.
    Allow me to tell you more about who we are and what we do. 
In 1991, Gallery 37 was established, an art-based summer 
apprenticeship program for high school teens, on an undeveloped 
parcel of land named Block 37 in downtown Chicago. In the year 
2000, key funding from the Robert Wood Johnson Foundation, 
aimed at promoting healthy development of our youth by scaling 
up quality programs, allowed the successful apprenticeship 
structure of Gallery 37 to be applied to programs in other 
disciplines and the creation of After School Matters.
    After School Matters is an intermediary organization that 
engages hundreds of paid instructors from informal education 
communities to work with thousands of teens in our programs. 
These instructors create and submit their curricula through a 
request for proposals process that promotes creativity and 
diversity in the programs we offer and it allows us to be 
intentional when addressing workforce trends. Teens in Tech 37, 
our technology programs, work with industry professionals on 
authentic projects and areas such as web design, manufacturing, 
engineering, media production and computers. Our programs 
enable skill building through hands-on activities that spark 
teens' interest in technology.
    Our robotics program, funded by the Motorola Foundation, is 
an example of the success of Tech 37. In each program of 
robotics, teens design and build robots to compete in two 
unique sporting events. Additionally, Motorola helped us to 
secure engineering mentors to support these teens.
    Recognizing that more teens must be exposed to informal 
science opportunities if we are to maintain global 
competitiveness, Abbott partnered with us in 2006 to create 
Science 37. These programs provide connections with the city's 
growing science sectors and teens develop a new appreciation 
for science and an awareness of potential science careers. Lab 
101 is a Science 37 program created in partnership with Abbott 
and Dr. Don Wink of the University of Illinois in Chicago. It 
introduces teens to laboratory procedures and techniques and 
teens visit Abbott's facilities to learn about the science and 
business of global health care.
    After School Matters broke into partnership between Abbott 
and the Chicago Public Schools to renovate a laboratory at 
Foreman High School, site of the Lab 101 programs. When it 
opens this fall, the lab will be used for Lab 101 after school 
and normal classes during the school day. Such collaboration 
demonstrates the strength of our partnership with the Chicago 
Public Schools. We want to complement and reinforce the STEM 
concepts and the State standards that are delivered in the high 
school classroom.
    One illustration of the relationship between After School 
Matters and the school day learning is found in the following 
statistics from the Chicago Public School Department of Career 
and College Preparation. After School Matters participants with 
a GPA of 3.0 to 3.4 enrolled in college at a higher rate than 
non-participants and 71 percent versus 63 percent for the 
district in 2006. Additionally, research from the Chapin Hall 
Center for Children at the University of Chicago found that 
teens who participate in After School Matters programs have 
higher graduation rates, lower dropout rates and fewer course 
failures than teens who do not participate.
    Of course, we also face challenges but we must meet them 
head on with innovative thinking and creative solutions. For 
example, teens who join our core program model, the 
apprenticeship, receive stipends and financial incentives to 
participate and as a reinforcement of the structure of the 
workplace. Since apprenticeships take place in job-like 
settings, this investment in our youth makes it possible for 
the most economically disadvantaged teens to experience the 
working world that awaits them after graduation.
    We know we must do more. Our vision for the next three 
years includes doubling our current number of Tech 37 program 
slots to 7,000 while tripling our Science 37 program slots to 
3,500. However, this ambitious vision is weighed down by fiscal 
realities. Due to the substantial reductions in government 
funding and the anticipated reductions in corporate and 
foundation giving for this fiscal year, our directors were 
forced to decrease our budget by a third, which is $7.2 
million. We have taken significant measures to manage costs and 
maximize our program offerings but these measures were unable 
to prevent the elimination of one-third of our total program 
slots in the coming year. Restoring these 10,000 slots, let 
alone building additional STEM programming, is impossible 
without additional support.
    I would like to make a few recommendations on how the 
private sector and State and federal stakeholders can take 
better advantage of nonprofit organizations like After School 
Matters to improve STEM education. The government must increase 
the support of informal education including out-of-school time 
programming such as After School Matters, given the increasing 
evidence of the important role in reaching America's youth. 
Understanding that evaluation and reporting is priority, the 
government needs to provide additional resources to non-profits 
to be able to engage evaluators to assess outcomes of programs. 
If government grant application and reporting processes were 
simplified and streamlined, we could add more internal 
resources to ensure program quality and effectiveness.
    I encourage the private sector to broaden partnerships to 
maximize investments with non-profits, focusing on long-term 
sustainability and a vision that supports existing successful 
programs. With this kind of support, informal educators could 
move the cause of STEM learning forward, and no one is better 
poised to make a difference than us. We have a 20-year history 
of success with proven program models. We are integrated into 
the communities we serve, and most importantly, we have access 
to a diverse, curious and eager audience who with the right 
spark of inspiration will change not only the course of their 
own lives but also the future of our country.
    On behalf of After School Matters, I am grateful for your 
time and attention and I would be pleased to answer any 
questions you may have.
    [The prepared statement of Ms. Daley follows:]
                   Prepared Statement of Maggie Daley
    Mr. Chairman and distinguished Members of the Subcommittee, thank 
you for this opportunity to appear before you this morning. I am Maggie 
Daley, Chair of After School Matters, a non-profit organization 
dedicated to providing informal educational opportunities, including 
STEM learning, to high school teens in Chicago.
    As you may already know, Education Week reported in 2006 that 75 
percent of Nobel Prize winners in the sciences said that their passion 
for science was first sparked in informal environments.\1\ The 
Institute for Advanced Study recently recommended ``increas[ing] the 
science and math content in out-of-school time programming through 
project-based, real-world activities'' in order to mobilize the Nation 
for math and science learning.\2\ And the National Research Council 
stated in a recent report that, ``There is mounting evidence that 
structured, non-school science programs can feed or stimulate the 
science-specific interests of adults and children, may positively 
influence academic achievement for students, and may expand 
participants' sense of future science career options.'' \3\
---------------------------------------------------------------------------
    \1\ Friedman, Lucy N. and Jane Quinn. ``Science by Stealth.'' 
Education Week, 22 Feb. 2006: 45,48,49.
    \2\ Institute for Advanced Study (2009). The opportunity equation: 
Transforming mathematics and science education for citizenship and the 
global economy. Commission on Mathematics and Science Education.
    \3\ National Research Council (2009). Learning science in informal 
environments: People, places, and pursuits. Committee on Learning 
Science in Informal Environments. Philip Bell, Bruce Lewenstein, Andrew 
W. Shouse, and Michael A. Feder, editors. Board on Science Education, 
Center for Education, Division of Behavioral and Social Science and 
Education. Washington, DC: The National Academies Press.
---------------------------------------------------------------------------
    It is clear that any plan for expanding the reach and effectiveness 
of science and technology education in our country must give informal 
educators a prominent role. As one of the largest organizations serving 
teens during the out-of-school hours in the United States, After School 
Matters can offer a unique perspective on how that role can be 
implemented. Today, I would like to speak about our organization's 
efforts to broaden participation and promote diversity in STEM 
learning, and how, with the appropriate support and resources, we can 
realize our ambitious vision for STEM programming in the future.

Who We Are

    First, allow me to tell you more about who we are and what we do. 
The mission of After School Matters is to create a network of out-of-
school time opportunities, including apprenticeship and drop-in 
programs, for teens in under-served communities. Our leadership role 
among schools, neighborhoods, government agencies, and community and 
teaching organizations is unique. We leverage key public partnerships 
with the City of Chicago, Chicago Public Schools, the Chicago Park 
District, the Chicago Department of Family and Support Services, the 
Chicago Department of Cultural Affairs, and the Chicago Public Library. 
Chicago Public School principals and liaisons, Chicago Park District 
specialists, Chicago Public Library staff, and community leaders work 
together to support an expansive array of programming for teenagers. 
And by anchoring out-of-school time opportunities around community 
organizations and ``campuses''--each consisting of a public high school 
and a nearby park and library--After School Matters maximizes the use 
of existing public infrastructure and invigorates neighborhoods.
    In 1991, I collaborated with Lois Weisberg, Commissioner of 
Chicago's Department of Cultural Affairs, to establish gallery37, an 
arts-based summer apprenticeship program for high school teens, on an 
undeveloped parcel of land named Block 37 in downtown Chicago. In 2000, 
key funding from the Robert Wood Johnson Foundation aimed at promoting 
healthy development of our youth by scaling up quality programs allowed 
the successful apprenticeship structure of gallery37 to be applied to 
technology, communications, and sports programming. These programs 
became known as After School Matters, an umbrella organization for all 
areas of out-of-school time opportunities (including science, which was 
added in 2006). Last year, nearly two decades after those first 
programs on Block 37, After School Matters provided 30,000 out-of-
school program slots at 63 high schools and more than 100 community-
based organizations throughout the city.\4\
---------------------------------------------------------------------------
    \4\ See attachment: After School Matters Campus Map.
---------------------------------------------------------------------------
    African Americans comprise 68 percent of our program participants, 
while 23 percent are Latino. Of the remaining population, three percent 
are Caucasian, two percent are Asian/Asian-American & Pacific Islander, 
one percent are Native American, and another three percent identified 
themselves as ``other.'' As you can see, making STEM a priority at 
After School Matters automatically promotes diversity within STEM 
fields. Our community programs also expose STEM learning to those who 
are either outside of the public school system or require additional 
support, such as the physically and cognitively disabled, teen parents, 
dropouts, limited English speakers, ex-offenders, Chicago Housing 
Authority residents, students attending alternative schools, and 
lesbian, gay, bisexual, transgender, and questioning (LGBTQ) teens.
    In creating out-of-school opportunities, After School Matters 
employs three primary program models: clubs, ``drop-in'' programs 
without attendance requirements in which teens socialize with their 
peers and explore new interests in a safe, structured environment; 
apprenticeships, our core model in which teens learn marketable skills 
in a professional atmosphere from an industry expert or artistic 
master; and internships, supervised positions that appropriately 
utilize teens' skills while allowing them the opportunity to train in a 
real work environment. Collectively, this structure is known as the 
``Ladder of Opportunity.'' Teens can start on any ``rung'' as long as 
they have the requisite skills, commitment, and maturity.
    After School Matters is distinctive in that we operate as an 
intermediary organization. We engage community and teaching 
organizations, as well as independent instructors, to create and teach 
curricula through a Request for Proposals (RFP) process. This method 
promotes diversity and creativity in the programs we offer, provides 
the organization with the flexibility necessary to meet teens' ever-
changing interests, allows us to be more intentional when addressing 
workforce trends, and results in an extraordinarily wide range of out-
of-school time opportunities for teens.
    This structure also allows us to engage hundreds of paid 
instructors from the informal education community to work with the tens 
of thousands of teens in our programs. In this way, we integrate After 
School Matters directly into the communities that we serve. Our 
instructors treat teens with respect, listen to what they say, 
recognize their abilities and talents, have high expectations for their 
work, and provide them with opportunities for leadership. Caring 
instructors with real-world expertise are central to keeping teens 
engaged and invested in our programs.
    We also work with formal educators like Columbia College, Harold 
Washington College, and the University of Illinois, Chicago. Past 
collaborations have included programs in chemistry, physics, media and 
technology, economics, and financial literacy.

tech37

    In 2000, we expanded from the arts programs of gallery37 into 
communications and athletics via words37 and sports37. We also took 
note of the dramatic growth of the technology sector during the late 
1990s and anticipated the increasing demand for skilled workers in the 
coming years. In response, After School Matters partnered with Internet 
companies and technology entrepreneurs to establish tech37.
    Teens in tech37 programs work with industry professionals on 
authentic projects in areas such as Web design, manufacturing, 
engineering, media production, and computer technology. Our programs 
enable skill-building through hands-on activities and spark teens' 
interest in technology for personal and professional development. They 
also afford teens the opportunity to refine their critical workplace 
skills, including problem solving, teamwork, and communication. With 
practice, teens become more adept at using these skills, which they 
will take with them to the job market and their future academic 
endeavors.
    Here are just a few examples of the exciting experiences that we 
provide for our tech37 teens:

         ROBOTICS

         The Motorola Foundation partners with After School Matters to 
        implement robotics programming based on the guidelines of the 
        US FIRST organization.\5\ During the program, robotics teams 
        design and build robots to compete in two unique sporting 
        events, the FIRST Tech Challenge (FTC) and the FIRST Robotics 
        Competition (FRC). The robot for the FTC event is compact, 
        roughly the size of small suitcase, and is built from a 
        standard kit of parts. The robot for the FRC event is larger, 
        averaging six feet tall by three feet across, and each team 
        must determine not only the design but also the construction 
        materials. In addition to providing us with a generous grant, 
        Motorola helped After School Matters secure engineering mentors 
        to support our newer teams.
---------------------------------------------------------------------------
    \5\ For Inspiration and Recognition of Science and Technology 
(FIRST). More information is available at www.usfirst.com.

         Over the last three years, three of our robotics teams have 
        qualified for the annual FIRST Championships in Atlanta, GA, 
        which brings together thousands of teen engineers from across 
---------------------------------------------------------------------------
        the country and around the world.

         WEB FOR THE FUTURE

         The Web for the Future program tasks teens with building 
        professional, multi-page Web sites in order to promote 
        fictitious companies. They master digital media tools as they 
        design logos, graphics, and branding. At the end of the 
        program, teens have created fully functional Web sites that can 
        be used in their portfolios and viewed on the Internet.

         HI-TECH MANUFACTURING

         Hi-Tech Manufacturing introduces students to Computer-Aided 
        Design (CAD) and computerized machining. Teens design simple 
        mechanical parts and then write computer programs to construct 
        the parts on an industrial lathe or mill. Teens also learn math 
        skills related to manufacturing (including basic Trigonometry), 
        print reading, and precision measuring. Additionally, 
        manufacturing careers are explained, promoted, and demonstrated 
        through field trips and guest speakers.

science37

    While tech37 is a valuable part of our strategy to build STEM 
education, exposing teens to informal science opportunities must be a 
priority if we are to maintain and increase the Nation's economic 
strength, scientific innovation, and global competitiveness. 
Recognizing this fact, Abbott approached us in 2006 to discuss how we 
might work together to achieve this goal. With generous support and 
valuable input from Abbott, science37 was born.
    Our science37 programs strengthen teens' scientific aptitude while 
piquing their intellectual curiosity by directly connecting them with 
the city's growing science and biotechnology sectors. Teens in these 
programs develop a new appreciation for science, an understanding of 
its relevance in their lives, and an awareness of potential science 
careers.
    To help us build science37, the Abbott Fund has also provided the 
services of an educational consulting firm with substantial experience 
in the science arena. This firm is helping us coordinate roundtable 
discussions with Chicago's leading informal science educators, 
including all of the major museums, to find new ways to collaborate and 
extend the reach of STEM learning across the city.
    The following programs highlight the success we have had with 
science37 in a relatively short period of time:

         LAB 101

         Abbott and Don Wink of the University of Illinois, Chicago, 
        partner with us to provide Lab 101, a program that introduces 
        teens to basic and intermediary laboratory procedures and 
        techniques. Abbott scientists have made several trips to this 
        and other science37 programs to share their perspectives on 
        STEM careers. The Lab 101 teens have also visited Abbott 
        Molecular in Des Plaines, Illinois and Abbott's corporate 
        headquarters in Abbott Park, Illinois to learn about the 
        science and business of global health care and medical 
        research.

         SUMMER SCIENCE EXPERIENCE

         Funded by Abbott and the National Science Foundation, teens in 
        the Summer Science Experience at Harold Washington College 
        conduct experiments based around air quality, water purity, and 
        the use of plants to remove soil contaminants. The teens' work 
        on density with sugar solutions was crafted into a Classroom 
        Activity and published in the August 2008 issue of the peer-
        reviewed Journal of Chemical Education.

         T-POINT: BUILDING DEMAND FOR MATH AMONG CHICAGO YOUTH

         The T-Point (or ``turning point'') program trains teens to 
        become Math Literacy Workers and teaches them Lesson Planning, 
        Creating and Delivering Workshops, Math Instruction and 
        Critical College Preparatory Math Skills. Teens then create and 
        deliver math literacy workshops to middle school students. 
        Being mentored by teens in an informal setting can make the 
        content of programs more engaging for younger students because 
        they often admire and emulate teens. When teen mentors provide 
        guidance through respectful communication and positive 
        attention, youth become more invested in learning.

    Both tech37 and science37 have made significant strides towards 
broadening teen participation in STEM learning, but we know that we 
must do more to make certain that science and technology are viable 
career paths for the next generation.

Collaboration with Chicago Public Schools

    While After School Matters strives to make its programs more than 
just an extension of the school day for under-served teens, we want to 
complement and reinforce the STEM concepts and State standards that are 
delivered in high school classrooms. Our strategy to meet this goal 
revolves around our partnership with Chicago Public Schools.
    Chief Executive Officer of Chicago Public Schools, Ron Huberman, 
has been pivotal to the strength of this partnership, continuing on in 
the tradition of the previous Chief Executive Officer, now U.S. 
Secretary of Education, Arne Duncan. Mr. Huberman has made it clear 
that he intends to build on the success we have achieved in the past 
and to support our long-term goal of offering After School Matters 
programs in every public high school in the city.\6\ In turn, we 
support Chicago Public Schools initiatives like Freshman Connections, 
in which we provide special summer programming to middle school teens 
who are transitioning to high school in the fall.
---------------------------------------------------------------------------
    \6\ See attachment: Ron Huberman letter.
---------------------------------------------------------------------------
    In order to more closely align the two organizations, we have 
created a regional system similar to the one used by Chicago Public 
Schools. Each region is assigned a director and each high school or 
community site is assigned a program specialist. Before the beginning 
of a program cycle, the director and specialist meet with the 
principals and liaisons of our partner high schools to discuss their 
programming needs and how After School Matters can support their 
existing priorities. These discussions directly affect the selection of 
After School Matters programming for each school.
    One illustration of the relationship between After School Matters 
and school day learning is found in the following statistics from the 
Chicago Public School Department of Career and College Preparation:

        <bullet>  In 2006, After School Matters participants with a GPA 
        of 3.0-3.4 enrolled in college at a higher rate: 71.9 percent 
        compared to 63.5 percent for the district. These participants 
        were also more likely to attend a four-year college and to 
        attend school full time than their district counterparts.

        <bullet>  Graduating Latino students who participated in After 
        School Matters programs in 2006 had higher college enrollment 
        rates compared to their district counterparts: 50 percent 
        versus 38.9 percent for the district.

    In terms of STEM programming, we offer another way for schools to 
break through teens' preconceptions. Our hands-on, project-based 
programs get teens excited about scientific and technological ideas 
that might once have seemed dull or mystifying. That enthusiasm is then 
carried over to their formal education and energizes their STEM 
learning during the school day.
    After School Matters also assisted in brokering a partnership 
between the Abbott Fund and Chicago Public Schools to renovate a 
laboratory at Foreman High School. When it opens this fall, the lab 
space will be used for the Lab 101 program after school and science 
classes during the school day.

Assessment

    Quality assurance is important to After School Matters, because 
consistent quality in our programs increases their impact on each teen 
participant. In turn, this impact on teens increases the impact that 
teens have on their communities.
    After School Matters program specialists are a critical part of the 
quality assurance process. They support quality by linking with 
schools, community organizations, instructors, and teens to make the 
connections necessary to successfully facilitate programs. Program 
specialists visit programs regularly to collect feedback from teens and 
instructors. They also use teen participation as a key indicator of 
quality, since young people quickly choose to leave programs that are 
not engaging.
    As part of our ongoing commitment to excellence, After School 
Matters also participates in independent research that evaluates the 
effectiveness of our programs and services. Several top researchers 
have evaluated After School Matters programs and the findings have been 
used to continuously enhance and strengthen the organization's work.
    One of the most compelling studies was conducted in 2006 by the 
Chapin Hall Center for Children at the University of Chicago. 
Researchers examined the relationship between student participation in 
After School Matters programs and high school graduation. They followed 
a group of 3,411 students in 12 Chicago high schools for four years and 
came to these important conclusions:\7\
---------------------------------------------------------------------------
    \7\ Goerge, Robert, Gretchen R. Cusick, Miriam Wasserman, and 
Robert Matthew Gladden. (2007). ``After-School Programs and Academic 
Impact: A Study of Chicago's After School Matters.'' Chapin Hall Center 
for Children: Issue Brief #112.

        <bullet>  Teens who participate in After School Matters 
        [programs] have higher graduation rates and lower drop-out 
---------------------------------------------------------------------------
        rates than teens who do not participate.

        <bullet>  Teens in After School Matters [programs] have higher 
        school attendance than those who do not participate.

        <bullet>  Teens in After School Matters programs have fewer 
        course failures than teens who do not participate.

    After School Matters programs have also been evaluated by Dr. 
Robert Halpern, a nationally-recognized authority on youth development 
at the Erikson Institute. For two years, Dr. Halpern documented the 
activities of teens and instructors in After School Matters 
apprenticeship programs. The findings concluded that After School 
Matters programs:\8\
---------------------------------------------------------------------------
    \8\ Halpern, Robert. ``After-School Matters in Chicago: 
Apprenticeship as a Model for Youth Programming.'' Youth & Society. 
38.2 (2006): 203-235.

        <bullet>  Produce positive effects in several areas such as 
        improving teens' abilities to work in groups, communicate 
        effectively, plan and meet deadlines, and cooperate with 
---------------------------------------------------------------------------
        flexibility;

        <bullet>  Give teens a sense of what it means to be an adult, 
        in both thought and responsibility, and illustrate what it 
        takes to become skilled at a task;

        <bullet>  Teach students not only about the specific discipline 
        that was the focus of their apprenticeship (e.g., arts, 
        technology), but also about how to approach tasks related to 
        the discipline, such as conducting research or envisioning the 
        end product; and

        <bullet>  Enhance students' knowledge of various vocational 
        skills such as how to apply and interview for a position, the 
        importance of regular and prompt attendance, and guidelines for 
        appropriate behavior.

    While we understand the need to evaluate our programs in more 
specific detail, such as the direct effect of STEM learning, our 
limited resources preclude that kind of critical work at this time. 
However, Abbott has provided direction towards such in-depth 
examination by helping us acquire pre- and post-program surveys for 
science37 teens that will gauge our impact on their understanding, 
interest, and appreciation of science. Once these surveys have been 
reviewed, we will have a glimpse into the lasting effect we are having 
on the Nation's future workforce.
    However, the results of these surveys will provide only a glimpse 
of that impact. In order to engage in the kind of thoughtful and 
detailed analysis that is necessary to create compelling STEM 
programming, After School Matters and other non-profits across the 
country will need more financial resources to engage experts who can 
devise, implement, and interpret such studies.

Challenges

    Evaluation is not the only challenge that After School Matters must 
face when it comes to broadening teen participation in STEM learning. 
As mentioned throughout my testimony, we focus on the most under-served 
high school teens in the city. In Chicago's public schools, 84.9 
percent of teens are considered to be ``low-income'' and qualify for 
the federal free and reduced lunch program.
    The communities these teens live in are also struggling in terms of 
public support and infrastructure. The facilities and equipment needed 
for programming in their neighborhoods are often either outdated or 
unavailable. As a result, the availability of high-quality, affordable, 
out-of-school time programs can be very limited. This can be especially 
problematic for STEM learning, since teens in these communities often 
believe that science and technology are boring or irrelevant to their 
lives.
    After School Matters has met these challenges with innovative 
thinking and beneficial partnerships. All of our programs are free to 
Chicago residents. Teens who join our core program model--the 
apprenticeship--receive stipends as financial incentive to participate 
and as reinforcement of the structure of the workplace. Since 
apprenticeships take place in job-like settings, this investment in our 
youth makes it possible for the most economically disadvantaged teens 
to experience the working world that awaits them after graduation.
    We also work hard to guarantee that our programming is meaningful 
to these teens. We strive to focus on areas that directly affect them, 
such as health care, teen pregnancy prevention, and financial literacy. 
One advanced program in biotechnology illustrated how advances in that 
field might one day end the scourge of diseases that plague their 
communities, like AIDS and lupus.
    We are also piloting ``hybrid'' programs, which combine STEM 
learning with other, seemingly unrelated disciplines. One example is 
``The Science of Art'' program that just concluded at Harold Washington 
College. The program reconnected teens to the Renaissance spirit, a 
time when art was intertwined with science, as in the works of Leonardo 
da Vinci. An example of teens discovering this association was when 
they created cyanotype prints: the prints required the mixture of two 
chemicals to make a solution that was reactive to ultraviolet light and 
then ``developing'' paper painted with the solution in the sun. One of 
the teens in the program said she had always found science difficult, 
but that the program ``created a bridge between art and science'' and 
made the STEM learning easier to understand.
    We have made a great deal of progress in bolstering STEM among our 
city's youth. But there is so much more that needs to be done. Our 
vision for the next three years includes doubling our current number of 
tech37 program slots to 7000 while tripling our science37 program slots 
to 3500.
    However, this ambitious vision is currently weighed down by fiscal 
realities. Due to substantial reductions in government funding and the 
anticipated reductions in corporate and foundation giving for this 
fiscal year, our Board of Directors was forced to decrease our budget 
by $7.3M. We have taken significant measures to manage costs and 
maximize our program offerings, including laying off staff, freezing 
staff salaries and vacant positions, consolidating staff functions, 
instituting unpaid furlough days, and increasing employee contributions 
to benefits. Additionally, teen stipends and instructor fees were 
reduced by ten percent.
    But none of these measures were able to prevent the elimination of 
one-third of our total program slots in the coming year. Restoring 
these 10,000 slots, let alone building additional STEM programming, is 
impossible without additional support.
    Furthermore, the largest roadblock in the growth of science37 is 
finding qualified field professionals to serve as instructors. Again, 
we are an intermediary organization; we have no curricula or 
instructors of our own. We need to realize additional connections to 
the science community, to retired professionals, to graduate students, 
and to others whose schedules would enable them to run programs in the 
afternoon and early evening hours. We also need to further develop 
informal educators to deepen their knowledge of science concepts, to 
gain cultural competence with our diverse population, and, as stated by 
the Taking Science to School report by the National Research Council, 
to learn ``to teach for science proficiency.'' \9\
---------------------------------------------------------------------------
    \9\ National Research Council (2007). Taking science to school: 
Learning and teaching science in grades K-8. Committee on Science 
Learning, Kindergarten through Eighth Grade. Richard A. Duschl, Heid A. 
Scheingruber, and Andrew W. Shouse, editors. Washington, DC: The 
National Academies Press.
---------------------------------------------------------------------------
    In order to be a leader in out-of-school time STEM education in 
Chicago, we need funding to hire a full-time position that would focus 
solely on the cultivation of STEM programming and instructors. We have 
the will, the desire, and the proven ability to take these steps to 
make STEM a priority in our city. All we lack are the means.

Recommendations

    The challenges of After School Matters are similar to those felt by 
non-profit informal educators across the Nation. Therefore, there needs 
to be a national response. I would like to make a few recommendations 
on how the private sector and State and federal stakeholders can take 
better advantage of non-profit organizations like After School Matters 
to improve STEM education.

         Government support

         Federal and State governments should provide clear direction 
        on STEM learning, such as those outlined in The Opportunity 
        Equation by the Institute for Advanced Study, including the 
        call for increased science and math content in out-of-school 
        time programming through project-based, real world 
        activities.\10\
---------------------------------------------------------------------------
    \10\ Institute for Advanced Study (2009). The opportunity equation: 
Transforming mathematics and science education for citizenship and the 
global economy. Commission on Mathematics and Science Education.

         The government should increase its support of informal 
        education--including out-of-school time programming such as 
        After School Matters--given the increasing evidence of its 
---------------------------------------------------------------------------
        important role in teaching America's youth.

         Government funding

         Corporations have only so many resources that they can offer 
        their home cities, let alone informal educators across the 
        country. Increased government funding is vital to the continued 
        efforts of informal STEM educators and is the only way to 
        ensure continued expansion of our efforts. We cannot do it 
        alone.

         Furthermore, the government should relax its more demanding 
        assessment requirements for non-profits, since organizations 
        are often mandated to apply all funding to programming. If 
        assessment is a priority, then resources above and beyond 
        programming dollars should be made available for non-profits to 
        engage assessment experts.

         Private sector and foundation awareness

         The private sector and foundations could ease the burden on 
        non-profits by allowing more of their gifts to be unrestricted, 
        so that organizations can apply funding in the most effective 
        way possible to serve their missions. Long-term investments are 
        also pivotal to ensuring program sustainability. And by funding 
        existing models and proven practices, this support will build 
        upon each organization's programmatic momentum.

         Private sector participation

         The private sector should follow the example of companies such 
        as Abbott and Motorola and become full participants in the 
        informal STEM education community by providing human resources 
        as well as funding. They should foster a corporate culture that 
        allows their employees to give their time to informal 
        education. Encouraging current or retired staff to contribute 
        to out-of-school time initiatives by visiting or instructing 
        programs during the work week could quickly increase the 
        quantity and refine the quality of our STEM programs.

    With this kind of support, informal educators across the country 
could move the cause of STEM learning forward. And no one is better 
poised to lead the charge than After School Matters. We have a twenty-
year history of successful and swift growth with proven program models. 
We have unique relationships with city partners that allow us to work 
on an unparalleled scope with tens of thousands of teens. We are 
integrated into the communities we serve through the local informal 
educators that we hire to provide programs. And, most importantly, we 
have access to a diverse, curious, and eager audience who, with the 
right spark of inspiration, could change, not only the course of their 
own lives, but also the future of their community, their city, and 
their country.
    On behalf of After School Matters, I thank you for your time and 
attention. I would be pleased to answer any questions that you may 
have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                       Biography for Maggie Daley
    Maggie Daley is First Lady of the City of Chicago and one of the 
city's leading advocates for children and youth. She is Chair of After 
School Matters, whose goal is to engage Chicago's teens in purposeful 
and meaningful activities after school and in the summer. Starting in 
1991 with 220 teens in the gallery37 summer program, it has grown to 
include over 28,000 high school students this academic year. This 
increase is a result of an active and resourceful board of civic and 
corporate leaders; partnering with community-based organizations, non-
profit groups, and the Chicago Public Schools, Parks and Libraries.
    Maggie also chairs the Chicago Cultural Center Foundation Board, 
which develops citizen, corporate and foundation support for the 
center, where the public is exposed, free of charge, to a rich multi-
cultural experience in the arts. Its goal is to inspire the public, and 
at the same time help young people become immersed in cultural arts 
education.
    Maggie was President of Pathways Awareness Foundation from 1991 
until 2004. Pathways Awareness Foundation is dedicated to increasing 
knowledge about the benefit of early detection and early therapy for 
infants and children with physical challenges. It aims to support 
parents by providing knowledge, information, and a sense of community. 
A Medical Round Table of prominent professionals partners with the 
foundation to heighten awareness as to the utmost importance of early 
intervention.
    In 1992, President Clinton appointed Maggie to the President's 
Committee for the Arts & Humanities (PCAH). The PCAH serves as a bridge 
between the public and private sector in supporting arts and 
humanities. Maggie currently serves on the Board of Directors for 
several Chicago non-profit organizations and foundations, including 
Children at the Crossroads Foundation and The Chapin Hall Center for 
Children at University of Chicago.

    Chairman Lipinski. Thank you, Ms. Daley.
    The Chair now recognizes Mr. Michael Lach.

   STATEMENT OF MR. MICHAEL C. LACH, OFFICER OF TEACHING AND 
                LEARNING, CHICAGO PUBLIC SCHOOLS

    Mr. Lach. Mr. Chairman, Members of the Subcommittee, thank 
you for inviting me here today to speak to you about this 
issue. It is an honor to sit before you alongside colleagues 
who I have worked with and learned much from. I am the Officer 
for Teaching and Learning for the Chicago Public Schools. Our 
school system consists of over 600 schools, nearly 25,000 
teachers and more than 400,000 students. I began my career as a 
high school science teacher and have played a leadership role 
in the design and execution of CPS's science, technology, 
engineering and mathematics programs for the past five years.
    We have made great progress with math and science 
instruction in Chicago. Student performance has risen 
considerably over the past five years, and the rate of 
improvement is faster than that of the rest of the state. To do 
this, we developed a comprehensive plan to coordinate all 
aspects of math and science improvement. This includes creating 
a vision for high-quality instruction, building a support 
infrastructure to provide high-quality, content-rich 
professional development to thousands of teachers over the 
course of an academic year, forced partnerships with local 
businesses, museums, laboratories and universities to increase 
content knowledge of our teachers and enhanced our after-school 
offerings to include mathematics and science enrichment.
    We have done this in a challenging context. 85 percent of 
our students come from low-income families. Our resources are 
low. Illinois ranks 47th in the Nation in the level of State 
support for education. Our capacity is limited. Less than five 
percent of our K-8 teachers possess a State endorsement in 
mathematics. The Chicago Public Schools is extremely 
decentralized. By State code, decisions about local school 
budgets, curriculum and principal contracts are made by an 
elected body called the Local School Council, not the chief 
executive officer or the school board.
    While I feel proud of the accomplishments to date, there is 
still much work to do. An achievement gap remains in many of 
our schools. The number of students meeting and exceeding 
standards remains far too low. Our high schools in particular 
still have graduation rates that are unacceptable. Improving 
schools at scale is complicated, time-intensive work and I am 
reminded again and again of the need to approach these 
challenges with real humility.
    The gaps we face in the resources and capacity limitations 
have been built on five key strategies we have used to drive 
things ahead. The first is teacher quality. We know that 
teachers need to know the subjects they teach. Part of our 
systems approach involves using our university colleagues to 
help us increase the content knowledge of teachers. Much of 
this work originated with National Science Foundation Resources 
including the CUSP grant which enabled us to provide tuition 
stipends for teachers to go back to school and learn the 
mathematics and science they needed to.
    A second key strategy is to provide core support for 
classroom instruction. Again, we used our neighbors and our 
partners. For instance, the University of Chicago on the south 
side of the city is the center for instruction in K-5 
mathematics, again thanks to pioneering NSF work around 
curriculum development. At the high school level, we partner 
with many local and national institutions including UIC, the 
Illinois Institute of Technology, Carnegie Mellon University, 
and the Field Museum to provide coaching, professional 
development, training and curriculum support for our teachers.
    We know that extended learning opportunities are essential. 
As Ms. Daley mentioned, enhancing after-school experiences for 
kids is tremendously important. There is no better astronomy 
lesson in Chicago than going to the Adler Planetarium and 
seeing the sky show. There is no better horticulture lesson 
than going to the Chicago Botanic Gardens and learning to 
cultivate and grow a garden.
    We have also been pretty aggressive about creating new 
schools. Our Renaissance 2010 program involves the painful 
process of closing down schools and creating new ones. We are 
proud to have created several math- and science-focused schools 
over the course of that time period.
    We have done this with extensive partnerships throughout 
all aspects of the city. I will highlight a few principles that 
underscore the kinds of partnerships that I think are 
important. We have been able to do this because of coherence. 
We have had a comprehensive vision and system of support for 
several years, and that coherence enables us to help partners 
organize themselves so their work aligns with ours. Having so 
many high-quality partners is really, really helpful. It gives 
us a sort of buyer's advantage when we talk about other work. 
For instance, there was a local university that wanted to do 
wonderful collaboration with arts and science content. We were 
able to go to them and say, you know, you really need to 
explicitly connect this to our curriculum, and they were able 
to make those kind of changes.
    Having catalysts from the Federal Government has been 
incredibly powerful. Funding sources and grants enable us to 
leverage new resources and create the kind of innovations that 
we need to move things ahead.
    Lastly, we have made a lot of progress by centralizing our 
supports. We find the general population does not understand 
science and mathematics very well or its practice. Sadly, many 
of our school administrators share that same lack of 
understanding. By really providing a coordinated central 
support, we can drive that kind of work.
    Too often, children in Chicago are considered disadvantaged 
because of the many social issues that confront them. Without 
taking anything away from the situation in which our children 
grow up, the word `disadvantaged' has always troubled me. Where 
STEM education is concerned, I believe that growing up in 
Chicago can and should be considered an advantage. Our students 
grow up right next door to world-class universities, 
businesses, museums and laboratories. These institutions can 
and should be considered part of the overall system of 
mathematics and science improvement, and our collective work to 
date has shown that when such a system is aligned and pointing 
in the same direction, that system works to serve the students 
of Chicago. Thank you.
    [The prepared statement of Mr. Lach follows:]
                 Prepared Statement of Michael C. Lach
    Mr. Chairman, Members of the Subcommittee, thank you for inviting 
me here today to speak to you about this issue. It is an honor to sit 
before you alongside colleagues whom I've worked with and learned much 
from.

Introduction

    I am the Officer of Teaching and Learning for the Chicago Public 
Schools. The Chicago Public School system consists of over 600 schools, 
nearly 25,000 teachers, and more than 400,000 students. I began my 
career as a high school science teacher, and have played a leadership 
role in the design and execution of CPS's science, technology, 
engineering, and mathematics education programs for the past five 
years.
    We have made great progress with mathematics and science 
instruction in Chicago. Student performance has risen considerably over 
the past five years, and the rate of improvement is faster than that of 
the state. (See Figure 1 and Figure 2.) To do this, we developed a 
comprehensive plan to coordinate all aspects of mathematics and science 
improvement, which we call the Chicago Math & Science Initiative. As 
part of this work, we created a vision for high quality instruction; 
built the support infrastructure to provide high quality, content-rich 
professional development to thousands of teachers over the course of an 
academic year; forged partnerships with local businesses, museums, 
laboratories, and universities to increase the content knowledge of our 
teachers; and enhanced our after-school offerings to include 
mathematics and science enrichment.
    We've done this in a challenging context. Eighty-five percent of 
our students come from low-income families. Our resources are low; 
Illinois ranks 47th in the Nation in the level of State support for 
education. Our capacity is limited--less than five percent of our K-8 
teachers possess a State endorsement in mathematics. The Chicago Public 
Schools is an extremely decentralized school district. By State law, 
decisions about local school budgets, principal contracts, and 
curriculum are made by an elected body called the ``Local School 
Council,'' not the Chief Executive Officer.
    While I feel proud of the accomplishments to date, there still is 
much work to do. An achievement gap remains in many of our schools. The 
number of students meeting and exceeding standards remains far too low. 
Our high schools, in particular, still have graduation rates that are 
not acceptable. Improving schools at scale is a complicated, time-
intensive work, and I'm reminded again and again at the need to 
approach these challenges with true humility.

Working Together

    The gaps we face, and the resource and capacity limitations that we 
operate under, make it unconscionable for us to turn down assistance. 
So my most important point today is that we really depend on the 
assistance and partnership of others--the local community groups, 
colleges and universities, museums and laboratories as well as the 
Federal Government to advance our work. I'll talk now about the major 
components of our strategy and the mechanisms by which we intend to 
continue the progress we've shown.

Teacher Quality
    Teachers need to know the subjects they teach. That's a pretty 
fundamental tenant of teaching and learning. In Chicago and Illinois, 
we've struggled to both attract and hire teachers with appropriate 
content-level backgrounds. Building on an earlier National Science 
Foundation grant called the Chicago Urban Systemic Partnership, we 
helped local universities create content-rich courses that enabled 
teachers to earn State endorsements in mathematics and science. Now, 
most local colleges and universities offer courses that help teachers 
supplement their teaching certificates with content-based credentials, 
and we've changed our internal staffing procedures to place an emphasis 
on teachers with strong content background. That said, there's still a 
considerable way to go: in the Fall of 2008, we opened 82 K-8 
elementary schools without a single adult with a State mathematics 
endorsement on their faculty.
    The district's role in working with our university partners was to 
convene and organize the conversations with them. With the CUSP grant 
and with the bully pulpit of the Chicago Public Schools, we've created 
a community of interested university faculty members and academic deans 
with whom we work on a regular basis to design and manage these 
courses. The district has offered financial support to teachers to earn 
content-based endorsements, and this ``carrot'' has certainly helped us 
encourage local universities to change the curriculum and structure of 
their teacher credentialing programs.

Core Support for Classroom Instruction
    A major part of our strategy has been to provide a complete suite 
of instructional supports to schools--textbooks, assessments, in-school 
instructional coaching, and workshop professional development--to help 
improve the quality of instruction within classrooms. Again, here we 
have relied on public and private stakeholders to help develop this 
work.
    We relied heavily on instructional materials developed locally--
such as Everyday Mathematics from the University of Chicago--both 
because they were high quality but also because we had an 
implementation center in our backyard. Where we didn't have a strong 
center of expertise, we helped create one: The Center for Mathematics 
and Science Education at Loyola University is now the headquarters for 
middle grades science education in the city of Chicago. On State 
assessments to date, schools that implement these programs consistently 
outperform schools that do not.
    At the high school level, we've created a market system around 
instructional supports using both public and private entities. Each 
year, we contract with partners--including the Illinois Institute of 
Technology, the University of Illinois at Chicago (UIC), Loyola 
University, and Northwestern University, as well as for-profit entities 
associated with the University of Texas at Austin and Carnegie Mellon 
University--to provide a similar suite of instructional materials, in-
school instructional coaching, and teacher training. Through a 
combination of carrots and sticks, high schools utilize these services 
to improve their instructional performance.
    The district itself plays a major role in this work: most of the 
funding for these supports comes from district or foundation funds, and 
we work extensively to develop the partnership arrangements to ensure 
sufficient capacity both internally and externally to move the work 
ahead.

Extended Learning Opportunities
    We also know that there are some aspects of mathematics and science 
that are hard to learn in the classroom. There's no better astronomy 
lesson than watching the star show at the Adler Planetarium. There's no 
better botany lesson than spending a few hours at the Chicago Botanical 
Gardens. We work with local museums and community groups to create 
after-school clubs focused on science and mathematics; these programs 
often provide the spark that ignites a student's interest in STEM 
disciplines. And ``Science 37,'' a component of After School Matters, 
provides science experiences for students after school time.
    We've also created summer internship programs and student and 
teacher research opportunities, sometimes using the GK-12 programs of 
the NSF, and other times using business funding. These programs enable 
both teachers and students to experience the real-life work of 
scientists and engineers, providing a learning experience that is 
modern and directly connected to the real work.
    For the past three years, the City of Chicago has held a ``Science 
In The City'' celebration, a week-long carnival that demonstrates that 
Chicago is a city of science to children of all ages. This event 
originated with the public schools, and we continue to play a 
leadership role in the design and execution of this event.
    The district's role in this area is much more limited, primarily 
due to funding constraints. Centrally, we help develop a few after-
school programs and partnerships, such as the annual science fair 
competition in cooperation with the Museum of Science and Industry, and 
the You Be A Chemist! competition with Harold Washington Community 
College. We're currently exploring mechanisms that will make the myriad 
of after-school and extended learning experiences more accessible to 
schools and communities, with the goal of increasing participation and 
coherence throughout the city.

New Schools
    New school creation has been a hallmark of the Chicago Public 
Schools. We're pleased to have created several new schools with an 
emphasis on mathematics and science. For instance UIC College Prep high 
school, run by the Noble Street Charter Management Organization, 
provides a rigorous high school experience coupled with extensive 
health science learning thanks to the partnership with UIC's Medical 
School. Several business partners have helped fund and develop our 
networks of charter schools, connecting their technical resources with 
our school children right at their school.

Undergirding Systems and Structures
    It's important to highlight the fact that the above strategies are 
grounded in a context of strong school accountability, a mechanism to 
work with external partners on program evaluation, and a new focus on 
performance management for all aspects of the educational enterprise. 
This systems approach has enabled much of the improved student 
achievement that the Chicago schools have enabled over the past half-
decade.

Implications

    What does it take to sustain and build such partnerships?

Coherence
    A comprehensive system of supports for students within Chicago 
would not be possible without a coherent strategy for STEM education. 
In Chicago, we've maintained a consistent strategy for several years, 
with sustained leadership. A coherent direction enables relationships 
to deepen and work to improve.

Quality and Capacity
    In Chicago, we're fortunate to have a wealth of capacity around 
STEM education work. This is important, as it enables us to exert sort 
of ``buyer's leverage'' in our partnerships. For instance, when one 
local university wanted to run summer programs focused on the 
integration of arts and science, but didn't have much direct curricular 
connection, we were able to convince them to change the direction of 
their work. When a local museum wanted to focus on teacher professional 
development and ``edutainment'' but didn't have a strong cadre of 
scientists or science educators, we had a strong position from which to 
promote coherence and the importance of content knowledge.

Catalysts
    Federal resources often are catalysts to make partnerships and 
connections even stronger. The Chicago Transformative Teacher Institute 
grant that Dr. Wink and I are co-PIs of is an example of this; as a 
result of National Science Foundation funding, we've created an even 
deeper partnership thanks to this work. Much of the groundwork for our 
progress in Chicago was set by a series of NSF grants over the years; 
it's important for the Federal Government to realize the importance of 
this role as strategic and financial decisions are made.

Centralization
    There's currently considerable debate in the education world about 
the degree and nature of centralization within school systems. Systems 
that foster innovation and entrepreneurship push decisions and 
resources closest to schools and classrooms, and when they are coupled 
with strong accountability systems, local communities can easily gauge 
success. Yet the general public doesn't understand science or its 
practice; a 2006 Education Week poll showed that 66 percent of 
principals do not feel that upgrading math and science education is a 
priority.\1\ Moreover, without strong content knowledge and 
considerable instructional capacity, it's difficult to design strong 
mathematics and science programs. Ultimately, this is a question about 
the best way to scale up improvements, and it remains a particularly 
vexing question for State and district administrators and policy-makers 
alike. The mathematics and science education experience in CPS, where 
centrally designed and managed high-quality supports are available to 
schools via market-like systems, and where improvements can be 
demonstrated when those supports are effectively implemented, offers a 
viable model to consider.
---------------------------------------------------------------------------
    \1\ From Public Agenda's Quality Counts survey 2006.
---------------------------------------------------------------------------
    Too often, the children in Chicago are considered 
``disadvantaged,'' because of the many social issues that confront 
them. Without taking anything from the situation in which our children 
grow up, the word disadvantaged has always troubled me. Where STEM 
education is concerned, I believe that growing up in Chicago can and 
should be considered an advantage. Our students grow up right next door 
to world-class universities, businesses, museums, and laboratories. 
These institutions can and should be considered part of the overall 
system of mathematics and science improvement, and our collective work 
to date has shown that when such a system is aligned and pointing in 
the same direction, the system works to serve the students of Chicago.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                     Biography for Michael C. Lach
    Michael C. Lach is currently Officer of Teaching and Learning for 
the Chicago Public Schools, overseeing curriculum and instruction in 
the 600 schools comprise the Nation's third largest school district. 
Mr. Lach began teaching high school biology and general science at 
Alcee Fortier Senior High School in New Orleans in 1990 as a charter 
member of Teach For America, the national teacher corps. After three 
years in Louisiana, he joined the national office of Teach For America 
as Director of Program Design, developing a portfolio based 
alternative-certification system that was adopted by several states. 
Returning to the science classroom in 1994 in New York City Public 
Schools, and then back to Chicago in 1995 to Lake View High School, he 
was named one of Radio Shack's Top 100 Technology Teachers, earned 
National Board Certification, and was named Illinois Physics Teacher of 
the Year. He has served as an Albert Einstein Distinguished Educator 
Fellow, advising Congressman Vernon Ehlers (R-MI) on science, 
technology and education issues. He was lead curriculum developer for 
the Investigations in Environmental Science curriculum developed at the 
Center for Learning Technologies in Urban Schools at Northwestern 
University and published by It's About Time, Inc. As an administrator, 
he has led the district's efforts in science and mathematics 
instruction in a variety of roles between 2003 and 2007. He has written 
extensively about science teaching and learning for publications such 
as The Science Teacher, The American Biology Teacher, and Scientific 
American. He earned a Bachelor's degree in physics from Carleton 
College, and Master's degrees from Columbia University and Northeastern 
Illinois University.

    Chairman Lipinski. Thank you, Mr. Lach.
    I now recognize Dr. Donald Wink.

   STATEMENT OF DR. DONALD J. WINK, PROFESSOR OF CHEMISTRY; 
  DIRECTOR OF UNDERGRADUATE STUDIES, DEPARTMENT OF CHEMISTRY; 
   DIRECTOR OF GRADUATE STUDIES, LEARNING SCIENCES RESEARCH 
          INSTITUTE, UNIVERSITY OF ILLINOIS AT CHICAGO

    Dr. Wink. Chairman Lipinski, Ranking Member Ehlers and 
distinguished Members of the Subcommittee, please accept my 
thanks for the opportunity to testify today on the subject of 
how universities can engage in partnership efforts to address 
important questions about the systems that will improve K-12 
STEM education.
    I think it is particularly meaningful to testify in the 
context of the work at the University of Illinois at Chicago. 
UIC is proud of the work of its faculty, staff and students as 
they pursue the same goals of excellence in research, service, 
teaching and patient care that are found at other research-run 
universities with significant health science programs. But at 
UIC, we also have the ability, the opportunity and the duty as 
one of the Nation's few urban land grant institutions to focus 
important parts of our work on the opportunities and challenges 
of one of the world's great cities. In this, we acknowledge the 
importance of the support we receive from foundations, the 
private sector, the city, the state and of course the Federal 
Government. Are important in establishing priorities for our 
work but NSF is especially strong in requiring that our work 
draw from and often contribute to the research literature 
itself.
    Through all of this, we try to address the central need for 
reforming STEM K-12 education: improving instruction. But 
improving instruction requires many different parts of the K-12 
system to work well and in tandem. This includes K-12 
administrative systems that use distributed leadership to 
support well-assessed learning by all students, school culture 
including safety of course but also a sense of content rigor, 
relevance and inquiry that must be shared by teachers, students 
and parents. In addition, teachers need to be skilled in the 
reflected practice that is a necessary part of the work of any 
professional and they need to be given the time and the 
training to do this. Finally, students must engage and be 
supported in developing a growth mindset informed by deep 
inquiry-based interest in science that develops over time. If 
these are available, then the research literature is clear: 
classroom instruction will change and student outcomes will 
improve. In Chicago, I am proud to be part of a very large 
number of individuals committed to making those components a 
well-orchestrated system for our students in the roles that the 
university can play.
    There are several overlapping activities in which UIC 
faculty, staff and students support improvement in K-12 STEM 
education ranging from teacher education to the ways in which 
we educate the undergraduates who come to our campus from K-12 
systems. I note that within these there is one important gap: 
how to translate STEM research into K-12 practice. That was why 
it was so interesting for me to learn about and have the change 
to work with Dr. Linda Marton and her colleagues at Foreman 
High School on the avid support of the Science 37 program. This 
environment will not just engage students, as Abbott has shown. 
It is also a way to engage STEM experts.
    We hope that all these different activities will be 
included in our new NSF-funded math and science partnership 
grant, the Chicago Transformation Teacher Institute program. 
The CTTI, as it is known, will train 160 math or science 
teachers in cohorts from 20 different schools in current 
mathematics, physical science and life and environmental 
science content. These teachers will also receive workshops on 
leadership and on the design and implementation of curricula, 
particularly at creating rigorous AP and capstone courses for 
12th grade in schools where previously there were few examples 
of such offerings. At the same time, these teachers will 
continue to teach in earlier grades, providing further 
development of all four years of a high school curriculum.
    As we talk about systems, I think it is meaningful to note 
that the CTTI, though unique, is also an outgrowth of previous 
work by the district with support of NSF, especially the NSF-
funded Chicago Urban Systemic Program and the district's 
comprehensive plan, the Chicago Math and Science Initiative. 
One outcome of this was the Algebra Initiative, which put the 
mathematics departments at UIC, DePaul and the University of 
Chicago in close support of CPS teachers and led to many ideas 
for the CTTI.
    In addition, the CTTI is intimately connected to the work 
of the Chicago High School Transformation Project, which was 
funded by the Chicago Board of Education with a significant 
assist from the Bill and Melinda Gates Foundation. The High 
School Transformation Project further strengthened the 
relationship of CPS with UIC, IIT, Loyola and Northwestern in 
the area of science and gave us experiences in supporting 
curricular change that are now brought to bear in the CTTI. 
Finally, the CTTI is a deep research project addressing how 
university-based training can affect the elements of school 
capacity, teacher practice and students outcomes.
    I thank you for listening to these remarks and I welcome 
the opportunity to answer your questions.
    [The prepared statement of Dr. Wink follows:]
                  Prepared Statement of Donald J. Wink
    Chairman Lipinski, Ranking Member Ehlers, and distinguished Members 
of the Subcommittee on Research and Science Education, I offer my 
sincere gratitude for the opportunity to testify about the efforts of 
my colleagues and I at the University of Illinois at Chicago in our 
work with the Chicago Public Schools. UIC and other institutions of 
higher education in the Chicago area are proud to part of a STEM 
education system that extends from preschool to graduate school.\1\
---------------------------------------------------------------------------
    \1\ I have prepared this testimony and am responsible for its 
content, but I do wish to acknowledge that many individuals contributed 
material for this testimony. They are cited in different places. In 
addition, three individuals who helped me with additional review and 
comment are John Baldwin, Steve Tozer, and Carole Mitchener of UIC, 
Stacy Wenzel of the Center for Science and Mathematics education at 
Loyola University Chicago, and Dean Grosshandler of the Northwestern 
University Office of Science, Technology, Engineering, and Math 
Education Partnerships.
---------------------------------------------------------------------------
    I would like to take a few moments, if I may, to describe the very 
special situation of the University of Illinois at Chicago. The 
University is part of the land grant institution for the State of 
Illinois but, in contrast to many other land grant institutions, we are 
located very much in the center of the city and at the intersection of 
many transportation routes. This is by design, for we are a campus 
that, from our start, has focused on integrating its research, 
scholarship, service, and patient care on the needs of the city, 
combining a research university's ability to create fundamental new 
knowledge with the exciting opportunity to link that knowledge to the 
needs of the city where possible. In addition, our diverse 
undergraduate student population reflects the demographics of 
northeastern Illinois; almost one third of our students are under-
represented minorities and no single group is in the majority. We are 
also academically diverse, with strong programs in STEM and the health 
sciences, associated with our large medical sciences campus.
    Of course, today the focus will be on our work in association with 
K-12 teaching. In this case, much has occurred in the last twenty years 
that, as I will discuss, exemplifies how universities can benefit from 
close partnerships with public school districts, often supported by 
federal and private funding. I should also point out that, while I will 
focus on UIC, it is fortunate that in Chicago there are several other 
institutions of higher education that are involved with systemic change 
in the district. In many cases they are working collaboratively with 
each other and I will be citing their work, also.
    I have been asked to comment in three areas, which I take in 
sequence. But before I do so, I would like to present a logic model for 
this work that provides a structure for our work and my further 
remarks.
    Our model of a STEM education system sees K-12 school systems and 
universities as part of a cycle that includes students educated in K-12 
who move on for more specific training in higher education. The 
colleges and universities have the opportunity to educate these 
students further, in specific disciplines, so those students are able 
to participate in STEM and health science careers. In addition, 
colleges and universities affect K-12 education by producing teachers, 
who need deep disciplinary knowledge and the skills to be able to work 
well with the diverse learners in K-12 settings. Further, colleges and 
universities work with existing teachers, both to provide deeper 
training in current topics in STEM and in STEM education and to receive 
from those teachers a better understanding of the actual issues that 
matter in K-12 STEM classrooms. The systematic study of these endeavors 
produces educational research. Finally, districts and universities 
together engage in work to bring this research into practice. This 
logic model is affected by others who participate in the STEM 
enterprise, including of course public and private employers, who both 
employ STEM graduates and, in some cases, actively work with K-12 
schools and institutions of higher education in preparing better 
students. Also, the model is focused on the university as a partner. 
Clearly, the vitality of Chicago's informal science programs, through 
After School Matters, the museum community, and the media are all 
essential parts of STEM education, though poorly represented in this 
model itself.
    This picture is all well and good on paper, but in practice it 
requires three other elements that don't always fit on a traditional 
organizational chart: strong, enduring, relationships among the 
individuals and the institutions involved; leadership dedicated to this 
interaction within and among institutions; and research-based knowledge 
of effective ways to carry out instruction and to support change. 
Relationships, leadership, and research are not just one-time events 
but they depend on excellent communication over time. Conversely, 
things that hamper relationships, undermine effective leadership, and 
stymie the translation of research into practice are all dangers to 
effective STEM education systems work. Also, a central part of the 
translation of the model into effective practice is to note the context 
of our work, and of the work done in our district. UIC and its partners 
enthusiastically embrace the idea that urban education is an 
opportunity for truly exciting work. The work is also very challenging 
as we strive to bring educational excellence to all students. Hence, 
understanding well how urban schools work is present into all of our 
efforts, for example in our Noyce, GK-12, and MSP programs.
    In the figures on the next page, I show two examples of how aspects 
of this logic model have informed our work in Chicago. The first shows 
the graphical description my colleagues and I used in organizing our 
most recent NSF GK-12 project. For this, we identified specific 
learning communities that would be essential to the success of the 
project, and who would be affected by the project. In the second figure 
I present the logic and research model that we are using in our current 
NSF Math and Science Partnership project. In this case, there is a flow 
of events, capturing more clearly both the cyclical nature of our plans 
and the outcomes we have identified for our research and evaluation 
program. In both cases, the interconnections--the way things happen--
depend on people working together, informed by research.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


1.  Brief description of the University of Illinois at Chicago's (UIC) 
                    K-12 science, technology, engineering and 
                    mathematics (STEM) education programs and 
                    initiatives.

    In the table below I list nine different ways UIC's STEM education 
programs and initiatives for the last twenty years have impacted K-12 
STEM. I will illustrate many with one or two specific examples. Note 
that this also means that I am leaving out many other equally 
interesting examples, so this is not a comprehensive description of all 
activity, just of all types of activity. Also, the particular ways in 
which our support from the NSF Noyce, GK-12, and MSP programs impact 
STEM K-12 education are deferred until the next question for my 
testimony.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


(a) Teacher education

    Current teachers are the most important part of the K-12 STEM 
enterprise for the simple reason that they provide the vast majority of 
the instruction to the students. As with any professional practice, 
however, the education of a teacher should never cease. Teacher 
learning occurs in many different forms, including the ways in which a 
teacher learns about her own students and her own teaching and shifts 
practice accordingly. For the University, teacher education activity 
primarily consists of outreach through courses and workshops.
    One particular example of such teacher education work is The 
Algebra Initiative. This is a partnership of CPS, DePaul University, 
the University of Chicago, and UIC with leadership provided by, among 
others, John Baldwin at UIC, Lynn Narasimhan at DePaul, and Paul Sally 
at Chicago. Each University offers a one-year course of study for 
participating teachers. The funding for the program has come from the 
district through tuition support and from the Chicago Community Trust. 
Teachers who will teach algebra in an elementary or middle school are 
required to complete this program by the CPS if their school is to meet 
the district requirements for offering Algebra I in eighth grade, a key 
requirement for rigorous work in high school and, ultimately, college. 
As described by the CPS, ``Topics included in the course sequence are 
the structure of algebra, linear equations and inequalities, graphing 
linear equations, algebraic identities, arithmetic sequences, 
introduction to quadratics, and using algebra to model problems.'' In 
this case, then, the faculty at the university provide direct content 
training to teachers, making use of the concept that a deep 
understanding of content that is specific to a course, in this case 
algebra, is essential for effective teaching (Monk 1994; Hill et al., 
2005). Thus, The Algebra Initiative has university faculty providing 
their content expertise in the context of a much wider, district-
supported effort, backed up by mandates for teacher certification from 
the Chicago Board of Education, which requires that teachers pass an 
exam written by the university partners to teach algebra in 8th grade. 
This program has increased the number of formally qualified 8th grade 
algebra teachers in Chicago from 43 in 2004 to over 300. Through this 
work, over half the elementary schools in the system now can have 
qualified algebra instruction.

(b) Teacher preparation

    Although the education of a teacher is an ongoing process it begins 
with preparation and initial certification. Specific and creative work 
to reform how this is done makes use of support from the NSF Noyce 
Teacher Scholars program, described in much more detail later on. Here, 
I want to bring in a different aspect of teacher preparation: the 
``normal'' path pursued by students who enroll in a traditional 
preparation programs as undergraduates. It is of course vital that STEM 
teachers understand content deeply, and we are proud of the 
disciplinary rigor associated with the degree programs in science and 
mathematics teaching. But, especially for undergraduates, it is 
important that students in teacher preparation tracks are taught 
content at least in part with an eye to their future careers as 
teachers. This is part of the reason why UIC, in partnership with 
several area community colleges, received NSF support for the Chicago 
Collaborative for Excellence in Teacher Preparation (NSF DUE 9852167). 
That project built upon and expanded relationships between the UIC 
College of Education and STEM departments teaching content courses. 
That project resulted in several new courses for UIC, including 
planning for what became a set of three content courses and one 
capstone course in the natural sciences, which received further support 
through an NSF CCLI grant (NSF DUE 0311624). The implementation of the 
three content courses at UIC and its partner institutions (Varelas et 
al., 2008) has been accompanied by research and dissemination work that 
demonstrates the gains that occur for this population of students when 
instruction is provided in a context rich inquiry environment. In this 
case, we have research to back the claim that these courses do 
positively impact student attitudes towards science (Wink et al., 2009) 
and the learning of content itself (Plotnick et al., 2009). As of July, 
2009 more than 240 students have participated in these courses at UIC 
with a retention rate towards a teaching degree over 50 percent and an 
overall retention rate of more than 80 percent that is well above the 
norm.

(c) Classrooms

    Thus far, the programs I have described are located at the 
University. However, work in actual classrooms and schools is also 
essential. For example, Maria Varelas and Chris Pappas in the UIC 
College of Education have recently concluded the NSF-funded portion 
(NSF, DRL-0411593) on ``Integrated Science-Literacy in Urban Early 
Elementary Classrooms (ISLE). This was fundamentally a research project 
that also engaged teachers in the collaborative work to:

        <bullet>  Integrate children's literature and non-fiction books 
        with hands-on explorations and various other representational 
        tools, such as writing, drawing, and acting out, in order to 
        strengthen their teaching and their students' learning of 
        science;

        <bullet>  Develop interactive teaching practices helping 
        students build on their own experiences and understandings and 
        both learn and enjoy science;

        <bullet>  Conduct a teacher inquiry that will inform their 
        practice;

        <bullet>  Develop more flexibility with scientific knowledge 
        and ways to engage their students with it;

        <bullet>  Appreciate the funds of knowledge that young children 
        from sociocultural, ethnolinguistic, and socioeconomic groups 
        that are usually under-represented, under-served, and 
        underestimated bring to the classroom.

    The ISLE project is an important example of how UIC research can be 
interwoven with actual instructional work, advancing both learning and 
classroom practice in a way that directly informs the research 
community through conventional presentations and publications (for 
example, Pappas et al., 2009; Varelas et al., 2008; Tucker-Raymond et 
al., 2007). The new modes of instruction also become the basis of 
materials for other teachers, and hence ISLE continues beyond the NSF 
phase in the form of continuing professional development.

(d) Learning

    Another way in which UIC faculty connect research with K-12 
instruction and learning is to take a learning sciences approach, and I 
am proud to be among the faculty who, led by Susan Goldman and James 
Pellegrino, have initiated the UIC Learning Sciences Research Institute 
(LSRI). Among its goals is to be a locus for studies that look at some 
of the fundamental issues in learning and bring them to bear on 
specific classroom questions. One of the ways this matters most is in 
questions of how to teach using emergent technological tools. Josh 
Radinsky, for example, studies the learning that can occur using the 
tools of Geographic Information Systems (GIS). In collaboration with 
other Learning Sciences researchers, he has designed and studied 
classroom environments that incorporate GIS as a tool in social studies 
classrooms, part of a larger project in how representations of data 
are, or are not, made meaningful to students (Radinsky et al., 2005; 
2008). This also was supported through NSF's educational research 
programs (NSF, DRL 0337598) and has direct implications for science 
teaching (Radinsky, 2008).

(e) School leadership

    Teaching does not occur in a vacuum and there are too many examples 
of excellent opportunities that are not sustained because of issues 
within the school that are outside of the control of the teacher. 
Hence, for effective STEM education to develop and continue, school 
leadership must provide the environment and the resources needed by 
teachers. At UIC, Steve Tozer and his colleagues in the College of 
Education have for the past six years been implementing and documenting 
an innovative program in Urban Education Leadership that focuses on 
improving student learning through developing instructional leadership 
at the school level. The program teaches aspiring and practicing 
principals to work productively with leadership teams in the schools. 
Specific course work and coaching occurs in the area of science and 
mathematics: while it is not possible for all school administrators to 
be trained in how to teach these areas, it is a core goal of the UEL 
program to ensure that they are all well versed in how different 
disciplines require different approaches to teaching, such as the use 
of inquiry curricula. The program also emphasizes leadership by teams 
(Mayrowetz, 2008), and for high schools, this places department chairs 
in particularly central roles in building new school cultures for 
student academic success. In the departmentalized high school, students 
benefit from program coherence throughout the department, which 
requires department-level systems, structures, and leadership to 
achieve them. The program has received recognition in part because it 
measures the success of its graduates by their impact on student 
learning outcomes in schools, and its principals now lead 10 percent of 
Chicago's 130 high schools. It has therefore generated over a million 
dollars annually from such sources as the CPS, Eli Broad Foundation, 
McCormick Foundation, the Chicago Community Trust, Fry Foundation, 
McDougal Family Foundation, and the W. Clement Stone Foundation.

(f) K-12 systems

    The logic model I presented at the outset and the areas of activity 
for UIC work with K-12 STEM education derive, in part, from the work of 
many researchers. In Chicago, the tradition of studying the K-12 system 
(and beyond) is a rich one, especially in the last fifteen years. This 
is perhaps best known in the work of the Consortium on Chicago School 
Research, based at the University of Chicago (Roderick et al., 2009). 
The CCSR has had many projects that overlap with UIC work, and much of 
the work in STEM has included the contributions of Stacy Wenzel, now 
Associate Research Professor at the Loyola Center for Science and Math 
Education.
    Several groups are responsible for the extensive data collection 
that underpins this work, most importantly CPS itself through its 
office of Research, Evaluation, and Accountability. Some of this was 
spurred by NSF through the Chicago Urban Systemic Program grant, which 
I discuss in more detail later on. Wenzel is now PI on Scale Up of Math 
and Science K-12 Education Reform in a Large Urban District, an 
exploratory capacity-building grant from the NSF (DRL 0733550). The 
project studies the systemic reform of math and science education in 
the Chicago Public Schools from 2002 to 2008. (Deiger et al., 2009; 
Wenzel et al., 2009).
    The task of finding out how students perform on K-12 assessments 
begs the question: what will be assessed? In the era of NCLB and in the 
face of 50 different sets of State standards, this is a daunting 
question, especially at the national level. Recent moves to align or 
even share standards among the states will help there, but so too it is 
vital that K-12 STEM systems understand how assessment should drive, 
not just follow, instruction. This is very much the them of the work of 
my colleague Jim Pellegrino in learning sciences. He has served as head 
of several National Research Council study committees, including the 
committee that issued the NSF-funded report Knowing What Students Know: 
The Science and Design of Educational Assessment (2001). He served on 
the NSF-funded NRC Committee on Test Design for K-12 Science 
Achievement. Dr. Pellegrino was currently a Co-PI on an NSF ROLE 
project Making the Invisible Visible: Children and Teachers Learning 
about Physical States and State Changes (DRL 0529648). He is also PI on 
a recent project with the College Board (DRL 0525575) From Research to 
Practice: Redesigning AP Science Courses to Advance Science Literacy 
and Support Learning with Understanding. From these will come both 
general concepts about assessment and also specific recommendations on 
how assessment should be used in K-12 STEM education. One way this 
occurs in partnership with CPS is through a grant (NSF, DRL-0732090) on 
the assessments embedded in math curricula and their role in supporting 
the teaching and learning process. This work specifically works with 
CPS-adopted curricula (themselves NSF-developed) that are already being 
implemented in schools.

(g) Instructional materials development

    One of the least considered partners in K-12 teaching, and indeed 
in all teaching, are those who develop and sustain materials for the 
classroom. These materials include textbooks and technology. As I have 
discussed, this is sometimes the outcome of research and teacher 
education programs. But there are other projects that have materials 
development as their major thrust. At UIC, this has occurred in the 
context of the Teaching Integrated Math and Science program, initiated 
in the 1980's with NSF support. The project was founded by two UIC 
faculty members, physicist Howard Goldberg (retired) and mathematician 
Philip Wagreich. It has received more than $20 million in external 
funding since 1990 from the National Science Foundation (NSF), the 
State of Illinois Scientific Literacy Project, and Eisenhower funds, as 
well as direct support from school districts for professional 
development activities. Commercialization has occurred through three 
different products: Math Trailblazers, now its 3rd edition, TIMS 
Laboratory Experiments, which are used in both math and science 
instruction, and teacher education materials, the Teacher Enhancement 
Resource Modules. The project is very much alive, providing the basis 
for both professional development of current teachers, reform-based 
materials for use in teacher preparation, and a basis of research work 
on mathematics learning (Brown et al., 2009; Castro-Superfine et al., 
2009). In its most recent NSF-supported revision, the project conducted 
three years of research in Math Trailblazers classrooms. Based on the 
results of the research the curriculum was revised and field tested for 
an additional three years, using overall more than 200 teachers in 40 
schools in 16 districts in eight states in either the research or field 
test. Thus, university-based materials development, fully connected to 
professional development and the tools of university research, provide 
an important venue to study and support multiple components of K-12 
STEM education. More than 70 schools in CPS alone are using the 
curriculum, representing close to 20 percent of the district's K-8 
programs.

(h) Linking STEM research to K-12

    The previous seven areas of activity are all ones that, in 
principle and in practice, can be done separately from a university 
like UIC. Indeed, important partners in K-12 STEM education reform are 
private and government research agencies; alternative certification 
programs; and publishers and independent curriculum developers. But, 
besides granting degrees, UIC also has the potential to add much to K-
12 STEM teaching because it is a research university with extensive 
work in all STEM and health research fields. As I discuss later, there 
are too few examples of this kind of work to translate current research 
into K-12 settings. There is good support for bringing teacher and 
teacher candidates into teaching, including through Research Experience 
for Teachers programs such as the UIC-based Chicago Science Teacher 
Research Program (NSF-EEC 0502272 and 0743068), led by Andreas 
Linninger, a Chemical Engineering Professor. In those cases, the 
transfer of STEM research to K-12 depends on the future work of the 
teacher. Direct curriculum impact is a different story. One very 
effective example is the collaboration between Vera Pless, a 
distinguished Mathematics Professor, and Janet Beissinger of the LSRI. 
With NSF Instructional Materials Development support (DRL 0099220) they 
developed a now commercialized textbook to teach middle school students 
cryptography, The Cryptoclub. This drew upon Pless and Beissinger's own 
expertise in the area of codes to bring important concepts in 
mathematics, including number theory, to a classroom experience that 
fully engages students. More recently, they have opened up this 
community to others through a follow-on project to make The Cryptoclub 
and its mathematics available for informal learning after school and 
online (DRL 0840313). The Cryptoclub example points to the ways in 
which university faculty can identify the fundamental content, in this 
case mathematics, that underlies their work, then link it to an 
important application that, properly managed, brings dramatic current 
research areas into the experience of students.
    Another possible way to link research and high school science, at 
least, may arise as an outcome of the recent work of NSF Chemistry 
Division through its Undergraduate Research Collaborative program. The 
five URC's seek to develop methods to bring science research into the 
early years of the undergraduate STEM curriculum. One, led by Gabriela 
Weaver of Purdue and with myself as a co-PI, is the Center for 
Authentic Science Practice in Education (CASPiE; NSF-CHE 0418902). 
CASPiE is based on modules written by science and engineering faculty 
to permit students to learn the skills needed to carry out actual 
research in an area, such as anti-oxidants or bio-sensors, and then to 
engage in the research itself (Weaver et al., 2006; 2008). Recently, 
with support of an RET supplement to Nina Hike Teague of CPS's Curie 
High School, we have shown that CASPiE modules can also be used in high 
school settings, with in the informal setting of science fair projects 
for CPS schools.
    Finally, the informal science community has a particular role to 
play here. As I mentioned, my discussion draws mostly from university 
examples. But universities have much to learn about the translation of 
research into forms accessible to the public from the informal science 
community. That is why I was particularly enthusiastic last year when 
Dr. Linda Marton of Foreman High School invited us to assist in their 
After School Matters program, which is supported specifically by 
Abbott. This linkage continues into next year and from this work we 
expect to have a clearer picture of how a university STEM partner, UIC, 
can use the ASM context as a means for bringing research into the 
broader context within K-12 settings.

(i) Higher education policy and practices

    The final area of activity where UIC should be active as a member 
of the K-12 STEM system is with its own courses, curricula, and 
programs. Earlier I mentioned that, at least in mathematics and in 
natural sciences, the courses taken by pre-elementary education majors 
have become an environment where content is taught using reformed 
pedagogy. The institutionalization of some aspects of this by the 
University is a direct result of the linkage that we have established 
between our teacher preparation programs and our future students. After 
all, every student who graduates from high school was taught for 13 or 
more years by university-trained teachers, and at UIC NSF Course 
Curriculum and Laboratory Improvement program has impacted some of 
these future teachers.
    While reforms have begun to occur in some teacher preparation 
programs, a gap remains for the general student population that 
finishes CPS intent on a STEM career. Data from the CCSR (Roderick, 
2006) shows that fewer than 30 percent of graduating seniors in 1998, 
1999, 2002 and 2003 enrolled in a four college within a year of 
graduation, and only 35 percent of those from the 1998 and 1999 cohorts 
had graduated within six years, meaning that a stunning 90 percent of 
graduating seniors did not complete a four year degree in that time 
span.
    These numbers have spurred many changes within CPS, including 
focused attempts to increase retention to graduation, to address 
specific problems that prevent college-bound students from 
matriculating (such as simply completing the FAFSA, which is hardly a 
simple process), and economic challenges. UIC, for its part, has begun 
to look at its own retention of students, which now hovers at about 50 
percent of all entering first year students. Part of this comes from 
learning more about the students themselves, an a recent NSF ``Science 
Technology, Engineering, and Mathematics Talent Expansion Program 
(STEP)'' grant has begun to affect STEM students in general and STEM 
teaching in particular. Much more needs to be done on the campus, and a 
Provost-level working group has been established to be more systematic 
in examining the critical supports needed for wider success in STEM 
majors.

2 (a)  What are the major problems that limit the performance of 
                    students and teachers in STEM?

    If we consider the logic model presented earlier, there are several 
things that can occur that limit the performance of teachers and 
students in STEM. These occur in the context of the systems itself, 
within schools, within classrooms, and with students themselves. The 
simplest answer to this question is ``quality of instruction.'' But it 
is all too easy to hear that and think that this can be fixed by 
providing better teachers, or better textbooks, or better buildings. 
Instead, we need to consider how schools actually work and to recognize 
that systematic issues must be addressed so that quality instruction 
can be used by teachers.
    Systematic barriers to reform are those that prevent the 
identification, adoption, and sustenance of effectiveness in STEM 
teaching. Some of these occur at the level of the K-12 administrative 
units such as State boards or district management teams. Inconsistency, 
including a sense that particular changes are only temporary, also 
contribute to a reluctance on the part of teachers and students to 
engage fully in changes. Also, the systems present in higher education 
to teach STEM students and to prepare future teachers may be 
antiquated, based more on a tradition of reproducing the professoriate 
than in working with diverse learners. Faculty who take pride in 
staying abreast of the latest research in their field will instead fall 
back on personal empiricism when thinking about their own teaching, 
dismissing the relevance of educational research to their own practice.
    Within schools, a culture of rigor, relevance, and openness to 
learning are all needed for effective STEM teaching. However, there are 
many cases where the culture of the school may not value rigor for all 
subjects and for all students. Similarly, engaging curricula are often 
neglected, despite strong evidence that students will work much harder 
and remain in school if they know why content is valuable for people's 
lives, including those of themselves and their community. Safety for 
students and for learning is needed, and when safety is compromised, 
learning is sure to suffer. Finally, schools need to have the 
equipment, including appropriate technology, needed for current 
curricula.
    It is important that we be honest that teachers are sometimes a 
challenge for effective learning. Often this is because of gaps in 
their training, not their own goals. For example, lack of content 
knowledge, lack of pedagogical content knowledge, and a lack of 
experience with contemporary STEM research trends can all lead to 
instruction that is ineffective and stagnant. Many of the reasons for 
these challenges come from both a shortage of time with students to 
focus on math and science content and a shortage of time for 
professional learning and preparation for their math and science 
instruction. For example, researchers found that it was not uncommon 
for CPS teachers and administrators to struggle and fail to set up 
school schedules with required amounts of protected instructional time 
for middle grade math and science lessons. Many of these same teachers 
also were not able to debrief with a content expert in math or science 
coach who visited their classrooms--there was not time in their 
schedule to fit in a 15-minute reflective conversation with the coach 
following the observed or co-taught lesson. On the other hand, teachers 
that are given the time and support for ongoing professional 
development, reflective practice involving strong school-based teams, 
and deep engagement with trends in current STEM research can begin to 
overcome these challenges quickly.
    Finally, we need to understand better ways to motivate students. 
Because of the emphasis on the economic necessity of increasing the 
number of students in the STEM pipeline, students often are not given 
the opportunity and encouragement to experience the wonder and joy of 
doing STEM. These opportunities are necessary for continued and deeper 
engagement that lead to a growth mindset (Dweck). Similarly, students 
may be led to believe that discoveries/payoffs come easily and they are 
not helped to see the relationship between hard work and satisfaction. 
Another UIC project, led by Marty Gartzman, is developing materials for 
double period algebra that melds solid mathematics with careful 
attention to student motivation. An interesting perspective on this was 
recently provided by a student-led project, Voices of Youth in Chicago 
Education (http://www.voyceproject.org/). Using surveys, ethnography, 
and review of statistics, students from several high schools and 
community organizations examined multiple dimensions of teaching and 
the challenges of retaining and supporting students. Four areas of 
focus: rigor, relevance, effective teaching, and safety and security, 
were highlighted. When these are compromised, the VOYCE findings 
suggests student outcomes suffer.

2 (b)  What are the most important and effective components of the 
                    National Science Foundation (NSF) funded programs 
                    (including the Math and Science Partnership 
                    Program, the Robert Noyce Teacher Scholarship 
                    Program, and the Graduate STEM Fellows in K-12 
                    Education Program) that UIC has implemented in 
                    partnership with Chicago Public Schools?

    This question will be addressed in four parts. First, I will 
recount some of the outcomes of the NSF-funded Chicago Urban Systemic 
Program (NSF, DRL-0085115), a systemic change grant that has spawned 
many different efforts in the district and with its partners. Then, I 
will discuss the work that occurred in our GK-12 programs that impacted 
how we understand partnerships through the agency of STEM graduate 
fellows. Finally, I will present the plans that we have for a new Noyce 
Teacher Scholarship program, building upon a previous effort, and the 
ways in which our Chicago Transformation Teacher Institutes draw from 
and expand upon the different activities we have established in the 
past.

The Chicago Urban Systemic Program (NSF, DRL-0085115)

    The CUSP design supported a comprehensive math and science district 
reform effort focused on teacher professional development on content 
knowledge and around the use of specific math and science standards-
based curricula. To strengthen content knowledge, elementary school 
teachers enrolled in university programs that gave them the subject 
matter content to apply for and receive State of Illinois endorsements 
to teach math and science in middle grades classrooms. Evaluation of 
this project resulted in extensive formative and summative research 
reports and several national conference presentations. See http://
research.cps.k12.il.us/cps/accountweb/Evaluation for a partial list of 
and access to these reports. The CUSP final report to NSF (Feranchak, 
2006), documents the following outcomes of the program:

        <bullet>  Developed district mathematics and science 
        infrastructure capacity. The CPS plan for mathematics and 
        science improvement--the Chicago Math and Science Initiative 
        (CMSI)--was formulated through CUSP. CMSI has continued in the 
        district after the cessation of CUSP funding. During the 
        project period, CPS significantly increased its support for 
        mathematics and science improvement from $5.2 million ($2.2 
        million from NSF) in 2002 to $15 million in 2006 ($2.8 million 
        from NSF). Since the cessation of CUSP the district has 
        continued its support, including a substantial part of the HSTP 
        (see below).

        <bullet>  Improved professional development offerings and 
        greater numbers of teachers served. By the end of the grant 
        period, over 6,000 teachers per year were receiving direct 
        professional development in mathematics and science. This 
        represents a 106 percent increase in teachers served annually 
        over the initial year. During the 2005-06 school year 2,560 
        elementary teachers from 268 different schools attended 37,000 
        person-hours of CUSP mathematics professional development. In 
        the following year (after CUSP ended), 2,237 elementary 
        teachers from 290 different schools attended a total of 24,677 
        person-hours of grade-specific, curriculum-specific mathematics 
        professional development. In several hundred cases, this 
        allowed teachers to receive certification for middle school 
        math or science, significantly decreasing the number of 
        uncertified teachers in those classrooms. And recent data show 
        that the vast majority of individuals who have obtained a math 
        endorsement (>90 percent) have done so through this program, as 
        is also the case for the majority of those who got endorsements 
        in science.

        <bullet>  Improved student achievement. The six-year change 
        from the beginning of CUSP in 2000 find higher gains in the 
        percentages of CPS elementary students, compared to percentages 
        of Illinois students statewide, who met or exceeded State 
        standards on Illinois State tests (ISAT) in mathematics and 
        science. More importantly, student achievement gains in schools 
        implementing one of the district-supported standards-based 
        curricula for the second year in 2004-05 were greater than in 
        other district schools (both those in their first year of 
        implementation and those not implementing at all).

UIC Graduate Fellows in K-12 Education (DUE-9997537) and Scientists, 
                    Kids, and Teachers (SKIT): A GK-12 Partnership with 
                    the Chicago Public Schools (DGE-0338328).

    These two successive GK-12 fellows programs represent a very 
important place wherein UIC STEM faculty were able to forge important 
relationships with the CPS through the specific activities of STEM 
graduate students working in middle and high school mathematics and 
science. The initial grant enabled us to take existing outreach 
programs and to add graduate fellow support to some of the schools that 
were involved. This included, for example, a partnership between UIC 
and Crane High School, part of the CPS Math Science Technology Academy 
(MSTA) program that paired specific high schools with different support 
systems within UIC. In this program graduate fellows brought their 
content knowledge to questions of teaching high school chemistry, 
environmental science, and physics, assisting teachers in new ways to 
engage students (Wink et al., 2004) that drew on the graduate student's 
expertise in studying ecosystem engineering. At the same time, a 
research program for the program allowed us to characterize 
systematically some of the ways in which STEM graduate students 
encounter the environment of the urban classroom (Christodoulou et al., 
2009).
    The second GK-12 project took a very different approach to the 
placement of graduate students. Here, the different placements were 
specifically targeted at schools that were participating in aspects of 
the Chicago Math + Science Initiative, which was at that point emerging 
from the work on CUSP and related programs. CMSI targets school-based 
change in different ways. For example, fellows worked in bringing the 
Beissinger/Pless cryptography program to the National Teachers Academy 
(NTA), a district professional development school. In other cases, 
support of specific high school science curricula identified for 
district support within CMSI was aided by Fellows in schools and STEM 
faculty participation in professional development sessions. 
Thematically, then, the program focused on helping the district and its 
schools make change in projects that the district was already 
implementing, making SKIT into more of a responsive, not an intrusive, 
influence on schools.
    One of the best examples of a partnership that was furthered 
through the SKIT program was in the work of computer scientist Tom 
Moher and his graduate students. Moher is a learning sciences 
researcher with a focus on the development ``embedded phenomena'' in 
teaching. Within this approach, the classroom becomes the locus of a 
technology-enabled science experience, including studies of 
earthquakes, the solar system, and most recently an environment, 
WallCology, that simulates the process of learning about animal 
populations. In the SKIT program, his graduate students were able to 
carry out an iterative process of implementation and research in 
conjunction with two CMSI-associated schools, NTA and Dawes Elementary 
School. Besides general information on the ways in which embedded 
phenomenon can be implemented well (Malcolm et al., 2008), they also 
developed materials to support the specific learning outcomes of 
WallCology (Moher et al., 2008).
    The second GK-12 project, by design, included a plan for 
sustainability associated with funding support from CPS or other 
external partners. Early in the program, funding for Fellows to work at 
NTA was obtained as part of the district support for UIC's partnership 
in that school. In this case, the specific benefit of Fellows for 
teachers implementing reformed CMSI-designated curricula was 
demonstrated. This became important shortly afterwards when the CPS 
brought forth its plans for the High School Transformation project. In 
their response to that project, Loyola University and UIC included a 
plan, funded by the district, for graduate assistant support of the 
reformed curricula in the first three years of high school science at 
eleven CPS schools. Thus, a key outcome of the SKIT grant has been the 
establishment of an ongoing, independent support and rationale for 
graduate students within university/district partnerships.

Robert Noyce Scholarship Program (DUE-335748) and UIC-CPS Noyce II 
                    Program (DUE-833089).

    These two implementations of Noyce Scholarship programs are led by 
Carole Mitchener of UIC's College of Education. The first program 
targeted career changers who planned on teaching in middle school 
mathematics or science (MGS/MGM students) or high school mathematics. 
MGS/MGM offered career-changers a three-year induction and mentoring 
experience while they earned teacher certification and a Master's 
degree. During that time, they taught full-time for three years in a 
high-need school in Chicago. MGS/MGM adopted the idea that it was 
crucial that very early in their preparation, teachers experience the 
relevance of the practice-based approach to professional development 
discussed earlier, and to appreciate it as one that they could 
continue, and build from, throughout their teaching careers. MGS/MGM 
sought to achieve this largely by devoting much of the second year of 
the curriculum to supporting each beginning teacher in an extended 
action research inquiry into his/her own practice in his/her own 
classroom. Ninety-one individuals received stipends and all completed 
their degree and all but one completed the required teaching. What is 
perhaps more important is that, as of 2008, 73 of them had completed 
either three or four years of teaching, suggesting that the program is 
successful at both preparing and inducting teachers. This success 
reflects the lessons learned through the accompanying research effort 
that examined how teacher identity is built around ``a vision for a 
quality and inclusive science curriculum implicating science content, 
teaching methods, and relationships with their students'' (Proweller 
and Mitchener, 2004). Another important outcome of the program with 
implications for future work is that eight of the original program's 
scholars have now moved into CPS math and science leadership positions. 
This significantly strengthens the relationship between UIC and CPS.
    The Phase II Noyce project continues work begun in the previous 
Noyce grant with secondary mathematics teacher candidates and expands 
its potential impact with the addition of an enhanced mentor program 
for new Noyce recipients. This new mentor program involves previous 
Noyce awardees and inducts new ones into a Noyce mentoring network. 
Second, the project extends the Noyce applicant pool by adding three 
new science certifications and introducing a one-year M.Ed. program 
option for secondary science, which is available for secondary science 
teacher candidates in biology, Earth and space science, environmental 
science, chemistry and physics. The project supports the recruitment 
and retention of career-changers with strong STEM backgrounds and STEM 
undergraduates who want to teach in high-need areas in CPS. These goals 
will be attained by awarding stipends based on academic merit, with 
attention to diversifying the teacher workforce and a commitment to 
serving high-need schools. Over a three-year period the UIC-CPS Noyce 
II project is offering 40 recruitment stipends to students in UIC STEM 
secondary teacher preparation programs who commit to teaching in 
Chicago Public Schools. New teachers have the opportunity to conduct 
action research during their induction phase as they work to construct 
a defensible and inclusive practice.
    Both Noyce programs provide new teachers learning opportunities to 
engage in extended action research projects (teacher inquiry) toward 
improving their classroom practice (Mitchener & Jackson, 2006). New 
teachers benefit when given an opportunity to examine their practice in 
relation to student learning over an extended time period. New teachers 
target an area for improvement and with support from a professional 
learning community make needed changes. Using student learning data as 
a guide, beginning teachers work at reducing discrepancies between what 
they learned about good practice and what they implement in their 
classrooms. Action research projects are then shared with the larger 
school community.

The Chicago Transformation Teacher Institutes (NSF, DUE 0928669)

    The Chicago Transformation Teacher Institutes (CTTI) is our new 
Math Science Partnership teacher institute program, funded earlier this 
month with support of funds allocated to NSF through the American 
Recovery and Reinvestment Act. In this case, the CTTI is an additional 
and essential part of existing system-wide reform efforts, not a new 
effort in itself. Thus, I will describe the context of the CTTI within 
the wider CPS High School Transformation project, since the two are 
intimately linked.
    The CPS HSTP project was started in 2005-6 by the Chicago Board of 
Education with extensive support from the Board and the Bill and 
Melinda Gates Foundation with its largest ever single grant to a school 
district. One prominent strategy within the HSTP is a whole-school 
support program focused on the work of Instructional Development 
Systems (IDS). An IDS is a provider of comprehensive professional and 
materials development spanning grades 9-11 with a coherent program in 
mathematics, science, or English (e.g., Wink et al., 2008). Teachers 
and administrators in the IDS schools then receive:

        <bullet>  Rigorous curriculum options with innovative, 
        nationally recognized and research-based materials.

        <bullet>  Supports for teachers using these curriculum options, 
        including intensive coaching, professional development, 
        networking, and in-school planning coordinated by a school lead 
        in the subject.

        <bullet>  Direct leadership support for principals.

        <bullet>  Formative and summative assessment systems responsive 
        to the specific curricula but also aligned carefully with the 
        state-wide Prairie State Academic Examination (PSAE), a two-day 
        exam in the 11th grade that comprises the ACT and subject-area 
        tests including in science and mathematics.

    The IDS program began with 14 schools implementing the ninth-grade 
curriculum in 2006-07; these schools are now implementing the tenth- 
and eleventh-grade curricula. Another 11 schools formed a second cohort 
that began in 2007-8 and a third cohort of 20 schools have joined in 
2008-9. The science IDSs are all based at universities (IIT, 
Northwestern, Loyola/UIC) that are part of the CTTI. The CTTI 
mathematics participants (UIC and DePaul) are also involved in HSTP and 
other district high school teacher support programs.
    All of the math and science IDS programs focus on a strategy to 
implement, not develop, reformed curricula. All six of the math and 
science IDS partners are using curricula developed in part with NSF 
support (Cognitive Tutor, Agile Mind, CME in math and curricula from 
BSCS, the American Chemical Society, It's About Time, and Northwestern 
University's environmental science curricula in science), or enhanced 
under the specific direction of inquiry-based teacher education 
programs (Glencoe biology and chemistry, in conjunction with IIT and 
the Field Museum). Thus, they respond to the district's own initiative 
to identify and support reform curricula.
    The HSTP-IDS program has now established a full set of supports for 
grade 9-10-11 science and math. This includes a set of assessments to 
support teachers in formative assessment of students and also to be 
used in a summative manner at the end of the course. In all cases, the 
curricula and assessments are to point to increasing student success on 
the Illinois Prairie State Achievement Exam, given in April of the 
junior year. The first cohort of IDS-supported students have just taken 
the PSAE in Spring, 2009, and the outcomes for those students and for 
subsequent cohorts will be a key evaluation metric for the program 
overall.

From CUSP and HSTP to CTTI.

    The significant impact of the CUSP program on the district, 
including its contribution to the formation of CMSI and the 
conceptualization of HSTP, means that the district and its university 
partners have much more experience in how to support school change. For 
example, a key component of the HSTP IDS is the adaptation and 
implementation of curricula identified by CPS. A similar approach will 
be used within CTTI.
    It is important to note that CTTI is not a replacement for CUSP or 
HSTP. Rather, CTTI is an essential new initiative to carry through on 
the work of CUSP and HSTP by completing the district's strategy for 
high school science and mathematics (with 12th grade strategies) and 
enhancing the work of teachers in grades 9-10-11. This new program, 
though, is based on leaders who are on the staff of the schools 
themselves, giving schools the capacity to carry out their own course 
implementation strategies and in-school planning to address challenges 
and to identify new opportunities.
    During the program CTTI will have 160 teachers in four cohorts each 
of 20 science and 20 math teachers. They will come from 20 different 
schools, chosen through an application process with specific 
commitments required from the school. CTTI teachers will implement 
effective school-based changes in 12th grade curricula even as they 
continue to participate in and impact the curricula in grades 9-10-11.
    The CTTI teacher program will include two components in addition to 
networking programs:

        a.  Course work in three areas essential to strong high school 
        instruction: mathematics, physical science, and life and 
        environmental science. The courses provide for increased 
        content knowledge by teachers, including how the content is 
        found in the contemporary issues and current research. It also 
        supports growth of deep knowledge required for strong cross-
        curricula work.

        b.  Workshops on leadership and teaching that provide increased 
        skills in how to use content to understand classroom practices, 
        including in instructional design, selection of classroom 
        materials, pedagogy, and assessment of student knowledge. 
        Leadership workshops, developed from the Urban Education 
        Leadership program, enhance the ability of teacher-leaders to 
        support stronger teams within schools' departments and are 
        developed with a program that already works on a parallel 
        effort with CPS school principals, allowing for close alignment 
        of the development of teachers, teacher-leaders, and 
        administrators (Monk, 2008).

    This work is embedded in research and institutional change 
strategies that also drive the CTTI research. In particular, we have 
adopted a logic model (Newmann et al., 2000) wherein deep content 
knowledge + pedagogical skills + leadership training for teachers 
changes school capacity to implement and support innovative math and 
science curricula. In turn, this affects teacher practice and improves 
student outcomes. Taken together, the teacher program and logic model 
let us formulate a key research question for our work: What are the 
effects of providing teacher content and content-specific pedagogical 
training and leadership development on the elements of school capacity, 
teacher practice, and student outcomes?
    It is also expected that the CTTI will impact the ways in which 
higher education institutions work with the CPS and, especially, with 
the students who come from CPS high schools. University faculty, prior 
to teaching CTTI courses, will themselves receive training on reformed 
pedagogy, to align CTTI courses and their other college teaching with 
the practices we know to best support student learning of science and 
mathematics. The longer term impact on the Universities will occur as 
part of the discussion of what it means to have students emerging from 
high schools that, until now, have few graduates directly prepared for 
University study. The CTTI faculty will be charged as change agents 
that acquire enhanced understanding of the potential (and obstacles) 
inherent in rigorous high school courses. This understanding will then 
become the basis of advisory materials they will generate for campus 
recruitment and retention programs. Thus, these faculty become the 
means by which CTTI high schools re-envision outcomes for their 
students to include Chicago four-year institutions and, conversely, 
become the means by which Chicago universities re-envision what they 
can do to provide more equitable access to CTTI high school students.
    Finally, the CTTI program was conceived of as a research project 
from its start. Thus, the key research question of our work is 
articulated into multiple areas of inquiry. In association with the 
logic model presented earlier (Figure 2), these areas of inquiry will 
be:

        1.  Teachers' experiences in program. CTTI expects teachers to 
        attend courses (Outcome 1), gain content knowledge and 
        leadership skills (Outcome 2) and then apply what they learn 
        through team work at their school (Outcome 4) that will improve 
        instruction in grade 9-10-11 courses (Outcome 5) and will yield 
        revised and/or new challenging grade 12 courses (Outcome 6).

        2.  Student experience and performance. Students taught by CTTI 
        teachers are expected to achieve more at in grade 9-10-11 
        courses (Outcome 5) and enroll in and achieve in revised/new 
        grade 12 courses (Outcome 6). Their preparation in CTTI taught 
        courses should also support their college readiness shown 
        through test scores and success in courses at CTTI universities 
        (Outcome 7).

        3.  Institutional change. The CTTI university partners will 
        share knowledge of math, science and leadership with schools 
        through high quality courses (Outcome 1). The district and its 
        schools will create the policies and practices to allow 
        teachers to work together productively at school meetings 
        (Outcome 3), to improve instruction (Outcome 5), and to change 
        grade 12 courses (Outcome 6). The work of these teachers 
        (Outcomes 4-6) in turn, changes and sustains their schools. 
        Universities will learn from the CTTI project how to better 
        serve entering CPS students (Outcome 7) and may attract some of 
        the CTTI teachers into their regular graduate programs (Outcome 
        1).

2 (c)  Are there common lessons learned or replicable elements across 
                    UIC's various science and math programs, including 
                    those funded by NSF?

    Experiences with STEM education reform in Chicago over the past 
decade suggest several lessons. Some of these have been summarized 
before (Roderick et al., 2009; Wenzel et al., 2009). But key points 
include:

        <bullet>  Invest in people and relationships. Even when people 
        change roles and positions, the knowledge and skills that are 
        supported by programs and trusting relationships travel with 
        them.

        <bullet>  Work with existing products. A key idea behind most 
        of the reform efforts is that the development of new materials 
        can take years and several iterations. Earlier work in STEM K-
        12 education has, especially at the high school, provided many 
        materials that are sufficient for reform of STEM education. New 
        materials are needed, but much quicker change can be 
        accomplished by implementing those quality products that do 
        exist.

        <bullet>  Work with existing research. In almost every case I 
        have discussed, the reform effort drew on extensive prior 
        research. This is absolutely essential in a complex system, 
        where prior research can identify those conditions that can 
        dramatically affect the outcomes. This can range from specific 
        questions of learning--how do students understand what is on a 
        computer screen?--to system-wide questions--what does 
        distributed leadership mean to change in a school?

        <bullet>  Don't leave out the principal. The principal is a key 
        figure in setting up a school with adequate time for 
        instruction and for teachers' professional development and 
        reflection.

        <bullet>  Incorporate as appropriate K-12 data on student 
        performance throughout the outreach and research work of the 
        university. Thanks to the outcomes of CUSP and the hard work of 
        Bret Feranchak and others in CPS's Office of Research, 
        Evaluation, and Accountability, data is now available on 
        student outcomes in many different areas. Improving the use of 
        this data in our programs is now the next step, with of course 
        appropriate privacy and confidentiality safeguards.

        <bullet>  University-based systems must be developed for 
        program coordination. The history of reform at many of the 
        institutions relied necessarily on the efforts of small teams 
        or even single individuals. However, this is not sustainable 
        and partnerships now require coordination among different units 
        within the university. Many of these are already established: 
        the Center for Science and Math Education at Loyola; IIT's 
        Institute for Math and Science Education; Northwestern's Office 
        of Science, Technology, Engineering, and Math Education 
        Partnerships; and UIC's Learning Sciences Research Institute. 
        This should be the norm in the future.

2 (d)  How do you or can you help to disseminate these findings to 
                    other cities and regions of the country?

    In this case, there are three levels to my answer. The first is 
simple: to make use of existing scholarly channels, including peer-
review journals and conferences. It is easy to believe this will occur, 
but only if it is the case that funding agencies, such as the NSF, 
insist on full use of the existing literature as the basis of education 
reform. But direct person-to-person communication is also necessary, 
especially to support collaboration. In Chicago, a very early success 
in the development of multi-institutional communication was done 
through an Illinois Board of Higher Education grant to establish a 
collaborative of institutions associated with teacher preparation and 
undergraduate STEM teaching. This gave rise to an annual series of 
conferences, entitled ``Excellence in Teaching Undergraduate Science 
and Mathematics: National and Chicago Perspectives.'' These bring 
national plenary speakers and local STEM education reform participants 
together three times a year to discuss new ideas, report on progress of 
ongoing projects, and to maintain connections that drive many other 
STEM education reforms.
    The second level of answer is something that the NSF has answered 
well in many ways. That is by having large systemic change programs 
such as the MSP's, the GK-12 Fellows programs, and the Noyce Teacher 
Scholarship programs required to share information through annual 
conferences and through NSF-associated web sites such as MSPNet. In 
this case, the sharing of ideas and outcomes at this level--not quite 
social networking, but close--permits rapid dissemination of 
preliminary findings to those who need the information most quickly. It 
is interesting to me that one of the features of MSPnet is that it is 
intrusive, with reminders of information and activities now provided to 
me weekly. Similar work occurs with GK-12 and I am pleased to learn 
that the same is occurring for Noyce.
    The third level of possible dissemination is one that I have 
largely left out until now. It is through the actions of the states and 
their individual boards of education. These organizations are each 
independent, as befits our federal system. But their importance as 
partners in STEM education reform cannot be underestimated. Improved 
communication about efforts nationally and locally will, most 
logically, require that State boards both be told what is going on and 
that they listen and act accordingly. Federal mandates to do this in 
association with block grants may be timely.

3 (a)  What is the most important role a university such as your own 
                    can play in improving K-12 STEM education in your 
                    own community and/or nationally? How can 
                    universities help facilitate and build partnerships 
                    with other stakeholders, including the private 
                    sector and informal education providers?

    I will take this question in two steps. First, we need to remember 
that whatever universities can do, it has to be in the context of a 
reform system. Second, I will note particular examples of how 
particular areas of strength for universities can be developed and 
used.
    The most important thing universities can do is demonstrate that 
existing schools can move from low to high performance in math and 
science by assisting in organizing the adult learning in the school 
around what we know about effective STEM instruction. This requires 
partnership between universities and school systems that ordinary 
preparation programs do not require. Simply put, the principal and 
teacher leadership of academic departments must work together with 
universities to change instructional practices in each school, which 
requires collaboration around such fundamental issues as curriculum, 
instructional approaches, common formative assessments of students at 
collaboratively-set checkpoints, and so on. This kind of approach 
should be foregrounded in teacher preparation work so that new teachers 
are ready for it, but teacher preparation is itself a weak lever for 
improving school-wide performance since new teachers are novices who 
should be ready to work in a reformed environment but not expected to 
create it. If you put one of those novices into a school properly 
organized for STEM success, that teacher will thrive and get the job 
done. Thus, the same linkages that improve school practice also provide 
a place for new teachers to work effectively, greatly improving the 
likely outcomes of teacher preparation work.
    As to what universities may do in specific ways, my opening review 
shows nine different areas of work in which universities can work in 
improving K-12 education. I hope I have provided part of an answer to 
this in the examples I cited in those areas. But there are other 
components of our work that are not captured well there, since they 
represent the effect of systems or units within the university. I will 
cite a few of those now, drawing on other institutions in the Chicago 
area that, I believe, exemplify how universities can systematically 
link their work to K-12 STEM education. Five specific ways in which 
this can be done are:

        <bullet>  The creation and use of a university coordinating 
        office for STEM education.

        <bullet>  Close linkage of K-12 STEM education work to the 
        undergraduate mission of an institution.

        <bullet>  Use of laboratory-based research on education in STEM 
        education reform work.

        <bullet>  A consistent focus on addressing emergent 
        professional development opportunities in a flexible and 
        responsive way.

        <bullet>  Development and sustenance of deep connections 
        between university STEM and education programs that bridge 
        colleges within universities.

    Northwestern University provides an example of a how a university 
coordinating office can facilitate the work of the university in K-12 
STEM education, through its Office of Science, Technology, Engineering, 
and Math Education Partnerships (OSEP). OSEP uses its expertise in 
curriculum, technology, and program design math (STEM) research 
projects with NU researchers. These partnerships provide several 
benefits to the community that would not exist without this innovative 
form of collaboration for better programs, increased competitiveness, 
and especially leveraged resources through their ongoing connections of 
Northwestern faculty and researchers with a network of schools and 
informal educational institutions.
    DePaul University shows how the undergraduate mission of a 
university can be incorporated as a foundation for K-12 STEM outreach, 
specifically by supporting strong community based relationships with 
schools to support, enable, and sustain K-12 innovation. The 
mathematics and science faculty there have a deep commitment to teacher 
education, reflecting DePaul's recognition that strong school-campus 
partnerships are vital to their success as a university. Hence, they 
have an NSF STEP grant that partners with community colleges to address 
transition issues, and they also provide their own incoming students 
with strong bridge programs to enable college success. At the same 
time, as we have seen, DePaul's activity as a leader of The Algebra 
Initiative and, now, in the CTTI, enables them to bring their own 
expertise in STEM and STEM education to support change in K-12 
settings.
    The Department for Math and Science Education of IIT points to the 
role of ``big picture'' thinking about science as a foundation for STEM 
education reform. The work of Norman Lederman and his colleagues in 
studying the ways in which the nature of science does, or does not, 
translate into classroom practice has fundamentally altered the 
discussion of what to teach in science, and also how to teach it. This 
is an excellent example of the role that laboratory-based research on 
education can translate into practice, including specific attention to 
the ways in which teachers shape and utilize their own concepts of the 
nature of science. IIT's program includes a doctoral level program that 
is just now graduating the first of a set of students trained in both 
educational research and the deep philosophical underpinnings of 
science, math, and education; this group is sure to have an impact on 
the future of K-12 STEM education in Chicago.
    Loyola University Chicago, with the Center for Science and Math 
Education led by David Slavsky, is an example of how a university can 
become a key provider of emergent professional development 
opportunities in specific support of State and district policies and 
needs. For example, as the HSTP was beginning the possibility of 
teaching a ``physics first'' curriculum was set aside, at least for a 
while, because of the lack of trained physics teachers in the district 
schools. Loyola moved immediately to the task of creating a university 
course-based program that would fill this gap, using State teacher 
development funds. This built upon the many years of CSME work in 
support of the Chicago CMSI middle school program, enabling Loyola to 
be especially responsive to pressing needs. CSME also incorporates a 
full research unit within its programs, giving it specific strength in 
studying change in schools in a way that immediately affects practice.
    Finally, I suggest that UIC provides specific examples of the gains 
that can be had when there are deep connections between university STEM 
and education programs. Within this testimony I have cited several 
examples of NSF grants that have come to UIC to enable our work in K-12 
STEM education. What may not be apparent is that, with no exception, 
all of those grants have a PI, co-PI or senior personnel that is a STEM 
faculty member, like John Baldwin, Tom Moher, or myself, and someone 
from our College of Education, such as Maria Varelas, Carole Mitchener, 
or Steve Tozer. These are not just collaborations of convenience; 
rather, they reflect many years of work together, presenting a model 
for the fluid and productive interaction of different units on a 
research university campus. It is only natural, then, that a unit like 
the Learning Sciences Research Institute has been created to provide an 
interdisciplinary setting for further work by many of these 
researchers.

What is the single, most important step that the Federal Government 
                    should take to improve K-12 STEM education?

    The most important single step is to ensure that funding mechanisms 
are aware of the strengths of different partners so that new projects 
draw on those strengths and, where necessary, address weakness. This 
should be targeted at what we know are the critical issues in schools: 
(a) demonstrating measurable increases in student learning by (b) 
improving classroom instruction through (c) improving each school's 
internal capacity (systems, procedures, and adult learning) through (d) 
improved teacher and administrative leadership in each school. This is 
the specific model of the CTTI (Figure 2), in reverse. It represents, 
we feel, the most cost-effective and scalable lever for change over a 
ten year period. Leadership issues are critical here, since virtually 
all principals nationwide will turn over in that ten-year period. Thus, 
developing leaders to carry forward reform in the short- and long-term 
is vital, and the Federal Government, especially through the MSP and 
Noyce programs, is already moving ahead on that task.
    There are different ways federal support can impact the partners in 
this effort. For example, for universities, the Federal Government 
should support (ideally through NSF) university projects that develop 
teacher knowledge and K-12 school improvement using new knowledge 
developed by university researchers. This support draws upon what 
universities can do well on their own and emphasizes that within K-12 
STEM education. This includes teacher education, preparation, and 
research both in classrooms and in laboratory settings. Ensuring that 
more of what occurs in K-12 education makes use of those areas of 
strength is essential, and clearly this is a central theme within the 
NSF Math Science Partnership program.
    Districts and schools, in contrast, possess strengths of policy, 
instructional support, and teacher support. It is often difficult for 
them to use these strengths productively and consistently over the 
extended time required for systemic change. Thus, federal support for 
longer-term projects that implement rigorous, research-based changes in 
schools would be an important component of supporting change. Linking 
this to what is known to enable change--leadership, reflective 
teaching, use of reformed curricula--should also be expected.
    The creativity and vision of informal science partners, including 
museums, industry, and after school programs, give them strength in the 
vital step of creating new environments to engage students, teachers, 
and families in the excitement of cutting-edge science. The role of 
informal science, including careful research on informal science 
settings, is much-neglected as a means of translating research into 
accessible forms.
    Finally, as I have suggested at different points, the Federal 
Government needs to support work over extended time periods, something 
that is already done, for example, in the Long-Term Ecological Research 
centers. We should collect data over 10-20 years to provide broad, 
district level data on curriculum, and initiatives to give us the data 
we need to make strong claims.

Coda

    I would like to close with two items that have not yet been 
discussed in this testimony but that I think are essential to our work 
and to the reform of STEM K-12 education.
    The first point is to return to the central role of relationships 
over time to the reform of any program, especially within a large and 
complex system such as an urban K-12 district. In this, individuals 
matter, and I want to tip my hat in particular to the role of Dr. Marty 
Gartzman in many of the efforts I have discussed. He is trained in 
biology but also worked for many years as a project manager in the UIC 
Institute for Math and Science Education, the group formed around the 
TIMS effort that, later, became one of the foundations for the Learning 
Sciences program. In this he developed deep connections with K-12 
schools and many dozens of teachers. He helped design our first 
systematic efforts to reform teacher education at UIC and to start our 
GK-12 program. Then, he was tapped to lead the CPS' effort in its 
Office of Math and Science, managing some of the most effective work in 
CMSI and beyond. More recently, he has returned to UIC in a special 
role to help coordinate our work in K-12 and, especially, in high 
schools, having now helped to start our campus' first charter school, 
which is drawing many of our health professional units into educational 
innovation for the first time. The point here is that our effectiveness 
in many areas depends on the skills and relationships of Dr. Gartzman. 
Recognizing and valuing the role of such change agents, should not be 
overlooked.
    The second point is that all of our work comes from a shared belief 
in STEM education as vital to the future of our nation and its people, 
especially the children who will be seeing our country through to its 
tercentennial and beyond. Technological, medical, and environmental 
challenges loom, and they will be addressed in this period by the STEM 
workforce we are training today. This is very much the philosophy 
behind the America COMPETES Act, which carries through on many 
important ideas already. But even as we agree on that I want to remind 
us that learning about science and mathematics is also important to the 
life of every person, especially in a democracy. I want to recall that, 
100 years ago this Fall, John Dewey, who I proudly note was an active 
participant in the life of the Hull House settlement that is now part 
of UIC's campus, gave an address to the American Association for the 
Advancement of Science entitled ``Science as Subject-matter and as 
Method.'' In it he outlined, somewhat tongue-in-cheek, the seeming gap 
between the rich, connected learning expected of students in the 
humanities and the dry, rote learning of the sciences. He argued, 
though, that the learning the methods of scientific inquiry is equally 
important to learning the content, and not just for the sake of science 
and technology. Thus, as he wrote for the conclusion for his address:

         If ever we are to be governed by intelligence, not by things 
        and by words, science must have something to say about what we 
        do, and not merely about how we may do it most easily and 
        economically. . .. Actively to participate in the making of 
        knowledge is the highest prerogative of man and the only 
        warrant of his freedom. When our schools truly become 
        laboratories of knowledge-making, not mills fitted out with 
        information-hoppers, there will no longer be need to discuss 
        the place of science in education.

Literature cited

Beissinger, J. & Pless, V. (2006) The Cryptoclub: Using Mathematics to 
        Make and Break Secret Codes. Natick, Mass.: A K Peters, Ltd.

Brown, S., Pitvorec, K., Ditto, C., & Kelso, C. (2009). Reconceiving 
        the intended curriculum: An investigation of elementary whole 
        number lessons. Journal for Research in Mathematics Education, 
        40, pp. 363-393.

Castro-Superfine, A., Kelso, C., and Beal, S. (2009). Examining the 
        process of developing a research-based mathematics curriculum 
        and its policy implications. Journal of Mathematical Behavior, 
        submitted.

Christodoulou, N., Varelas, M., & Wenzel, S. (2009). Experiences and 
        Curricular Conceptions: Subject Matter Experts Work in Urban 
        Secondary Science and Mathematics Classrooms. Journal of 
        Research on Science Teaching, 46, 1-26.

Deiger, M., Fendt, C., Feranchak, B., Hurtig, J., Shefner, R., Slavsky, 
        D. and S. Wenzel. (2009). Working draft on Math and Science 
        Education Systemic Reform in Chicago, 2002-2008. A product of 
        NSF grant to Loyola University Chicago Scale up of Math and 
        Science K-12 Education Reform in a Large Urban District. 
        Available at web site http://www.luc.edu/cse/programs/
        SCALEUP.shtml

Dweck, C.S. (2006). Mindset: The new psychology of success. New York: 
        Random House.

Hill, H.C., Rowan, B. & Ball, D.L. (2005), Effects of Teachers' 
        Mathematical Knowledge for Teaching on Student Achievement, 
        American Educational Research Journal 42(2) 371-406.

Hwang, J.-H. (2008). Different approaches of teaching in chemistry/
        membrane targeting mechanism of human sphingosine kinase 1. 
        Ph.D. Thesis, University of Illinois at Chicago.

Malcolm, P., Moher, T., Bhatt, D., Uphoff, B., & Lopez-Silva, B. (2008) 
        Embodying Scientific Concepts in the Physical Space of the 
        Classroom. Proc. 7th International Conference on Interaction 
        Design and Children (IDC 2008), 234-241.

Mayrowetz, D. (2008) Making Sense of Distributed Leadership: Exploring 
        the Multiple Usages of the Concept in the Field. Educational 
        Administration Quarterly, 44, 424-435.

Mitchener, C.P. & Jackson, W.M. (Spring, 2006). Conducting Action 
        Research: A University-School Collaboration in Support of 
        Middle Grade Science. Spectrum: The Journal of the Illinois 
        Science Teachers Association, 32(1), 48-55.

Moher, T., Uphoff, B., Bhatt, D., Lopez-Silva, B. & Malcolm, P. (2008) 
        WallCology: Designing Interaction Affordances for Learner 
        Engagement in Authentic Science Inquiry. Proc. ACM Conference 
        on Human Factors in Computing Systems (CHI 2008), 163-172.

Monk, D.H. (1994) Subject Area Preparation of Secondary Mathematics and 
        Science Teachers and Student Achievement, Economics of 
        Education Review, 13(2), 125-145.

Pappas, C.C., & Varelas, M, with Gill, S., Ortiz, I., & Keblawe-Shamah, 
        N. (2009). Multimodal books in science-literacy units: Language 
        and visual images for meaning making. Language Arts, 86(3), 
        201-211.

Plotnick, R., Fan, Q., Varelas, M. (2009). An Integrated Earth Science, 
        Astronomy, and Physics Course for Elementary Education Majors. 
        J. Geoscience Educ. 57(2) 152-158.

Proweller, A. & Mitchener, C. (2004). Building teacher identity with 
        urban youth: Voices of beginning middle school science teachers 
        in an alternative certification program. Journal of Research in 
        Science Teaching, 41, 1044.

Radinsky, J. (2008). Students roles in group-work with visual data: A 
        site of science learning. Cognition & Instruction, 26(2): 145-
        194.

Radinsky, J., Loh, B. & Lukasik, J. (2008). GIS tools for historical 
        inquiry: Issues for classroom-centered design. Journal of the 
        Association of History and Computing, XI(2): no page numbers, 
        online journal.

Radinsky, J., Smolin, L.I., and K. Lawless (2005). Collaborative 
        Curriculum Design as a Vehicle for Professional Development. In 
        Vrasidas, C. and G. Glass (Eds.), Preparing Teachers to Teach 
        with Technology: 369-380. Current Perspectives on Applied 
        Information Technologies. Greenwich, CT: Information Age 
        Publishing.

Roderick, M., Nagaoka, J., Allensworth, E., Coca, V., Correa, M., & 
        Stoker (2006). From High School to the Future: A First Look at 
        Chicago Public School Graduates' College Enrollment, College 
        Preparation, and Graduation from Four-Year Colleges. Chicago: 
        Chicago Consortium on School Research. Online at: http://
        ccsr.uchicago.edu/publications/Postsecondary.pdf with revision 
        at: http://ccsr.uchicago.edu/downloads/
        4732hs<INF>-</INF>report<INF>-</INF>addendum-13.pdf (last 
        accessed July, 2009).

Roderick, M., Easton, J.Q., & Sebring, P.B. (2009). Consortium on 
        Chicago School Research: A New Model for the Role of Research 
        in Supporting Urban School Reform. Chicago: Chicago Consortium 
        on School Research. Online at: http://ccsr.uchicago.edu/
        publications/CCSR%20Model%20Report-final.pdf (last accessed 
        July 2009).

Tucker-Raymond, E., Varelas, M., & Pappas, C.C. with Korzh, A. & 
        Wentland, A. (2007). ``They probably aren't named Rachel:'' 
        Young children's emergent multimodal narratives of scientist 
        identities. Cultural Studies in Science Education, 1(3), 559-
        592.

Varelas, M, Plotnick, P., Wink, D., Fan, Q., and Harris, Y. (2008). 
        Inquiry and Connections in Integrated Science Content Courses 
        for Elementary Education Majors,'' J. Coll. Sci. Teach., 37(5), 
        40-47.

Varelas, M., Pappas, C.C., Kane, J., & Arsenault, A. with Hankes, J., & 
        Cowan, B.M. (2008). Urban primary-grade children think and talk 
        science: Curricular and instructional practices that nurture 
        participation and argumentation. Science Education, 92(1), 65-
        95.

Weaver, G.C., Russell, C.B., & Wink, D.J. (2008). Inquiry-based and 
        research-based laboratory pedagogies in undergraduate science. 
        Nature Chemical Biology, 4, 577-580.

Weaver, G.C., Wink, D., Varma-Nelson, P., Lytle, F., Morris, R., 
        Fornes, W., Russell, C., Boone, W.J. (2006). Developing a New 
        Model to Provide First and Second-Year Undergraduates with 
        Chemistry Research Experience: Early Findings of the Center for 
        Authentic Science Practice in Education (CASPiE), Chemical 
        Educator, 11, 125-129.

Wenzel, S., Mayrowetz, D., Bartley, J., Tavormina, M.J., Shefner, R., 
        Shuman, C., Feranchak, B. and C. Fendt. (April 16, 2009). 
        Systemic urban math and science K-12 reform explored through a 
        systemic collaborative research process. Symposium presented at 
        the annual meeting of the American Educational Research 
        Association, San Diego, CA.

Wink, D.J. & Hwang, J.-H. (2008). Pennies and Eggs: Initiation into 
        Inquiry Learning for Pre-service Elementary Education Teachers. 
        J. Chem. Educ. 85(3), 396-8.

Wink, D.J., Daubenmire, P.L., Brennan, S.K., & Cunningham, S.A. (2008). 
        ``Bringing Standards-based Chemistry Instruction to an Urban 
        School District. In Chemistry and the National Science 
        Education Standards, 2nd Ed., Stacey Lowery Bretz, Ed., 
        Washington, DC: American Chemical Society.

Wink, D.J., Ellefson, J., Nishimura, M., Perry, D., Wenzel, S., Hwang, 
        J.-H (2009). Fostering Pre-Service Teacher Identity through 
        Student-Initiated Reflective Projects. Feminist Teacher, 19(1), 
        31-46.

Wink, D.J., Haqque, S., & Zavitz, D. (2004). Teacher-scientist 
        partnership for innovation in high school environmental 
        science. Spectrum: The Journal of the Illinois Science Teachers 
        Association, 30(3), 11-14.

                      Biography for Donald J. Wink

Education

University of Chicago--S.B., 1980, Chemistry

Harvard University--Ph.D., 1985, Inorganic Chemistry

Professional Experience

New York University: Chemistry
1985-1992--Assistant Professor

University of Illinois at Chicago: Chemistry
1992-2000--Associate Professor

2000-present--Professor

2000-2005--Acting Head and Head

2006-present--Director of Undergraduate Studies

University of Illinois at Chicago: Learning Sciences
2006-present--Program Faculty

2007-present--Director of Graduate Studies

Publications most directly related to current testimony:

 1.  ``Synthesis and Characterization of Aldol Condensation Products 
from Unknown Aldehydes and Ketones: An Inquiry-Based Experiment in the 
Undergraduate Laboratory,'' by Nicholas G. Angelo, Laura K. Henchey, 
Adam J. Waxman, Donald Wink, James W. Canary, and Paramjit S. Arora, J. 
Chem. Educ., 2007, 84, 1816-1819.

 2.  ``Inquiry-based and research-based laboratory pedagogies in 
undergraduate science'' by Gabriela C. Weaver, Cianan B. Russell & 
Donald J. Wink, Nature Chemical Biology, 2008, 4, 577-580.

 3.  ``Evaluation of the Center for Authentic Science Practice in 
Education (CASPiE) model of undergraduate research,'' by Donald J. 
Wink* and Gabriela C. Weaver. Commissioned paper for National Academy 
of Sciences Board of Science Education, 2008: http://
www7.nationalacademies.org/bose/
Wink<INF>-</INF>Weaver<INF>-</INF>CommissionedPaper.pdf

 4.  ``Bringing Standards-based Chemistry Instruction to an Urban 
School District,'' by Donald J. Wink, Patrick L. Daubenmire, Sarah K. 
Brennan, and Stephanie A. Cunningham, Chemistry and the National 
Science Education Standards, 2nd Ed., 2008, American Chemical Society: 
Washington, DC. http://portal.acs.org/portal/fileFetch/C/
WPCP<INF>-</INF>010699/pdf/WPCP<INF>-</INF>010699.pdf

 5.  ``Fostering Pre-Service Teacher Identity through Student-Initiated 
Reflective Projects,'' by Donald J. Wink, Julie Ellefson, Marlynne 
Nishimura, Dana Perry, Stacy Wenzel, and Jeong-hye Hwang Choe, Feminist 
Teacher, 2009, 19, 31-46.

Publications in other areas:

 6.  ``Developing a New Model to Provide First and Second-Year 
Undergraduates with Chemistry Research Experience: Early Findings of 
the Center for Authentic Science Practice in Education (CASPiE),'' by 
Gabriela C. Weaver, Donald Wink, Pratibha Varma-Nelson, Fred Lytle, 
Robert Morris, William Fornes, Cianan Russell, and William J. Boone, 
Chemical Educator, 2006, 11, 125-129.

 7.  ``Connections between Pedagogical and Epistemological 
Constructivism: Questions for Teaching and Research in Chemistry,'' by 
Donald J. Wink, Foundations of Chemistry, 2006, 8, 111-151.

 8.  ``Pennies and Eggs: Initiation into Inquiry Learning for Pre-
service Elementary Education Teachers,'' by Donald J. Wink and Jeong 
Hye Hwang, J. Chem. Educ., 2008, 85, 396-398.

 9.  ``Inquiry and Connections in Integrated Science Content Courses 
for Elementary Education Majors,'' by Maria Varelas, Roy Plotnick, 
Donald Wink, Qian Fan, and Yvonne Harris, J. Coll. Sci. Teach., 2008, 
37(5), 40-47.

10.  ``Structure and Reactivity of Alkynyl Ruthenium Alkylidenes'' by 
S.Y. Yun, M. Kim, D. Lee, and D.J. Wink, J. Amer. Chem. Soc., 2009, 
130, 24-25.

Current Support

1.  ``Chicago Transformation Teacher Institutes,'' PI on this ca. 
$5,000,000 grant to five Chicago-area institutions of higher education 
in partnership with the CPS. July 1, 2009-June 30, 2014.

2.  ``Science Approach A: Inquiry to Build Content,'' Chicago Board of 
Education High School Transformation Project, January 1, 2006-June 30, 
2010. I am a co-PI on this ca. $3,000,000 grant to provide 
comprehensive curriculum and professional development to Chicago Public 
Schools. Loyola University Chicago is the lead institution (David 
Slavsky, PI). The UIC subcontract will be approximately $900,000.

3.  ``The Center for Authentic Science Practice in Education,'' 
National Science Foundation, Chemistry Division, August 16, 2005-August 
31, 2009. I am a co-PI on this $2,400,000 grant. Purdue University is 
the lead institution. The UIC subcontract is for $300,000 over five 
years.

4.  ``Scientists, Kids, and Teachers (SKIT): A GK-12 Partnership with 
the Chicago Public Schools,'' National Science Foundation, Division of 
Graduate Education, January 1, 2004-December 31, 2008, $1,979,787. I am 
the PI.

5.  ``Research on Student Understanding of Solution Phenomena in 
College Chemistry,'' National Science Foundation, Division of 
Undergraduate Education, September 1, 2008-August 31, 2010. I am the 
PI.

Synergistic Activities

<bullet>  Co-Director, UIC ASCEND program, and NSF STEP grant to 
support students at the University of Illinois at Chicago in STEM 
majors. Includes networking on campus with major student support groups 
and programs to support students in early participation in research 
(Lon Kaufman, PI).

<bullet>  Secretary and Councilor, Division of Chemical Education, 
American Chemical Society. Member of executive committee for 5000 
member Division and also ex officio member and Secretary of the Board 
of Publication for the Journal of Chemical Education.

<bullet>  Editorial Advisory Board, Education Division, American 
Chemical Society Chemistry in the Community: 6th Edition.

Former Advisors: Undergraduate: Prof. William Evans, University of 
California at Irvine; Graduate: Prof. N. John Cooper, University of 
Pittsburgh

Collaborators outside of UIC (2004-2009): Miami University: Stacey 
Lowery Bretz; William Rainey Harper College: Julie Ellefson Kuehn; 
Kennedy-King College, Sharonda Benson; Harold Washington College: Dana 
Perry, Mike Davis; College of DuPage: Susan Shih, Mary Newberg, Carolyn 
Dockus; Moraine Valley Community College: Ewa Fredette; Truman College: 
Yvonne Harris; Olive-Harvey College: David Zoller; New York University: 
Paramjit Arora, James Canary; Northeastern Illinois University: 
Veronica Curtis-Palmer, Ana Fraiman; IUPUI: Pratibha Varma-Nelson; 
Purdue University: Gabriela Weaver, Fred Lytle; Georgia State 
University: Jerry Smith; Chicago Public Schools: Michael Lach, John 
Loehr; University of West Georgia, Sharmistha Basu-Dutt, Gail Marshall; 
American Chemical Society, Angela Powers, Cynthia Mickevicus, Terri 
Taylor. Michigan State University: Diane Ebert-May.

    Chairman Lipinski. Thank you, Dr. Wink.
    Now we recognize Katherine Pickus.

     STATEMENT OF MS. KATHERINE F. PICKUS, DIVISIONAL VICE 
    PRESIDENT, GLOBAL CITIZENSHIP AND POLICY, ABBOTT; VICE 
                     PRESIDENT, ABBOTT FUND

    Ms. Pickus. Good morning, Chairman Lipinski, Ranking Member 
Ehlers and esteemed Members of the Committee. My name is Kathy 
Pickus and I am the Division Vice President of Global 
Citizenship and Policy at Abbott and I am also the Vice 
President of the Abbott Fund. As someone who works every day 
examining how Abbott and the Abbott Fund can make a difference 
in our communities, I so appreciate the opportunity to be here 
today to explore with the Subcommittee how to meet our 
country's increasing needs in science education.
    Science and innovation, especially as they relate to human 
health, are key to addressing some of our greatest challenges. 
At the same time that our workforce needs science, engineering 
and technology skills, fewer U.S. students are choosing these 
studies, let alone professions. As a health care company, 
Abbott is dependent on an increasingly sophisticated workforce 
with strong skills in science, technology, engineering and 
math. We need to develop and encourage the next generation of 
innovators. Currently, Abbott employs approximately 7,000 
scientists worldwide. 78 percent of these scientists are based 
here in the United States. The ability to fill these well-
paying jobs with people from our communities would be highly 
beneficial.
    As we all know, we are facing many challenges to achieve 
this goal including encouraging an interest in science given 
the parental levels. You know, I was struck recently when I was 
having a conversation with a student at Foreman High School. 
She said she loved science and wanted to be a pediatrician but 
she would never share that dream with her friends, not even her 
parents because she said, ``No one will support me.'' We need 
to create a culture for students like the one I spoke of in 
which their interest in science is encouraged and validated. 
That means opportunities beyond the classroom, real-world 
experience, parents acting as advocates for their children's 
scientific aspirations and the scientific community actively 
engaged with their counterparts in education.
    At Abbott, we took a look at what we could do to advance 
science education and determined that we wanted to develop 
educational programs that would be built around strong 
partnerships with existing educational organizations with 
proven records of success like After School Matters. They need 
to be strategic, systemic and sustainable and they need to be 
driven by scientific evidence, results and measurable outcomes 
but we also need them to serve as a catalyst calling others to 
action.
    Our approach to this endeavor goes far beyond financial 
support. We provide expert consultants experienced in science 
and education program design, implementation and evaluation, 
and we believe that one of the most valuable contributions that 
we are making is providing access to our research and 
development facilities and our scientists who engage one-on-one 
with students.
    The research we did indicated that programs that start 
early and that continue to touch students at various points in 
their K-12 education and involve parents have the greatest 
impact, so at Abbott we started reaching elementary students 
and their parents through Abbott Family Science. We also 
conduct this program in Spanish. And then from there we 
continue with Abbott Operation Discovery for middle school 
students and then to the high school students in Chicago. We 
have worked closely with After School Matters to create 
opportunities, again typically not available for public school 
students. Each of these programs brings students, teachers and 
scientists together for hands-on, exciting experiences. 
Building programs with strong community partnerships ensures a 
lasting impact over time. In Chicago, we are very proud of our 
partnership with one of the Nation's leading after-school 
initiatives, After School Matters. By investing in an exciting, 
highly successful program, Abbott has been able to develop a 
replicable model that provides innovative science education for 
Chicago-area youth. Again, we also want these investments to 
serve as a catalyst. Our programs are designed to increase the 
capacity of leading informal science educational institutions 
including museums. They will engage students, parents and our 
own employees and will also encourage other private sector 
corporations and companies to pitch in and join us as well.
    Abbott science education initiatives, grounded in strategic 
alliances and best practices, are reaping measurable rewards. 
Maintenance of the lab that we have renovated at Foreman, we 
didn't do it alone. I want to offer our thanks to the Chicago 
Public Schools who heard we were renovating a lab and students 
were doing experiments in molecular biology with paper and 
pencil, they joined us to expand the project.
    Abbott scientists and engineers are participating like 
never before. I recently met a Harvard-trained scientist who 
pointed out that this type of community involvement was crucial 
to his job satisfaction at Abbott. He said that scientists and 
engineers crave opportunities that allow them to apply their 
skills and knowledge in a way where they truly make a 
difference. I also met recently a young African-American woman, 
a Ph.D., working as a senior clinical research scientist, who 
told me that she can't wait for the next chance to get in front 
of young girls at under-served elementary schools to tell them 
that you can do it too. And we have seen other evidence that 
shows that these programs are having a positive impact on 
student attitudes toward science and science careers.
    Chairman Lipinski, I agree with you. No single stakeholder 
can solve this crisis alone and only through all of us working 
together can we effectively address this challenge. As you 
develop policy and support of K-12 science education, we offer 
our experience as a benchmark but most importantly, we offer 
our ongoing commitment and support as you work to advance this 
important cause. Thank you very much.
    [The prepared statement of Ms. Pickus follows:]
               Prepared Statement of Katherine F. Pickus

Introduction

    In this country, science and innovation, especially as they relate 
to human health, will be key to addressing some of our greatest 
challenges. Multiple trends and cumulative forces have contributed to a 
looming crisis in science and science education, impacting our ability 
to compete as an innovative global leader. At the same time, our 
workforce needs in science, engineering and technology are increasing 
at a time when fewer U.S. citizens are training for these professions.
    Over the past 50 years, U.S. innovation has led global developments 
in science and technology, simultaneously improving our quality of life 
and fueling our economy. However, declining investments in science 
education, declining enrollments in science courses and professional 
training programs, and a declining level of encouragement from parents 
for their children to learn science and consider science and technology 
careers are putting us at increasingly greater risk.
    In order to increase the perceived value of science learning in 
society, increase the level of scientific and technological literacy 
across that society, and increase the number of young people selecting 
science and technology career paths, we need to create more 
opportunities to actively engage the scientific community in education. 
Without immediate action, we risk losing our ability to find solutions 
to the challenging global problems that all humanity face in the areas 
of health, energy, security and the environment.
    As a global, broad-based health care company, with scientific 
expertise and products that span the human life cycle and the continuum 
of care, Abbott is dependent on an increasingly sophisticated workforce 
with strong science, technology, engineering, math (STEM), and 21st 
century skills. Fifty-three percent of our U.S. workforce has a STEM 
background and are recruited from around the globe. While Abbott values 
their globally diverse workforce, it would be much to our advantage if 
we could recruit a higher percentage of these STEM skilled employees 
from our own research and development communities.
    To this end, Abbott has taken the same scientific precision with 
which we execute our day-to-day research and operations and applied it 
to our approach to philanthropy and employee engagement in science 
education. We have taken a strategic approach to science education that 
capitalizes on Abbott's strengths in science and the strengths of a few 
strategic partners well-versed in science education. Our investments in 
science education can be characterized as:

        1.  Strategic, Systemic, Sustainable--working with students and 
        their families throughout the K-12 spectrum

        2.  Built Around Strong Partnerships--working with existing 
        successful organizations and education delivery models

        3.  Serving as a Catalyst--stimulating additional community 
        investment and engagement.

Strategic, Systemic, Sustainable

    Our focus on STEM education represents an investment along the full 
K-12 spectrum. This investment is part of Abbott's global science 
education platform serving students of all ages, with authentic, 
engaging and developmentally appropriate science learning experiences.
    As a research-based company, we rely heavily on scientific evidence 
and measurable outcomes. Research shows that early investment in a 
child's education reaps tremendous rewards educationally, economically 
and socially. According to the National Science Teachers Association, 
research also indicates that when parents play an active role, children 
achieve greater success as students, regardless of socioeconomic 
status, ethnic/racial background, or the parents' own level of 
education (NSTA Position Statement on Parent Involvement in Science 
Learning, 2008). Couple these factors with programs that are systemic 
and sustainable and a model for success is created.
    For this reason, Abbott has chosen to invest in programs that are 
strategic, systemic and sustainable. The programs start with young 
students and continue to provide opportunities through the K-12 
educational spectrum.
    To reach young children, and encourage greater participation from 
parents, Abbott has formed a partnership with the non-profit Family 
Science organization. Together we developed Abbott Family Science, a 
unique informal educational offering serving elementary school age 
children and their parents. Abbott Family Science events actively 
engage families typically under-served in the areas of science 
education. These programs bring kids, parents, teachers and scientists 
together for an exciting, hands-on experience focused on fundamental 
science and 21st century skills (observation, problem-solving, 
teamwork) and building confidence as life-long science learners. The 
program is designed to be replicable year after year, forming a strong, 
sustainable partnership between Abbott scientists and schools in their 
local community. To date, programs have been launched throughout the 
U.S. and internationally in Abbott research and development 
communities.
    Abbott has also developed experiences that match the needs of older 
middle school students. At that age, interest in science often 
declines, especially in girls. Providing a rich, authentic, real world 
science experience is a way to introduce those students to the exciting 
world of scientific exploration and discovery. Abbott's Operation 
Discovery program is a guided experience at an Abbott facility in which 
Abbott scientists serve as mentors and role models to the students and 
facilitate hands-on experiments in small groups introducing the 
students to some of the very same tools and procedures that Abbott 
employees use everyday in their work.
    At the high school level, Abbott is committed to enrichment 
experiences that complement in-school learning, thereby optimizing 
their investment with a systemic approach. By reaching students through 
after school science programs, both during the school year and the 
summer, Abbott meets a real need in the community and helps build 
bridges between formal and informal education. Working with the 
nationally acclaimed After School Matters (ASM) program, Abbott is 
actively engaged in increasing the opportunities in science for under-
served students in the Chicago area.
    In addition to their investment in After School Matters, Abbott 
supports other Chicago area K-12 enrichment experiences including FIRST 
Robotics and Project Exploration.

Built Around Strong Partnerships

    Developing strong community partnerships ensures that programs 
evolve based on the interests and needs of the audiences being served, 
and that they are sustainable and have a lasting impact over time. At 
Abbott, we believe we can make valuable contributions to science 
education by providing scientific expertise and access to authentic 
STEM experiences. We also recognize that to have the strongest impact 
and make the most efficient use of our own resources, a more strategic 
approach to providing science education experiences is to partner with 
educational organizations. Informal science education organizations 
increasingly are being recognized for their crucial role in providing 
innovative STEM education (Learning Science in Informal Environments: 
People, Places and Pursuits, National Research Council, 2009).
    In recent years, Abbott has increased their focus on partnering 
with established non-profits and informal STEM providers. In the case 
of Abbott Family Science, we developed our program in partnership with 
the Foundation for Family Science, an established non-profit with 
proven multilingual curriculum materials and program delivery models. 
We have adapted the program to include Abbott employees, scientists and 
engineers and are now delivering the program globally. The programs are 
designed to be sustainable and will continue to grow. To date, programs 
have been launched in the U.S. in Illinois, California, Ohio, Puerto 
Rico, as well as internationally in Ireland and Singapore.
    In Chicago, we are very proud of our partnership with one of the 
Nation's leading after school initiatives, After School Matters (ASM), 
to design and launch a science-based after school program for Chicago 
area teens. Prior to 2007, ASM did not offer science enrichment to the 
nearly 22,000 teens it serves annually. By investing in an existing, 
successful informal education delivery model, Abbott has been working 
with ASM to retool that model to provide innovative science learning 
opportunities. After school and summer programs provide an opportunity 
to reach diverse and under-served students, thus potentially increasing 
both the size and diversity of our future science and engineering 
workforce.
    The result is ``science37'', a new category of after school 
programming for Chicago-area youth, named after the original gallery37 
arts program initiated by Chicago's First Lady, Maggie Daley. Abbott's 
investment is intended to serve as a catalyst to both increase the 
capacity of ASM and encourage further community engagement and 
investment in after school science programming.
    The science37 program provides teens with hands-on opportunities 
that expose them to rewarding career opportunities and help them 
develop marketable job skills that have immediate value in the 
workplace. This innovative program also offers paid internships to high 
school students in some of Chicago's most under-served schools.
    Abbott's support of this partnership goes far beyond direct program 
support. As part of Abbott's commitment to after school science, the 
company provides ASM with expert consultants experienced in innovative 
science and education program design, implementation and evaluation. To 
date, Abbott has contributed over $1.5 million to after school science 
programs in Chicago, which includes not only direct program support, 
but also program research, development, evaluation and scientific 
expertise.
    Abbott scientists were directly involved in the design of the 
partnership and continue to play a major role in the implementation of 
two of science37's flagship courses in the Bio Sciences. Key components 
include hands-on laboratory experiments, interaction with guest 
scientists, visits to Abbott research and development sites, and a 
culminating project using important 21st Century skills in research, 
critical-thinking and communication.
    Abbott continues to partner with ASM to design, expand and evaluate 
these innovative science enrichment experiences, and to provide 
strategic advice and educational expertise for further Science37 
program development and implementation.
    Understanding the impact of programs is key, and Abbott has 
implemented a formal evaluation process to measure the impact of the 
new science37 program. Early indications are that this program is 
having a positive impact on student attitudes toward science and 
science careers.
    In the first full year of the program, students reported 
significant changes in their attitudes toward science and science 
careers:

        <bullet>  Before taking a science37 course, only 33 percent of 
        the students were interested in ``pursuing a career in 
        science.'' In post-course surveys, this number increased to 78 
        percent.

        <bullet>  Students' sense of whether ``It will be important for 
        me to know about science for my daily life'' increased from 47 
        percent to 89 percent.

    Participants in the most recent session of science37 courses 
reported significantly increased interest in taking additional biology 
and chemistry courses in school.
    While many after school programs have a strong interest in offering 
science programming, these programs require significant support in 
order to effectively implement high-quality science learning 
opportunities (Coalition for Science After School Market Research 
Study, December 2008). Private-public partnerships are critical for 
leveraging existing effective delivery models, and for providing 
expertise and innovative science content based on authentic science 
experiences, interaction with working scientists and exposure to STEM 
careers.

Serving as a Catalyst

    In each of its programs, Abbott's investment is meant to serve as a 
catalyst. Our investments are designed to increase the capacity of 
leading informal science education institutions to deliver top-quality 
K-12 STEM programming; increase the engagement of people, including 
students, parents, teachers and our own employees in science education; 
support improvements in STEM education locally and globally; and 
increase the investment of other private sector corporations in this 
important effort.
    Abbott's investments are generating meaningful progress on a number 
of fronts. Abbott's investment in ASM has resulted in increased 
interest and investment from the Chicago area informal science 
education community, formal education institutions and the corporate 
sector. ASM's science37 program workshop classes have increased in 
numbers from two to 24 in just three years. Informal science education 
institutions across the Chicago area have expressed strong interest in 
working with ASM to provide additional STEM programming and to 
incorporate authentic science experiences and practicing scientists 
into their programming.
    Serving as a catalyst can sometimes result in unexpected and 
refreshingly positive outcomes. In developing an after school science 
program for Foreman High School in Chicago, we discovered that students 
were forced to do their lab experiments with just paper and pencil--the 
teacher was teaching molecular biology with no working laboratory 
sinks, electricity or gas. Abbott renovated the lab, providing an 
important resource for both after school students and science students 
in classes throughout the day. That investment resulted in an 
additional investment from Chicago Public Schools, making a full lab 
renovation possible. This summer the full lab renovation is underway, 
with a new, contemporary laboratory classroom space to be available to 
all Foreman students this fall.
    As a second example of the catalytic effect, we are now working 
with Dr. Don Wink, who you will hear from shortly, at the University of 
Illinois Chicago to create additional authentic research experiences 
for the high school students enrolled in science37. UIC undergraduate 
and graduate students will be involved in the program, providing strong 
role models for the high school students.
    In all of Abbott's K-12 science education programs, the company's 
investment has been a catalyst for increasing the involvement of Abbott 
volunteers in their community. The introduction of Abbott Family 
Science in communities has resulted in continuing close relationships 
between Abbott employees and local elementary schools. Existing 
volunteer programs at Abbott research and development sites have been 
reinvigorated by the introduction of Abbott Family Science and Abbott 
Operation Discovery programs in their communities.
    This connection to the community for Abbott employees, scientists 
and engineers is not insignificant. Scientists crave opportunities that 
allow them to apply their skills and knowledge in a way that can truly 
make a difference.

Conclusion

    In summary, we have learned a great deal from working with 
experienced science education professionals to provide science 
education opportunities to the community. Letting research guide our 
strategic decisions, investing the full K-12 spectrum, evaluating our 
impact and seeking continual improvement are all hallmarks of our 
ongoing platform in science education.
    All of these factors have allowed us to be strategic, both 
internally and externally, in providing programs that are designed to 
have the greatest possible impact for program participants, our 
employees, and science education globally.
    No single stakeholder can create the improvements we need to 
address our nation's crisis in STEM education. By serving as a 
catalyst, we have stimulated new program development and expanded 
existing programs beyond their initial impact.
    As we challenge ourselves as a company every day, we challenge 
others to invest in those ideas, individuals and organizations that 
show the greatest promise. Taking a systems approach to improving K-12 
STEM education requires that all facets of the system work together and 
contribute in significant ways. Abbott's science education initiatives 
are grounded in strategic alliances and best practices that are now 
reaping measurable rewards. In this spirit, we hope to inspire the next 
generation of scientists who will deliver the breakthrough, lifesaving 
medicines needed throughout the world today. We hope our testimony 
assists the Science Committee as you develop policy and program models 
in support of K-12 science education. Thank you for the opportunity to 
share the Abbott Fund's experiences with you today.

                   Biography for Katherine F. Pickus
    Kathy Pickus serves as Vice President of the Abbott Fund, the 
company's philanthropic foundation, managing and developing programs 
with not-for-profit organizations that address global needs in the area 
of access to health care and science and medical innovation. She also 
manages Abbott's disaster relief efforts and product donation program. 
In addition, Kathy serves as the Divisional Vice President of Global 
Citizenship and Policy for Abbott, overseeing the strategic direction 
of the company's global citizenship initiatives and reporting.
    Prior to joining Abbott in 2004, Ms. Pickus served as the Director 
of Corporate Communications for Fruit of the Loom, Inc. Kathy joined 
Fruit of the Loom, Inc., after serving as the Special Assistant for 
National Security Affairs to the Vice President of the United States. 
Her primary responsibility was to advise the Vice President on all 
activities pertaining to U.S. foreign policy interests in sub-Saharan 
Africa.
    Ms. Pickus began her career at the United States Information 
Agency, which at the time was a branch of the U.S. Department of State, 
where she worked with private sector organizations to develop and 
implement democratic institution building programs worldwide. In 1993, 
Kathy was selected by the United Nations to serve as an election 
monitor for the first-ever democratic elections held in the Republic of 
South Africa. She currently serves on the U.S. Afghan Women's Council, 
which is a cross-sectional working group dedicated to advancing the 
status of women in Afghanistan currently based at Georgetown 
University.

                               Discussion

    Chairman Lipinski. Thank you, Ms. Pickus.
    I want to thank all our witnesses for their testimony, and 
now we will move on to the questions. I want to say, I am very 
pleased to see especially at this time, our last week, almost 
our last day before we are going to August recess to see so 
many Members who are here and I think it really shows the 
interest not only in STEM but it shows that Chicago just brings 
everybody out.
    I am going to, as I usually do, use my prerogative as 
Chair; the Chair will ask the questions first but I want to 
pass it along. I will leave myself to the end so right now I 
recognize Ms. Fudge for five minutes.
    Ms. Fudge. Thank you, Mr. Chairman. I thank all of you for 
being here today. I have a couple of questions actually. I am 
going to begin with a question for Dr. Ward.
    Dr. Ward, in his testimony, Dr. Wink emphasized that there 
is a need to bring school principles into any STEM efforts so 
that they can develop an appreciation for the importance of 
STEM learning in their schools and to provide their teachers 
with some support to implement reforms. Can you tell me what or 
if NSF is doing anything or addressing the need to bring 
principals and other administrators into your K-12 educational 
programs?
    Dr. Ward. Thank you for your question, Congresswoman Fudge. 
I would say that we have a long history in fact in the 
engagement of principals in particular but also other 
administrators, as Dr. Wink described so well in his testimony. 
Even dating back to our formal systemic reform efforts, we 
recognized that it was critical for the progress, for the 
success and sustainability of education to engage fully 
administration, particularly principals, in the shared vision 
of what was going on, the shared implementation and the shared 
accountability of the reform undertaken. We found that this was 
successfully demonstrated in a number of what we called at that 
time process and outcome driver approach in our early systemic 
efforts and we encouraged administrative support for both 
process and outcome to look especially at coordination of sets 
of policies and resources for excellence in STEM education with 
facilitation and support of and commitment from a broad group 
of stakeholders which you are hearing fully from the experts 
here today that would include parents, industry and formal 
science institutions in collaboration with the administrators 
in the various systems. The role that the principals and other 
administrators play in helping demonstrating the criticality of 
high expectations for both the teachers and the students to 
enjoy and to demonstrate proficiency in STEM content and also 
the criticality of the support or acknowledging the support and 
importance of data to actually inform the decisions that the 
administrators would have to make and to track progress towards 
success. So yes, we have a history there and we agree with you, 
it is quite critical to have that component.
    Ms. Fudge. Thank you so much; and this is to any member of 
the panel. The test-score gap between minority and majority 
students is considered one of the most frustrating problems in 
public education. Experts say that such gaps result from 
various entrenched factors, often due to socioeconomic factors 
that can hinder them inside and outside the classroom. What is 
being done now to remove the achievement gap in STEM fields and 
how could we do a better job to eliminate some of these 
disparities?
    Mr. Lach. That is a great question. It is an issue that I 
know is near and dear to the hearts of just about everyone who 
works for the Chicago Public Schools. In my experience, we have 
found that there are no silver bullets to closing the 
achievement gap. There is not a certain test or certain 
curriculum or certain kind of teacher that enables that. In 
fact, there are--it is a multitude of supports all working 
together that we can show will enable students to learn at high 
levels. In Chicago and around the country, there are existent 
proofs that show poor minority kids can and will learn at high 
levels when all those supports are put in place. Our challenge 
is to figure out how do we bring those existent proofs to 
scale, and so our work on creating systems to enable external 
partners to help us with the delivery of curriculum, our work 
to create the right kind of accountability tools and metrics to 
help schools know the right way to go and then connecting the 
social service and the families and communities in the school 
by extending the school day by more and more after-school and 
Saturday programs all seem to work but we know we have to have 
all of those levers be pulled in concert.
    Ms. Fudge. Thank you, Mr. Chairman. I know my time has 
expired, but I would certainly hope if there are other members 
of the panel who would wish to respond that they might do so to 
my office or in writing at some point. Thank you very much.
    Chairman Lipinski. Thank you, Ms. Fudge. The Chair now 
recognizes Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman, and let me just 
quickly follow up, Mr. Lach, on your last response. What is 
your dropout rate in Chicago high schools, the overall dropout 
rate?
    Mr. Lach. There are several different ways to measure it 
but it is around 50 percent, 55 percent.
    Mr. Ehlers. 50 percent? Okay. That is not too bad compared 
to what we face in Detroit.
    First of all, I just want to commend Ms. Pickus on what you 
are doing about getting scientists and engineers in the 
schools. Every time I speak to a group of scientists and 
engineers, I encourage them to go to their nearest school or 
their children's school and offer to speak and perhaps offer to 
take the students on a field trip to their labs, or if they are 
engineers, take them out in the field and show them how bridges 
are built. A lot of them are excited about that. The 
unfortunate feedback I get at times is that the schools don't 
want to do it, and that is where I think you play a key role at 
persuading the schools and doing a lot of the legwork. They 
don't want to do field trips. There is too much time, too much 
trouble. There is liability and there is expense and you cannot 
allow someone in the school without knowing long ahead of time 
what they are going to say. A lot of them are afraid of that. 
So thank you and to Abbott for what you are doing because I can 
assure you, based on my conversations, it is desperately needed 
to have someone there to make the arrangements and break the 
ice.
    Also, Ms. Daley, a comment about your statement that most 
scientists are led to science by an early experience. That is 
also my situation. I don't know whether I would have become a 
scientist without that. But my sister, when she was in high 
school and was taking high school chemistry, Popular Science 
magazine gave free magazines to every student in high school 
physics or chemistry. She took them home. I read them. I 
remember doing home experiments and I was just astounded that a 
little boy in a town of 800 people who had never met a 
scientist and never expected to meet any could sit there and 
make carbon dioxide and channel it down to a candle flame and 
make it go out. I didn't realize it was contributing to global 
climate change by doing that. But nevertheless, it was an 
``aha'' moment for me, and I think it is very important to 
generate and encourage those ``aha'' moments.
    Dr. Wink, a quick question. For your MSP program, how are 
the teachers selected and where does your support come from 
outside of NSF?
    Dr. Wink. So as to the selection process, and this goes 
back to the question of principals, we are actually going to be 
working with schools, and one of things we will be doing this 
fall is working in developing some examples but then also in 
dialogue with the schools to produce an application process 
where it is teams of teachers but also the school 
administration comes into the program. So we are not looking to 
work with individual teachers. We will expect that the teachers 
that are in the team will have a shared commitment but they 
will also have initial training appropriate for being a science 
teacher in the high schools and then we will be looking at what 
their particular needs are in terms of which of the cohorts 
that we bring them into. So we really need teachers who are 
ready to engage and have initial proper training because they 
are going to be in graduate courses that will go considerably 
farther but it is not going to be as individuals. It will be 
teams that show that the leadership components of the program 
actually will have some traction within the schools.
    Mr. Ehlers. Very good. I have been in institutes before in 
my prior life and that is a key factor, getting the right 
people involved, and it sounds like you have a very good 
approach.
    Back to you, Mr. Lach. you've emphasized several times the 
rich resources you have available in Chicago and the use you 
make of them. How would you advise or what would you advise 
schools in smaller school districts further from urban centers? 
Is there any way you would see that they would be able to 
substitute for experience that you are making such good use of?
    Mr. Lach. A couple comments on that. I think there is a lot 
of local resources in every community. It doesn't have to be 
something like the Adler Planetarium or the University of 
Illinois at Chicago. I am sure there is an awful lot of science 
that happens in local businesses and the agricultural 
industries and what not in rural areas that could be leveraged 
in those sorts of ways. That said, I think there is also the 
issue of driving capacity in rural areas is a really difficult 
problem to solve because we depend on our partners in Chicago a 
great deal. I think something I would encourage local 
administrators to consider is ways to leverage some of the 
national work around curriculum design, around teacher training 
institutes, around online learning that might be available to 
their locations. For instance, there are tremendous computer-
based programs. We use some of them to do our high school 
mathematics, which don't have to be invented locally but can be 
purchased. Most of them were developed with NSF resources at 
that point and that can be used to really drive that kind of 
work.
    Mr. Ehlers. I see my time is expired, so I thank each and 
every one of you.
    Chairman Lipinski. Thank you, Dr. Ehlers, and I will 
recognize Mr. Carnahan.
    Mr. Carnahan. Thank you, Mr. Chairman, and I thank the 
panel for being here on this subject. It is one of great 
interest to me, and I guess I want to start by asking a 
question that has really been prominent in my hometown in St. 
Louis. Like a lot of urban school systems, we have had 
problems, and at the same time, you know, we have had a State 
board come take over from our elected school board as they try 
to grapple with changes in the system. There has been a big 
disconnect, a disconnect between what our really world-class 
institutions and resources around the area from universities, 
corporations, institutions like the St. Louis Science Center, 
the Missouri Botanical Gardens, the Danforth Science Center. 
The list goes on. So we have this amazing infrastructure of 
institutions but there is this disconnect with the public 
school system and those resources in those towns and being able 
to be involved and support the public schools and especially 
STEM education programs, and they have some stake in seeing the 
best and brightest kids get into those fields so they can be a 
part of those institutions, and I guess I am very--this is a 
fundamental question for our community but I think for a lot 
around the country, but I guess I am asking, how do you bridge 
that gap? Are there Chicago or other cities that have done this 
well, and we really are interested to learn from them in terms 
how best to make those connections and support the schools 
generally but also with regard to STEM education.
    Mr. Lach. I can offer some examples of what we have learned 
in Chicago. We have made plenty of mistakes on the way to do 
that but I can tell you what we have learned. First, we found 
it was really important to have very clear requests from all of 
our partners. We are the Chicago public schools. We need as 
much help as we can get. I am not really in a position to tell 
anybody their help isn't welcome. That said, if I can go to a 
university and say you know, I need more help in middle school 
science than I do K-5 math because U of C is covering K-5 math, 
that is really helpful. So the first thing we did was with our 
strategy sort of carved out the pieces and made sure each of 
our players and partners had some ownership over those pieces.
    The second thing that we have done is, we had enough 
political capital to move things in that direction. This came 
from several places. The mayor has always been very, very 
interested in science and mathematics education. In fact, he 
convenes every year a carnival. We call it Science in the City. 
It celebrates Chicago as a city of science and organizes all 
the people who do science and science-related activities 
together. That helps bring people along. We have a plan that is 
the center of that and that pulls things in place. Having 
resources from external sources is also very, very helpful. At 
the high school level, we leaned on the Bill and Melinda Gates 
Foundation. For middle school, we have really focused on 
resources from the Chicago Community Trust, the largest local 
foundation. For much of the work around organizing 
universities, that has come from the National Science 
Foundation. If there isn't a political will to get the 
university presidents and deans of education and museum 
presidents all in the same room, having external resources to 
sort of grease the skids and make that happen has been really, 
really useful.
    Mr. Carnahan. Thank you.
    Dr. Ward. I would add and fully agree with what Dr. Lach 
has pointed out, the political will is quite critical. Making 
the case of the economic competitiveness that a city or a state 
or a rural area stands to benefit from this kind of coherence 
and seamlessness throughout the learning continuum have served 
in a number of places as a powerful incentive. You may be 
familiar, several years ago the Council on Competitiveness 
initiated an innovation initiative and talked about clusters of 
competitiveness and clusters of innovation and, you know, the 
saying it takes a village to raise a child, for that child to 
come through and become a productive citizen either of that 
hometown area or elsewhere, all of the components that Dr. Lach 
talked about are quite, quite critical. From the federal level, 
particularly at the NSF level, the math and science 
partnership, for example, there is an explicit emphasis on that 
partnership notion. The awards are made to colleges and 
universities but there have to be strong partnerships with that 
K-12 system and all other relevant stakeholders in those 
respective communities, and so the notion of synergy, 
connectivity, integration of the critical components not only 
within the system but I would argue within the entire community 
that is being served is quite, quite critical.
    In terms of tools through that program, there is something 
called Math and Science Partnership Network, MSP Net, and it is 
designed expressly to be an accessible tool not only to MSP PIs 
but anyone interested in both the research and implementation 
that is taking place within a network of MSP activities. And 
then finally, I would simply add back to the Congresswoman's 
statement about the achievement gap, I would recommend the MSP 
Net and will make provisions to get copies available to 
interested Members. Just last fall, the Peabody Journal of 
Education did a special journal issue on the MSP project itself 
and it details explicitly all of the data about the achievement 
gaps that were reduced across the several MSP Net sites, and we 
will provide that to you before recess. Thank you.
    Mr. Carnahan. Thank you.
    Ms. Fudge. You know that is tomorrow, right?
    Dr. Ward. Yes.
    Chairman Lipinski. I was hoping it was today.
    Mr. Carnahan. Thank you, Mr. Chairman.
    Chairman Lipinski. Thank you, Mr. Carnahan.
    Dr. Wink. Mr. Chairman, if I may just----
    Chairman Lipinski. Yes.
    Dr. Wink.--an additional point from the university 
perspective. The colleges and universities are doing something 
already that is vital to K-12 and it needs to be linked more 
tightly to what goes on in STEM education reform and that is 
teacher preparation. In my own background it was actually in 
the area of teacher preparation that I first started to engage 
in these questions, and that has to be something that is shared 
on the campuses between the colleges of education and the 
departments of mathematics and science. It is an important 
requirement of NSF funding but it is also something to pay 
careful attention to. The universities are creating the 
teachers and enroll in this process to do it well and to make 
sure those teachers know not only the STEM content but also 
some of the issues associated with educating the children in 
these particular contexts is absolutely vital.
    Chairman Lipinski. Thank you, Dr. Wink, and I will 
recognize Mr. Neugebauer.
    Mr. Neugebauer. Thank you, Mr. Chairman. Before we get 
started, I think Mr. Lach probably pointed out a much bigger 
problem than STEM education and that is the dropout rate in 
America, and it is almost embarrassing that one of the most 
prosperous countries in the world has some of the highest 
dropout rates and the highest incarceration rates, but that is 
not the subject of this hearing but certainly should be 
something that we should be very concerned about.
    You know, I hear a lot of folks talk about, you know, in 
the school districts around the country difficulty of retaining 
math and science teachers. There is not--in many school 
districts there is not enough math and science teachers, and 
certainly that is an issue that needs to be addressed. I am 
from the business world, and when we used to have a deficiency 
in our team, we would go out and recruit the talent that we 
needed to complete our team, and sometimes that talent would 
cost more to acquire than other skill sets. Has there been 
discussion in the academic world K-12 about if we need more 
math and science teachers that we would pay a higher rate to 
attract and retain a sufficient number of math and science 
teachers to make sure that we have those folks on board? I will 
throw that out to the panel.
    Mr. Lach. I have long been an advocate for paying 
mathematics and science teachers more. It was not an issue that 
we could successfully include in the most recent contract 
negotiations in Chicago but it is something that I think is 
particularly important. I do believe that our current Secretary 
of Education supports that idea as well.
    Mr. Neugebauer. Does anybody else want to comment? Dr. 
Ward?
    Dr. Ward. Yes. Certainly we appreciate the importance of an 
adequate salary for teachers doing some of the most important 
work that takes place in the Nation. One particular instance is 
through our recent Noyce program. There are explicit provisions 
made such that during this teacher preparation time existing 
teachers are paid a stipend, if you will, for the period of 
time that they are undergoing the training through this program 
but the issue that you speak to is far greater than stipends 
for preparation itself and it is one that continues to loom 
large on the national horizon.
    Mr. Neugebauer. So is your opinion yes or no, you think we 
ought to pay more for----
    Dr. Ward. Yes, I think so.
    Dr. Wink. Sir, if I may add something, please?
    Mr. Neugebauer. Yes.
    Dr. Wink. It is also a question of understanding the 
opportunities, as Michael said earlier, that really do come 
from being in an urban setting so there are pay differentials 
between CPS and some suburban districts which hamper the 
ability of CPS to retain teachers, and that is across the 
board, but in particular in math and science, and yet it is in 
my experience the case that on the same pay, a teacher will 
want to teach in Chicago in almost every case, and the reason 
is because of the excitement and the opportunities that are 
there. So we need to address that gap. But the other thing that 
we need is for the teachers to recognize that those 
opportunities exist, so we commonly work with individuals who 
may be from a background that is not in the city and giving 
them the opportunity to see what really good teaching goes on 
in the CPS schools and in very many cases really turns them on 
to that opportunity. So including urban education experiences 
within the training of teachers is an important part to 
bringing teachers into these higher-need environments. They are 
not going to just come in when they get their bachelor's 
degree. They need to be trained in those environments as well.
    Mr. Ehlers. Would the gentleman yield?
    Mr. Neugebauer. I would yield, yes.
    Mr. Ehlers. Thank you very much. I have been an advocate of 
pay differential for many years and generally it has ended up 
being, as Mr. Lach said, when you get to union negotiating, 
there are very few science and math teachers and so that 
negotiators worry much more about the broad body than they do 
about specific disciplines. I think this is something that has 
to be addressed in some other way, perhaps through additional 
stipends from other organizations which some school districts 
use but you are right on. My colleague is right on on this 
point. We live in a country that believes in a free enterprise 
system. The amount you get paid in your particular job depends 
on what could earn elsewhere, and I don't care whether it is 
teaching or working in an office or something, and it is clear 
that a typical high school science teacher can get at least 
$20,000 or $30,000 a year more by going into industry. Why 
shouldn't the schools meet the competition? I don't think it 
should be a matter of union contracts. I think it should just 
be a matter of competition. With that, I yield back.
    Chairman Lipinski. Thank you. I wanted to hopefully in my 
questions here sort of try to bring a lot of this together 
since we are talking about a systems approach, and being the 
engineer I am, I am sitting here drawing a diagram. But we have 
NSF, a representative of someone that runs an information 
education institute. We have K-12 represented here, and 
university. We have industry here. But beyond that, you know, 
we have talked a little bit about we also have out there 
foundations, retired professionals. We have had a hearing 
earlier this year about including informal educational 
institutions, museums. We talked here about the aquarium and 
planetarium. We also have in the Chicago area and some other 
places that are fortunate across the country national labs, and 
I am probably leaving out some others, but the question is, 
what--I am looking for what recommendations that you would 
give. If you were going somewhere else to another area that had 
a lot of these similar potential for bringing together so many 
different pieces, so many different stakeholders, what would 
your recommendations be as to how to best try to coordinate? 
Because we heard stories from each of you about a little bit of 
the coordination that you have done, especially Mrs. Daley 
worked with Abbott for some coordination. We have heard some 
other examples of how that is done. Mr. Lach talked about how 
Mayor Daley has been important in emphasizing Chicago in 
science and technology. But how else--how would you recommend 
going about making these connections or telling someone else, 
telling another city how do you make these connections and make 
them work to really have a systemic approach to STEM education 
to really better educate our children in STEM education? I am 
just trying to throw that out there and give you a chance to 
think about, give some recommendations for what you would do 
and what you would recommend. Ms. Pickus.
    Ms. Pickus. Yes, I would just like to also say that there 
is some great leadership that has been demonstrated by Mayor 
and Ms. Daley. It is unique for the city of Chicago. They have 
reached out to unusual, atypical partners and they have brought 
people together to approach a challenge in a uniform manner, 
and I think that if we are to take the model that is taking 
place in Chicago and find what makes it work, we can share it 
with other communities. You know, Abbott has facilities all 
across the United States, all across the world, and what we are 
trying to do is piece this together. You know, clearly the 
leadership that they have provided has given us, you know, 
great vision to establish the kind of partnerships that we 
could have in Columbus, Ohio, for example, where we have a very 
large presence, and we found that by looking at what is going 
on in Columbus, small siloed activities were already taking 
place. Our nutrition scientists who are based there were 
reaching out to their counterparts at the Ohio State University 
and they were together going to elementary schools or they were 
going to a museum. It is about looking at bringing others in 
and establishing some order and getting others to as a group 
provide leadership for a long-term vision in this area. So I 
suggest we look at Chicago and share the model with St. Louis, 
Columbus, other places around the country.
    Chairman Lipinski. Ms. Daley.
    Ms. Daley. I would say that I agree with you, Kathy. I 
think that--when I do talk to other cities and mayors, I will 
say really in this case it is really important for the Mayor to 
be dedicated to these things, and it will fall into place. You 
know, if a Mayor gathers all these people around the table and 
says we are going to make this work, I mean, it is really a 
great step in the right direction. So in a way it is executive 
driven, I think, but then once you get these people together, 
then the partnerships develop and everyone I think feels 
committed to trying to, you know, enhance the whole idea of 
advancing STEM education, and you know, one of the reasons that 
business is that businesses can also see how it will affect the 
economy of the city, and I think that it really is relatively 
easy to do. Once you gather the people together, the 
partnerships become, you know, like motivated friends actually, 
to make it happen.
    Chairman Lipinski. Dr. Ward.
    Dr. Ward. I think the role of dissemination of actually 
what works and to be candid, what has not worked, so that one 
can learn from lessons of previous existence proofs, if you 
will. We learned quite a lot during the urban systemic program, 
for example, but there was also the rural systemic program. We 
now have math and science partnerships documenting very 
carefully and rigorously in terms of accountability of all the 
critical components that are necessary to make a systems 
approach in the effectiveness of STEM education--it can't be 
understated. These networks that we are talking about, the use 
of technology, for example, so that people have ready access 
while they are in the process of trying to mount these kinds of 
activities. From the federal level, we do whatever we can in 
terms of outreach and making available those best practices and 
dissemination. We are talking with the Department of Education 
now as they are about to distribute quite a lot of ARRA money 
to work together, such that best practices that NSF has 
supported over the past several decades can be immediately made 
available to communities, and that discussion is going quite 
well. We have a workshop coming up I think within a month's 
time, for example, for those kinds of things. But recalling 
what Dr. Wink had said in his written testimony, I was very 
struck by it. This is not easy. It is not quite as easy. It 
takes a long-term mounting of trust and relationships among the 
critical players, the appreciation of rigor and high 
expectations, the needed infrastructure in place, not only just 
the physical infrastructure but financial resources in place, 
the necessary policies being aligned well, standards, 
standards-based instruction being aligned well so that you can 
see the necessary student attainment in the STEM fields that 
are so desired.
    Chairman Lipinski. Thank you. Any other comments?
    Ms. Daley. Yes, I would like to comment. We are talking 
about two very important things, and one is changing and 
enhancing what is happening during the school day, but I would 
also, because of course I am involved in out-of-school 
activities, I think at the same time we have to consider the 
importance of that just as Dr. Ehlers was saying where often is 
that spark. We want to have more scientists and engineers in 
the future of our country, and if in fact it does seem that 
quite a few of them develop that interest in and out-of-school, 
I think that that is something that we should pursue and think 
about because it is actually easier to do. It is important to 
work on the system and continue to do that but to make impact 
out of school is relatively easy to do and also is very cost-
effective. It is not nearly as expensive as the traditional 
school day. So I just think that that should definitely be a 
priority as well.
    Chairman Lipinski. I yield to Dr. Ehlers.
    Mr. Ehlers. I thank the gentleman for yielding. I just 
wanted to comment on an experience I had in the past few weeks. 
I learned to fly many years ago and then gave it up because of 
a number of reasons and got back into it recently, but I met a 
teacher in Grand Rapids. He was a high school teacher, and he 
had learned to fly at one point. He was hoping to become an 
airline pilot and return to the Bahamas where he was from and 
run tours. He never quite managed to do that, but he decided 
that a good way to get the kids excited, elementary school 
kids, excited about math and science was to have them study 
aviation, and so he volunteered to teach them after school and 
has them build model airplanes. I met him at an event where a 
chapter of the Experimental Aviation Association, of which I am 
a member, was meeting. We invited him in, gave the kids rides 
in real airplanes. It is amazing. I would predict that more of 
those kids would go into math and science as a result of that 
simple experience than would have almost any other experience 
he could have given them in the school. They love airplanes. 
They love to build their own now and so forth. So I think there 
are endless opportunities to use that after-school time to 
really develop kids' interest in math and science and careers 
in those fields other than just the standard things that we 
have been doing in the past. Thank you.
    Chairman Lipinski. Does anyone else on the panel want to 
add anything here?
    Ms. Pickus. One last quick comment. You are talking about 
during school education and then after school and how they 
relate, but one of the things that we saw with After School 
Matters was the investment that we have made in the facility at 
one high school actually impacted the course, the science 
courses for during school and leveraging those investments and 
also with regard to attracting teachers, and I think the 
teachers we are working with at Foreman High School, you know, 
their opportunity to reach and do more work in an after-school 
environment I think also encourages them to become more engaged 
in the Chicago public school system and also engages them with 
the students long-term.
    Chairman Lipinski. I certainly think, and we all know, 
everything feeds off each other in all these and I certainly 
know that that was the case in my life, in my education and 
growing up and it was very significant to be in Chicago and 
have the opportunities that I had, you know, and I have talked 
about this many times, going to the Museum of Science and 
Industry, the aquarium, Adler Planetarium, Brookfield Zoo and 
all those things, you know, especially that really played into 
and got me more and more interested in eventually getting a 
degree in engineering. But I want to thank you for all your 
work. Ms. Daley.
    Ms. Daley. I actually have one little anecdote that I would 
like to share. One time when we were doing a robotics program 
in school that was having difficulties, and it wasn't one of 
our more successful high schools but it was, you know, always 
these teenagers are wonderful, and I was observing a Tech 37 
program which was dealing with robotics, and what happened is, 
I noticed a gentleman was there observing these kids and he 
came over to me and he said, you know, Mrs. Daley--you saw 25 
teenagers very much engaged in robotics, they actually were 
walking on the tables and on the floor and they were all having 
a wonderful, joyous experience in this learning experience, and 
he came over to me and he said, you know, he said, I have to 
tell you this, I have been teaching in this school for 25 
years, I am a math teacher, and he said sometimes I would get a 
little down thinking that these young people really just don't 
care, they are not interested, and he said after watching this 
this afternoon, he said I realize that I need to change the way 
I teach. So that was an ``aha'' moment for him, I think, and so 
I think that working together out of school and in school and 
getting all of us, you know, to realize the potential of our 
teenagers. Even in the schools that are failing, the potential 
is great. So we have to create these activities that allow 
these youngsters to show their possibilities.
    Chairman Lipinski. And it is not just the students who 
learn. We all learn as we go along and learn how to do this 
better and get some reinforcement out of doing these things 
with these kids, and I just want to thank you for the work that 
you do. I want to thank all of our witnesses today for their 
testimony. The record will remain open for two weeks for 
additional statements from the Members and for answers to any 
follow-up questions the Committee may ask of the witnesses.
    With that, the witnesses are excused and the hearing is now 
adjourned.
    [Whereupon, at 11:32 a.m., the Subcommittee was adjourned.]

                                   

</pre></body></html>
